<html>
<title> - HOW WILL THE FCC'S PROPOSED PRIVACY REGULATIONS AFFECT CONSUMERS AND COMPETITION?</title>
<body><pre>[Senate Hearing 114-564]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-564

                  HOW WILL THE FCC'S PROPOSED PRIVACY
                      REGULATIONS AFFECT CONSUMERS
                            AND COMPETITION?

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                      U.S. GOVERNMENT PUBLISHING OFFICE
24-204 PDF                  WASHINGTON : 2017                      
__________________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>  

 
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2016....................................     1
Statement of Senator Thune.......................................     1
    Letter dated July 11, 2016 to Hon. John Thune, Hon. Bill 
      Nelson, Hon. Fred Upton, Hon. Frank Pallone, Hon. Greg 
      Walden and Hon. Anna Eshoo from Laurence H. Tribe, Carl M. 
      Loeb Universty Professor and Professor of Constitutional 
      Law, Harvard Law School; Richard A. Epstein, Laurence A. 
      Tisch Professor of Law, The New York University of Law, The 
      Peter and Kirsten Bedford Senior Fellow, The Hoover 
      Institution, The James Parker Hall Distinguished Service 
      Professor of Law Emeritus and Senior Lecturer, The 
      University of Chicago; Robert Corn-Revere, Partner, Davis 
      Wright Tremaine LLP; Robert D. Atkinson, President, 
      Information Technology and Innovation Foundation; Jane 
      Bambauer, Associate Professor of Law, University of 
      Arizona, James E. Rogers College of Law; Babette Boliek, 
      Associate Professor of Law, Pepperdine University School of 
      Law; Fred H. Cate, Distinguished Professor and C. Ben 
      Dutton Professor of Law, Indiana University Maurer School 
      of Law; James C. Cooper, Associate Professor of Law and 
      Director, Program on Economics and Privacy, Scalia Law 
      School, George Mason University; Justin (Gus) Hurwitz, 
      Assistant Professor of Law, Nebraska College of Law; Mark 
      A. Jamison, Director and Gunter Professor, Public Utility 
      Research Center, University of Florida; Daniel A. Lyons, 
      Associate Professor of Law, Boston College Law School; 
      Geoffrey A. Manne, Executive Director, International Center 
      for Law and Economics; David W. Opderbeck, Professor of 
      Law, Seton Hall University Law School and Director, Gibbons 
      Institute of Law, Science and Technology; and Paul H. 
      Rubin, Samuel Candler Dobbs Professor of Economics, Emory 
      University.................................................    62
    Letter dated July 11, 2016 to Hon. John Thune and Hon. Bill 
      Nelson from Gary Shapiro, President and CEO, Consumer 
      Technology Association; Jim Halpert, President and CEO, 
      Internet Commerce Coalition; Jonathan Spalter, Chair, 
      Mobile Future; Scott Belcher, CEO, Telecommunications 
      Industry Association; Meredith Attwell Baker, President and 
      CEO, CTIA; Genevieve Morelli, President, ITTA; Michael 
      Powell, President and CEO, National Cable and 
      Telecommunications Association; and Walter B. McCormick, 
      Jr., President and CEO, USTelecom..........................    64
    Paper entitled ``The Curious Absence of Economic Analysis at 
      the Federal Communications Commission: An Agency in Search 
      of a Mission'' by Gerard R. Faulhaber and Hal J. Singer....    67
Statement of Senator Nelson......................................     3
Statement of Senator Blunt.......................................   131
Statement of Senator Schatz......................................   132
Statement of Senator Markey......................................   134
Statement of Senator Moran.......................................   137
Statement of Senator Klobuchar...................................   139
Statement of Senator Daines......................................   141
Statement of Senator Gardner.....................................   143
Statement of Senator Heller......................................   145
Statement of Senator Blumenthal..................................   147

                               Witnesses

Hon. Jon Leibowitz, Partner, Davis, Polk & Wardwell and Co-
  Chairman, 21st Century Privacy Coalition.......................     4
    Prepared statement...........................................     6
Dean C. Garfield, President and CEO, Information Technology 
  Industry Council (ITI).........................................    14
    Prepared statement...........................................    15
Paul Ohm, Professor, Georgetown University Law Center and Faculty 
  Director, Georgetown Center on Privacy and Technology..........    20
    Prepared statement...........................................    22
Matthew M. Polka, President And CEO, American Cable Association..    28
    Prepared statement...........................................    29
Peter Swire, Huang Professor of Law and Ethics, Scheller College 
  of Business, Georgia Institute of Technology...................    35
    Prepared statement...........................................    37
    Article dated May 2016 entitled ``Online Privacy and ISPS: 
      ISP Access to Consumer Data is Limited and Often Less than 
      Access by Others'' by Peter Swire..........................    48

                                Appendix

Response to written questions submitted by Hon. Deb Fischer to:
    Paul Ohm.....................................................   155
    Dean C. Garfield.............................................   155
    Matthew M. Polka.............................................   156

 
                  HOW WILL THE FCC'S PROPOSED PRIVACY
                      REGULATIONS AFFECT CONSUMERS
                            AND COMPETITION?

                              ----------                              


                         TUESDAY, JULY 12, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Cantwell, 
Blunt, Rubio, Klobuchar, Ayotte, Blumenthal, Heller, Schatz, 
Markey, Fischer, Sullivan, Moran, Manchin, Johnson, Peters, 
Gardner, and Daines.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. This hearing will come to 
order.
    The protection of privacy on the Internet is vital. 
Protection from identity theft, protection from deeply private 
information: this is important to us as citizens and as 
consumers, and it's fundamental for allowing the Internet and 
the information economy to thrive, and thrive they have.
    Internet usage has increased 900,000 percent since the 
Telecom Act of 1996, and to meet that demand, the broadband 
industry has invested $1.4 trillion. This growth occurred under 
the Federal Communications Commission's light regulatory 
treatment of the Internet as an information service, and under 
the careful eye of the Federal Trade Commission, which, with 
limited exceptions, was responsible for protecting consumer 
privacy on the Internet. The FTC has brought over 500 cases 
protecting the privacy and security of consumer information, 
including cases where companies were alleged to have 
deceptively tracked consumers online or to have shared privacy 
consumer data with unauthorized third parties.
    The FTC has been the leader in protecting consumer privacy, 
but with the FCC's 2015 Open Internet Order, all of that 
changed. Broadband Internet Access Service, or BIAS, was 
reclassified as a telecommunications service, which, in turn, 
meant the FTC lost its jurisdiction over the privacy policies 
of BIAS providers.
    So now, after having forced the FTC off the field for 
broadband providers, the FCC has proposed a novel regulatory 
scheme for the newly reclassified providers. But the FCC's 
rules would apply only to certain parts of the Internet, and 
that is a source of significant concern. Both the Obama 
administration and the FTC have endorsed a consistent privacy 
regime across the digital landscape. Indeed, the FTC staff 
filed comments with the Commission stating, ``The FCC's 
proposed rules, if implemented, would impose a number of 
specific requirements on the provision of BIAS services that 
would not generally apply to other services that collect and 
use significant amounts of consumer data. This outcome is not 
optimal.''
    For those of you not familiar with bureaucrat-speak, let me 
tell you this, when they say, ``this outcome is not optimal,'' 
it's pretty strong stuff for one agency to say about another.
    I share the FTC's concern, and by overwhelming majority, so 
do the American people. Progressive Policy Institute polling 
shows that 94 percent of Internet users believe that all 
companies collecting data online should follow the same 
consumer privacy rules so that consumers can be assured that 
their personal data is protected regardless of the company that 
collects or uses it.
    I am concerned that at any particular time consumers will 
not have reasonable certainty of what the rules are and how 
their privacy decisions apply. At home on Wi-Fi? At home on a 
smartphone? Using your smartphone on a friend's Wi-Fi? Using 
the Internet at a library? Each of these could have very 
different privacy implications for a consumer because of the 
FCC's proposed piecemeal approach to privacy.
    There are other problems for consumers as well. Will the 
Commission's proposed rules make it more or less likely that 
BIAS providers will be able to provide better and more 
innovative services that could benefit consumers? And of 
particular importance to our rural communities, how are small 
BIAS providers going to be able to comply with the Commission's 
proposed regulations? Most of the rural carriers in South 
Dakota have between 2,000 and 5,000 broadband subscribers. How 
are they supposed to pay for the additional staff, software 
licenses, training, and other expenses that would be required 
to comply with the Commission's proposed rules?
    The FCC's push for a separate regulatory scheme for BIAS 
providers is based in significant part on their claim that ISPs 
are the most important and extensive conduits of consumer 
information, and thus have access to very sensitive and very 
personal information. I am not so sure about that. It appears 
that many companies that are not broadband providers have 
access to information about consumers that is more personal and 
more sensitive than much of what ISPs can access, yet those 
entities are not covered by the Commission's proposal.
    Is the FCC, which is a novice when it comes to regulating 
Internet privacy, the right agency to protect us from identity 
theft and to protect our private information? Do we want to 
have inconsistent privacy protection for consumers, with 
distinctions based upon how the Commission chooses to classify 
services under the Communications Act, an act that never 
envisioned the FCC dealing with online privacy or 
cybersecurity? Would consumers and companies be better off with 
the FCC's proposal?
    The witnesses we have before us today represent a broad 
variety of backgrounds and are true experts on these issues. 
And I look forward to your answers to these and other questions 
that you are asked here today.
    With that, I would yield to our distinguished Ranking 
Member, the Senator from Florida, Senator Nelson, for an 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    If we all share the same goal of how to best protect 
consumer online privacy, then it seems that we are bifurcated 
in our approach to this because in looking at the FCC's 
proposed privacy rules, both sides of the debate come at these 
questions with preconceived notions about how best to achieve 
this goal. On the one side, we are told that the FCC should not 
be adopting any rules for broadband providers because we are 
not also applying those same rules to every online player. On 
the other side, we're told that the FCC should adopt the most 
stringent rules possible in order to prohibit broadband 
providers from using any consumer data.
    Well, it seems to me that the question is ultimately how to 
preserve the benefits of online commerce, but in a way that 
takes into account consumers' right to know about and, when 
appropriate, control the collection and use of their personal 
information. So putting aside the claims of regulatory 
overreach or power grabs, isn't it clear the FCC is the expert 
agency for regulating communications networks, including 
broadband networks? It is an expert oversight agency with 
flexible forward-looking authority to protect consumers.
    If the content is governed by the FTC under the fair and 
deceptive practices standard, isn't it right for the FCC, as it 
has over the past several years and as I have pushed, to also 
use its authority to protect privacy? We need regulators who 
are not afraid to use their authority when necessary, to 
protect consumer privacy, but also we need the regulators to 
know when to exercise that authority in a restrained manner.
    Now, this is a difficult balance, but that doesn't mean 
that an agency should defer or otherwise be reluctant to do 
what it believes is in the best interest of protecting 
consumers. The FCC is still in the middle of a rulemaking to 
sort all of this out.
    Thank you, Mr. Chairman, for calling this hearing so that 
we can hear all the attitudes about the FCC's proposals and 
alternative approaches, but at the end of the day, I can tell 
you this Senator is going to side with the consumers in 
whichever approach that I can conclude best protects the 
privacy of broadband subscribers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    We've got a great panel today to hopefully shed some light 
on this subject. And on my left and your right is Mr. Jon 
Leibowitz, a Partner at Davis, Polk & Wardwell, and a Co-Chair 
of the 21st Century Privacy Coalition. He is also a former 
Chairman of the Federal Trade Commission.
    Next to him is Mr. Dean Garfield, who is the President and 
CEO of the Information Technology Industry Council.
    Professor Paul Ohm of Georgetown University Law Center.
    And Mr. Matthew Polka. He is the President and CEO of the 
American Cable Association.
    And Professor Peter Swine [sic], the Huang Professor of Law 
and Ethics for the Scheller College of Business at the Georgia 
Institute of Technology.
    We're delighted to have all of you with us today. Thank you 
for being here. We look forward to hearing from you and asking 
you some questions. And we'll start, as I said, on my left, and 
your right, with Mr. Leibowitz. So please proceed with your 
remarks. And if you could all confine it as close to possible 
with 5 minutes, we would very much appreciate it.
    Thank you.

    STATEMENT OF HON. JON LEIBOWITZ, PARTNER, DAVIS, POLK & 
    WARDWELL AND CO-CHAIRMAN, 21ST CENTURY PRIVACY COALITION

    Mr. Leibowitz. Thank you, Chairman Thune, Senator Nelson, 
other distinguished members of the Committee. I appreciate you 
inviting me to testify today on behalf of the 21st Century 
Privacy Coalition, which I chair with former Representative 
Mary Bono.
    Our Coalition is comprised of the Nation's leading 
communications companies, which have a strong interest in 
bolstering consumers' trust in online services. We believe the 
best way to ensure protection of consumer privacy is through a 
comprehensive and technology-neutral framework based on the 
type of data being collected and how it is used rather than on 
the type of entity collecting the data. And that is exactly the 
approach that the Obama administration has endorsed and the FTC 
has taken in decades, as you know, of robust privacy 
enforcement.
    The FTC has held hundreds of companies, large and small, 
accountable for breaking their privacy commitments to 
consumers, and by taking a largely enforcement-based approach 
rather than setting out prescriptive rules, the FTC has 
powerfully protected privacy while permitting the type of high-
tech innovation that has yielded huge benefits to all 
Americans. And when the FTC has done a rulemaking--so think 
about Do Not Call or the Children's Online Privacy Protection 
Act, as Senator Klobuchar and Senator Markey know, they have 
been successful. Indeed, the FTC approach has been so 
successful that in 2012 the White House called on the FTC to be 
solely responsible for protecting the privacy of every American 
across every industry, and that, of course, includes ISPs.
    As we know, last year the FTC's sister agency, the FCC, 
reclassified Internet service providers as common carriers, as 
part of the Open Internet Order. That decision removed ISPs 
from the FTC's jurisdiction. Having assumed sole jurisdiction 
to protect privacy among broadband users, the FCC is reasonably 
engaged in rulemaking. After all, we want to have a cop on the 
beat. And our Coalition was initially encouraged by Chairman 
Wheeler's stated aim to craft the proposed privacy rules in a 
manner, and I quote, consistent with the FTC's thoughtful, 
rational approach, and with the core principles of the FTC's 
2012 private report in mind.
    But the FCC's proposed rules, as currently drafted, are 
very different from FTC practice and policy. Instead, the 
proposed rules impose a restrictive set of requirements on 
broadband providers that don't apply to other entities that 
collect much or more consumer online data. The ISP's specific 
rules don't provide clear benefits to consumers, they don't 
protect privacy in the way that they should, they may 
themselves be unconstitutional, and more troubling, or at least 
as troubling, these restrictive requirements represent a 
fundamental change in the U.S. approach to privacy, a change 
that should not be made lightly or without the input of all 
stakeholders. Indeed, the FCC has not identified any consumer 
harms that warrant a vast departure from the FTC's successful 
approach.
    So the goals may be laudable, I have no doubt they are, but 
the draft rules betray a fundamental lack of understanding 
regarding how the Internet ecosystem works. Indeed, the FCC's 
proposed rules may well discourage the very broadband 
innovation that the FCC is statutorily obligated to promote, 
thereby harming the very consumers it's supposed to benefit.
    Let me highlight four salient flaws in the FCC's proposal.
    First, it is not technology-neutral. It would impose 
prescriptive rules on only a subset of the Internet ecosystem, 
and by doing so, diminish broadband providers as a potential 
competitive force to benefit consumers.
    Second, the FCC's proposal would impose opt-in consent 
requirements for non-sensitive data and basic everyday business 
practices, like first-party marketing. For example, an ISP, 
absent an opt-in consent, would be prohibited from marketing 
its own home security, music streaming, or energy management 
services to its own customers using its own customer lists, 
that makes no sense at all, nor would prohibiting a typical 
working-class family of four from accepting a discount in 
exchange for an ISP using customer information, even if that 
information isn't shared with anybody else. Consumers should be 
able to make their own choices as long as they are informed 
choices. Choice is really supposed to be what the Internet is 
about.
    Third, the NPRM, as drafted, would miss the opportunity to 
create consumer benefits from de-identified data.
    And, fourth, the proposal would impose an unrealistic 
timeline for breach notification and mandate massive 
overnotification that could cause consumers to ignore truly 
important messages from their ISP or from others.
    And don't take my word for it, as you pointed out, Senator 
Thune, my former agency, the FTC, has referred to aspects of 
the NPRM as, ``not optimal.'' In the FTC's comments on the FCC 
proposal, comment to the FCC, there are 28 separate instances 
where the FTC raises concerns about the FCC's approach.
    If I could make one suggestion to the FCC, it would be 
this: listen to the FTC and consider whether the FCC proposal 
is in tension with the U.S. successful NIST cybersecurity 
framework or could undermine the EU-U.S. Privacy Shield as it 
works its way through the European Parliament.
    Mr. Chairman, I ask for an additional 30 seconds and then I 
will end. Thank you.
    But with that said, let me make one last point: Final rules 
are often more balanced than proposed ones. I think you made 
this point, Senator Nelson. We may see a lot of improvement 
when the NPRM moves to completion. But even if you don't 
believe the FCC's current proposal is a solution in search of a 
problem, it would nevertheless create inconsistent standards 
across the Internet, confuse consumers, and undermine 
innovation that benefits consumers as well. And there are 
serious questions about whether it would withstand 
constitutional scrutiny.
    For all these reasons, the 21st Century Privacy Coalition's 
view is that the FCC should adopt the FTC's time-tested and 
proven approach, a privacy framework that has largely been 
embraced by the Obama administration.
    Thank you. I'm happy to answer questions.
    [The prepared statement of Mr. Leibowitz follows:]

   Prepared Statement of Hon. Jon Leibowitz, Partner, Davis, Polk & 
        Wardwell and Co-Chairman, 21st Century Privacy Coalition
    Chairman Thune, Ranking Member Nelson, other distinguished Members 
of the Committee, thank you for inviting me to testify at this 
important hearing. My name is Jon Leibowitz and, along with former 
Representative Mary Bono, I serve as Co-Chair of the 21st Century 
Privacy Coalition.
    Our group is comprised of the Nation's leading communications 
companies, which have a strong interest in bolstering consumers' trust 
in online services and confidence in the privacy and security of their 
personal information. We believe that consumers should enjoy the same 
robust protections throughout the Internet ecosystem. I offer testimony 
today regarding the FCC's ongoing broadband privacy rulemaking on 
behalf of our group.
    As consumers' online activity grows in size and scope, it is more 
important than ever that consumers have a clear notion of how their 
data is being used and shared, and what is being done to protect their 
data from hackers and other bad actors. Since the Internet's inception, 
the Federal Trade Commission (``FTC'') has been the main privacy cop 
enforcing these essential consumer protections. But last year, the 
FTC's sister agency--the Federal Communications Commission (``FCC'')--
reclassified Internet Service Providers (``ISPs'') as common carriers 
subject to Title II of the Communications Act, removing ISPs from the 
FTC's jurisdiction. Having assumed sole jurisdiction over the privacy 
practices of ISPs, the FCC is currently engaged in a rulemaking to set 
out a privacy framework for ISPs.
    The 21st Century Privacy Coalition was encouraged by FCC Chairman 
Wheeler's stated aim to craft the proposed broadband privacy rules in a 
manner ``consistent with [the] FTC's thoughtful, rational approach,'' 
and with the core principles of the 2012 FTC Privacy Report, 
``Protecting Consumer Privacy in an Era of Rapid Change:'' privacy-by-
design; choice; and transparency. Our group believes that an FCC 
rulemaking consistent with the FTC's privacy framework would ensure 
that privacy enforcement remains both robust and technology neutral--
that is, based on the sensitivity of data collected and how that data 
is used, rather than on the type of entity collecting the data. This 
would protect consumers while continuing to facilitate and encourage 
innovation and competition on the Internet.
    Such an approach also would better reflect the privacy and data 
security principles promoted by the Obama Administration after 
extensive research and outreach to stakeholders. In its 2012 Report 
``Consumer Data Privacy In a Networked World: A Framework for 
Protecting Privacy and Promoting Innovation in the Global Digital 
Economy,'' the Administration advocated for ``a level playing field for 
companies, a consistent set of expectations for consumers, and greater 
clarity and transparency.'' Moreover, the Report also recognizes that 
most first-party marketing is consistent with the context of the 
provider-consumer relationship, and that ``[c]ompanies should be able 
to infer consumer consent to collect personal data for these limited 
purposes.'' And the Report encourages companies to develop privacy 
protections based upon the ``sensitivity of the personal data that they 
collect, use, or disclose.'' In addition, the National Institute of 
Standards and Technology (``NIST'') Cybersecurity Framework has been 
highly lauded as an effective means of fostering increased security 
across a multiplicity of industries by placing a priority on risk 
management and flexible standards, rather than prescriptive and 
inflexible a priori rules.
    Unfortunately, while some parts of the FCC's proposed rules are 
consistent with the Obama Administration and FTC approach, in many 
important areas the rules deviate sharply from that approach, 
demonstrating both the FCC's lack of experience in the privacy area, 
and its failure to fully consider and test the likely impact of its 
proposed rule on consumers and ISPs alike during the course of its 
drafting process. Thus, we agree that, as the FTC noted, the FCC's 
approach is ``not optimal.''
    The FCC has proposed regulations for ISPs that go well beyond those 
imposed upon the rest of the Internet economy, and which, if adopted, 
would undercut benefits to the very consumers such rules seek to 
protect. Yet the FCC has failed to identify any harms or particular 
problems posed by ISPs that necessitate a divergence from the effective 
privacy framework that has applied to ISPs for years.
    The FCC's proposed rules do not reflect the economic and 
technological realities of the Internet ecosystem, which bears little 
to no resemblance to the traditional voice services market that the FCC 
has regulated under its Title II authority. In addition, it is 
inapposite to attempt to analogize the ISP industry to banks or health-
care companies to which sector-specific laws apply. Online data is 
collected and exchanged by many entities other than ISPs.
    In the Internet ecosystem, myriad entities have access to and use 
consumers' online information to provide customers free, advertising-
supported content and services, and a wide array of customized 
capabilities and offerings. Data-driven insights and offerings are a 
key driver of the growth of the Internet economy and the source of 
considerable innovation and benefits for consumers. Unfortunately, the 
FCC's proposed rules will make it much harder for ISPs to deliver these 
benefits, particularly compared to other online entities. For example, 
the NPRM would restrict consumer choice by prohibiting efforts by ISPs 
to promote broadband access by offering discounted service in exchange 
for targeted marketing. Thus, if enacted in its current form, the NPRM 
would harm, rather than benefit, consumers.
    In fact, ISPs are new entrants in the online advertising market, 
where ten companies, none of which are ISPs, hold over seventy percent 
of the market. The proposed rules would curtail ISPs' ability to enter 
that market and provide sorely needed competition. Under a reasonable 
reading of proposed rules set forth in the NPRM, ISPs would not be able 
to market their own non-communication-related products--like cloud 
services, music streaming, or a home security system--to their own 
customers without such customers' prior opt-in consent. The FCC must 
avoid an outcome in which ISP marketing practices that are clearly 
consistent with consumer expectations are restricted in a way that 
undermines consumer choice and eliminates opportunities for consumers 
to save money on products offered by an existing service provider. 
These marketing restrictions are also inconsistent with marketing laws 
already on the books--including CAN-SPAM and Do-Not-Call--in which 
Congress struck a balance between privacy and the dissemination of 
information to consumers by setting up opt-out regimes.
    Moreover, the proposed rules threaten to create not only consumer 
confusion, but also frustration and disruption of their online 
experiences. In a recent survey published by the Progressive Policy 
Institute, 94 percent of consumers agreed that ``[a]ll companies 
collecting data online should follow the same consumer privacy rules so 
that consumers can be assured that their personal data is protected 
regardless of the company that collects or uses it.'' In addition, 
because the United States has highlighted the FTC's approach to privacy 
in its negotiations with the European Union regarding cross-border data 
transfers, including the so-called Privacy Shield, there are concerns 
on both sides of the Atlantic that FCC divergence from the FTC privacy 
framework could undermine the Privacy Shield in the European Court of 
Justice as well as other U.S. international privacy negotiations. As 
the Obama Administration and FTC have long recognized, a truly 
consistent approach is critical to the continued growth of the 
Internet, to avoiding consumer confusion and misunderstanding regarding 
the uses of their data, as well as to permitting online innovation and 
competition to continue to flourish. The FCC's approach, as currently 
drafted, fails to achieve these important goals. This is an outcome 
that the FCC should abandon before adopting final rules.
    Further, the FCC's approach suffers from multiple constitutional 
infirmities and is unlikely to withstand court scrutiny. Rather than 
embark on such an approach just to be rebuked by the courts, the FCC 
should redraft its proposal to take into consideration the FTC's 
successful approach to privacy and to respect the constitutional 
boundaries of the FCC's authority.
The FTC Approach
    Privacy has long been a cornerstone of the FTC's consumer 
protection mission, and all of us who worked at the FTC are proud of 
the work we did to both protect consumer privacy and to ensure that 
consumers continue to benefit from the high-tech innovation and 
competition that has revolutionized modern life. As consumers migrate 
more and more of their lives online, the FTC has worked to ensure both 
that consumer privacy is safeguarded while providing companies with the 
flexibility to use data in ways that benefit consumers and foster 
competition and innovation.
    The FTC has a proven track record of success, built on robust 
enforcement, including over 500 successful privacy enforcement actions; 
occasional regulation such as the initial 1999 and subsequent 2010 
rulemakings on the Children's Online Privacy Protection Act; and 
thoughtful policy initiatives like the 2012 Privacy Report, a multi-
year endeavor that incorporated the findings of iterative policy 
workshops beginning in 2006, a draft Privacy Report in 2010, and over 
450 comments from consumer and industry advocates, technology and 
policy experts, and the public. Indeed, when the FTC published its 
comprehensive Privacy Report in 2012, its approach received praise from 
many consumer and privacy groups, and some criticism from businesses. 
For example, the privacy organization Electronic Frontier Foundation 
praised the FTC for ``creat[ing] strong guidelines for protecting 
consumer privacy choices,'' while the Information Technology and 
Innovation Foundation criticized the FTC, raising concern about 
``important trade-offs and costs'' associated with the FTC framework.
    In the four years since the publication of the FTC's Privacy 
Report, in which there have been continued developments in the way 
consumers access and use the Internet itself, the FTC has held more 
workshops and issued additional reports and guidance tailored to 
specific sectors, technologies, and practices to account for changes in 
the services offered over the Internet, and in the data collection and 
tracking technologies used by various entities within the Internet 
ecosystem. Despite these changes, the framework established in 2012 and 
the principles within the framework not only remain the same, but are 
even more resonant.
    The 2012 Privacy Report presents a single, comprehensive framework 
that companies should consider and implement when collecting, using, 
and maintaining consumer data. These principles are:

  (1)  Privacy by Design: calling on companies to provide reasonable 
        security for consumer data, to limit the collection of consumer 
        data to what is consistent in a context of a particular 
        transaction, to implement reasonable data retention and 
        disposal policies, and to maintain reasonable accuracy of 
        consumer data;

  (2)  Consumer Choice: encouraging companies to offer consumers the 
        ability to make decisions about the collection and use of their 
        personal data in a timely and contextual manner; and

  (3)  Transparency: encouraging companies to increase the transparency 
        of their information collection and use practices through 
        easily-readable privacy statements and consumer education.

    The FTC furthers these principles through robust enforcement rather 
than prescriptive regulation. It goes after companies when they break 
their privacy commitments to consumers or take actions that cause 
consumers real harm. This approach is flexible and promotes high-tech 
innovation, and it has held hundreds of companies, large and small, 
accountable when they cause real harm to consumers without 
countervailing benefits to consumers or competition.
    Importantly, in addition to creating a comprehensive framework for 
both online and offline data collection and use, the FTC Report 
highlighted the importance of a technology-neutral approach to privacy: 
Even after thoroughly studying the data collection and use practices of 
ISPs and other large platform providers, the FTC concluded that ``[a]ny 
privacy framework should be technology neutral.'' In other words, 
privacy enforcement should not depend upon the type of company using or 
collecting consumer data or the particular technology being used to do 
so. Indeed, the FTC specifically examined the question of whether large 
platform providers--a category that includes ISPs, but also social 
networks, operating systems, browsers, and advertising platforms--
should be subject to more stringent privacy obligations and, after a 
comprehensive inquiry, declined to take such a step. Instead, the FTC 
framework focuses on the sensitivity of the data collected and how 
those data are used. Consistent application of the principles is 
designed to provide consumers with clear and uniform privacy and data 
security protections, regardless of the particular product or service 
being used. The Administration has supported the FTC's policy of 
technology neutrality for privacy and the goal of a harmonized privacy 
framework for the entire Internet ecosystem.
    Finally, it is worth noting that the comments the FTC filed in the 
FCC's privacy proceeding, based largely on its 2012 Privacy Report, 
were unanimously supported by all three sitting commissioners. There is 
more enduring impact, and often more legitimacy, from bipartisan 
regulatory action.
The FCC's Proposed Rules
    The FCC's stated principles of transparency, consumer choice, and 
data security are framed as matching the principles at the heart of the 
FTC's framework and other privacy regimes in the United States and 
globally. And certain specific proposals in the NPRM are also 
consistent with the FTC approach. For example, the FCC's call for 
notice and consent to consumers of retroactive material changes to data 
collection and use is consistent with the FTC's framework and 
enforcement.
    But, as the FTC staff noted in its comments on the FCC's proposal, 
``the FCC's proposed rules, if implemented, would impose a number of 
specific requirements on the provision of [broadband] services that 
would not generally apply to other services that collect and use 
significant amounts of consumer data. This is not optimal.''
    In effect, the FCC proposal amounts to a de facto rejection of the 
FTC's technology neutral treatment of ISPs under the same set of 
standards applicable throughout the Internet ecosystem. Instead, the 
FCC's proposed rules require a broad default opt-in requirement for the 
use and sharing of customer data, with limited exceptions, rather than 
narrowly tailoring its opt-in to the collection and use of sensitive 
customer data. The FCC is also much more restrictive with regard to 
first-party uses of information, which enable companies to improve 
their service and apprise their customers of offers and products of 
interest to them. The FCC should recognize the FTC's experience and 
heed the latter's concerns with the NPRM.
    The breadth of data covered by the proposal, and the highly 
restrictive nature of the permissions regime employed by the FCC, 
creates a serious risk of unforeseen consequences that could adversely 
affect Internet capabilities and operations as well as disrupt consumer 
expectations. During the development of the 2012 Privacy Report, FTC 
staff addressed the potential impact of various proposals and ideas 
through extensive ``stress testing,'' whereby staff held scores of 
meetings with industry and consumer groups alike to test particular 
components in order to determine whether the desired outcome would be 
achieved. The FCC should conduct similar meetings to fully understand 
the effects of its proposed requirements, which have the potential to 
disrupt not only the broadband industry, but the entire Internet 
ecosystem, including competition in the online advertising market. What 
follows is a discussion of specific differences between the FCC 
proposed rules and the FTC approach.
Scope
    The FCC's Notice of Proposed Rulemaking (``NPRM'') applies onerous 
privacy and security requirements to a sweeping range of information 
that is not sensitive, such as IP and MAC addresses, as well as any 
other information that is ``linked or linkable to'' a user or device. 
This differs from the FTC approach, which sought to calibrate the 
framework's obligations to incentivize the strongest protections for 
the most sensitive data.
    The FCC's treatment of de-identified data is particularly 
problematic. Because de-identified data does not present a risk to 
consumer privacy or security, the FTC framework does not govern the 
notice, use, disclosure, security, or notification of breach of 
anonymized or de-identified individual data, as long as such data 
cannot be reasonably linked to a particular consumer, computer, or 
device. The FCC's proposal appears to confuse the FTC's guidance on the 
``reasonable linkability'' standard and the appropriate steps companies 
can take to minimize such linkability with a standard for aggregation, 
which is but one way to de-identify data. The NPRM would limit the 
exception for de-identified data only to data that is both aggregated 
and de-identified.
    By discouraging companies from investing in resources and tools to 
de-identify data, the FCC's proposal actually exacerbates--rather than 
mitigates--risks to consumer privacy. For example, as discussed below 
the proposed breach notification rules would require ISPs to notify 
consumers if there is an incident in which IP addresses are 
compromised. Because IP addresses on their own cannot be used to 
identify, let alone contact, an individual, the proposed rule would 
force ISPs to associate IP addresses with appropriate customer contact 
information to comply, increasing the likelihood that any incident 
results in the release of information that could be used to harm 
consumers. But both the Administration and FTC policies encourage 
providers to dissociate such data to minimize the potentially harmful 
effects of any security incident.
    Finally, by including broad categories of non-sensitive data within 
the scope of the NPRM's definition of customer proprietary information, 
the FCC invites irrational outcomes by placing burdensome requirements 
on ISPs that serve no discernible consumer privacy interest. For 
example, under a reasonable reading of the rule, ISPs must provide 
notice of data breaches to law enforcement and customers even under 
circumstances where there is no risk of harm to consumers. ISPs would 
also be prohibited from using their own customer lists to e-mail 
consumers about their own non-communications-related products and 
services.
Application
    As noted above, in the 2012 Report, the FTC stated: ``[A]ny privacy 
framework should be technologically neutral.'' There is widespread 
agreement on this point among consumer and industry advocates alike. At 
the FTC's December 2012 workshop, ``The Big Picture: Comprehensive 
Online Data Collection,'' Maneesha Mithal, Associate Director of the 
Privacy Division at the FTC noted this consensus in her closing 
remarks, describing ``the need for tech neutrality'' as an area of 
consensus and emphasizing that ``[w]e can't be picking winners and 
losers in this space.''
    Moreover, since 2012, the precipitous rise of encryption and the 
proliferation of networks and devices have limited the scope of 
customer data available to ISPs, while other companies operating online 
have gained broader access to consumer data across multiple contexts 
and platforms. For example, today, nearly half of Internet traffic is 
encrypted, dramatically limiting the information visible to ISPs, and 
an estimated 70 percent will be encrypted by the end of this year. This 
sea change in only four years drives home the importance of technology 
neutral privacy frameworks. Because the FCC is not in a position to 
dictate privacy rules for the entire Internet ecosystem, it should 
strive to harmonize its proposed rules with the FTC framework, and 
carefully consider the consequences of failing to do so. Unfortunately, 
the NPRM seems to be unaware of marketplace developments in the last 
several years as well as the harms caused by a bi-furcated privacy 
framework.
Choice and Context
    In its comments, FTC staff leveled criticism at the FCC's proposed 
consumer choice rules and recommended ``that the FCC consider the FTC's 
longstanding approach, which calls for the level of choice to be tied 
to the sensitivity of data and the highly personalized nature of 
consumers' communications in determining the best way to protect 
consumers.'' In particular, the FTC has never considered all web 
address information to be sensitive. Such a conclusion would have major 
implications for the entire Internet ecosystem.
    The FCC's proposed restrictive choice mandates that selectively 
target ISPs prevent consumers from accessing new products and services 
and potentially confuse them, but provide no benefits to consumers. 
They also constrain ISPs' ability to compete with edge providers, and 
likely will discourage broadband investment in a manner contrary to the 
FCC's mandate to promote such investment.
    Under the FTC framework, when a consumer does business with a 
company, there are certain uses of the consumer's information by the 
company for which consumer choice is implied because such use is 
consistent with ``the context of interaction between a business and the 
consumer.'' This implied consent covers uses and disclosures for 
product or service fulfillment, internal operations, most first-party 
marketing, and more. As the FTC commented ``[o]pt-in consent should be 
required for use and sharing of contents of consumer communications and 
sensitive data for purposes other than those for which consent is 
implied.'' The Administration's 2012 report, also recognizes that 
``companies may infer consent to use personal data to conduct marketing 
in the context of most first-party relationships.'' Opt-in consent is 
limited to truly ``sensitive data'' and technologies that use ``all or 
substantially all'' customer data.
    The FTC framework calls for a consumer opt-out for almost all 
online tracking, not an opt-in. According to the FTC, ``[o]pt-out is 
sufficient for use and sharing of non-sensitive data.'' The FCC 
proposal is a vast departure from this guidance.
    Rather than narrowly tailoring a requirement for opt-in consent to 
truly ``sensitive data,'' the proposed rules would impose a broad opt-
in requirement upon ISPs for the use or disclosure of a wide swath of 
consumer data for an extensive range of practices--including practices 
for which the FTC requires no choice at all because consent is implied. 
The notion that a bright-line opt-in requirement should apply to the 
collection of online information would represent a wholesale revision 
of U.S. privacy laws and would risk harm to the overall health of the 
Internet by constraining the beneficial use of data.
    The FCC's proposed rules disregard the context of the interaction 
between the consumer and the service provider. In today's economy, a 
company's relationship with its customers involves more than just 
providing service. It also requires understanding the ways in which 
services are used, identifying areas for improvement, and making 
consumers aware of product offers and enhancements that may interest 
them. By ignoring the balance between privacy and data-driven insights 
and innovation, the FCC's approach actually makes consumers worse off.
    The FTC does not require companies to provide any choice to present 
advertising to their own customers, except where that advertising was 
presented by tracking a user's online activity across other companies' 
websites or intentionally using sensitive information collected from 
its customers. Under the FCC's proposal, however, any use of customer 
information that is not relevant to marketing a communications-related 
service would require opt-in consent from the customer. Indeed, under 
the proposed rules, an ISP would likely not be able to market its own 
non-communication-related products--like a home security system, cloud 
services, or music streaming--to its own customers without their prior 
opt-in consent, regardless of the marketing channel used and despite 
the fact that this type of first-party marketing is certainly 
consistent with consumer expectations, and, indeed, with the 
significant benefits consumers have received from lower bundled prices 
and innovative new offerings for many years.
    The FCC's overbroad opt-in proposal has the potential to stifle 
innovation and competition in the online advertising marketplace and 
undermine benefits to consumers. As the FTC has recognized, the ability 
to effectively monetize online data has yielded astounding benefits to 
consumers. But consumers presented with an opt-in notice are likely to 
choose the path of least resistance. That is, many consumers will click 
``no'' to avoid devoting time and energy to understanding an opt-in 
request. However, when opt-in requirements are the rule rather than the 
exception, and consumers take this approach in aggregate, everyone 
loses out on the benefits of reduced-cost or free products and services 
subsidized by the effective monetization of online data. While ISPs 
rely primarily on subscription fees, limiting their ability to 
effectively use customer data in turn limits a potential avenue for 
reducing the cost of broadband Internet access to consumers. Consistent 
with the FTC's technology-neutral approach, ISPs should be able to use 
information in a manner consistent with consumer expectations and in a 
way that correlates to how the rest of the Internet ecosystem provides 
choice. Requiring over-inclusive opt-in consent mechanisms would unduly 
restrict ISPs from participating in the same Internet marketplace the 
FTC has found to provide benefits to both consumers and competition.
    The FCC's NPRM also departs fundamentally from FTC guidance and 
questions the core principle of customer notice and choice by 
suggesting that it could be appropriate to prohibit ISPs from offering 
discounted services in exchange for being able to offer targeted 
marketing. Many of us may decide that the price to pay to avoid 
personalized marketing is worthwhile, and so long as ISPs provide 
sufficient information to enable an informed choice, consumers 
themselves should be able to choose how to value their own privacy. The 
FCC should not interfere with consumer choice.
    The application of a broad opt-in requirement for non-sensitive 
information as proposed by the FCC would create an isolated privacy 
regime for ISPs that bears little correlation with consumer data 
practices used in virtually every other sector. Deviating from the 
FTC's privacy framework overall, but especially from the FTC's emphasis 
on determining consumer choices based upon the sensitivity of the 
information, the context of a consumer's interaction with a company, 
and the consumer's expectations, will inevitably result in consumer 
confusion over illogical, disparate standards applied to the same set 
of data. Ultimately, while the FCC Privacy NPRM purports to be based 
significantly on the FTC privacy framework, it is far more restrictive 
in all of the above respects, without providing any clear benefits to 
consumers or identifying harms it is trying to address. Rather than pay 
lip service to the FTC's well-tested approach to privacy, the FCC 
should actually heed the FTC's advice and harmonize the former's 
privacy regime with the latter's.
Data Security and Breach Notification
    The FCC's proposed data security provisions, requiring ISPs to take 
reasonable measures to protect customer data, are consistent at a high 
level with the approach set out in the FTC Report. However, their 
prescriptive and static nature are at direct odds with the NIST 
Cybersecurity Framework, which has been voluntarily adopted by a wide 
swath of industry and reflects flexible and reasonable standards that 
emphasize business-driven responses and solutions to cyber threats over 
prescriptive regulatory measures. Specifically, the FCC should replace 
its strict liability data security standard with a reasonableness 
standard. In addition, these requirements should be more narrowly 
tailored to apply to customer information that carries a risk of harm 
in the event of a breach.
    The proposed FCC breach notification rules would require ISPs to 
notify consumers of a breach of a very broad new definition of 
``customer proprietary information,'' much of which includes categories 
of data that do not pose any risk of harm to customers in the event of 
a breach, such as IP and MAC addresses and de-identified data. While 
the concept of breach notification is consistent with the approach the 
FTC and most states have taken, the proposed implementation by the FCC 
for innocuous data and to notify only ten days after discovery of the 
breach is very different and far more cumbersome.
    The FTC has long supported requirements for companies to notify 
consumers of security breaches in appropriate circumstances, such as 
when information has been compromised that can lead to harms such as 
financial loss or identity theft. The FTC has advocated that ``any 
trigger for providing notification should be sufficiently balanced so 
that consumers can take steps to protect themselves when their data is 
at risk, while avoiding over-notification, which may confuse consumers 
or cause them to ignore the notices they receive.''
    The proposed rules, as currently drafted, would mandate over-
notification. As the FTC staff notes in its comments on the proposed 
rules, the FCC should limit its notification requirement to a 
``narrower subset of personal information than `customer proprietary 
information' '' as the FCC has proposed that term to be defined in 
order to avoid over-notification to consumers. As the FTC staff 
asserts, ``when consumers receive `a barrage of notices' they could 
`become numb to such notices, so that they may fail to spot or mitigate 
the risks being communicated to them.' '' The NPRM states that the FCC 
intends to avoid this outcome, but major changes are required to the 
breach notification provision to achieve this goal. Otherwise, the FCC 
will jeopardize, rather than enhance, data security.
    The proposed rules also contain an unrealistic timeline for 
customer notification, requiring ISPs to notify customers of a breach 
no later than ten days after the discovery of a breach. The FTC's 
Health Breach Notification Rule requires companies to notify affected 
consumers ``without unreasonable delay'' and within 60 calendar days 
after the breach is discovered. Under the most restrictive time 
requirements among the general state breach notification laws--there is 
currently a patchwork of 47 state laws--an entity is required to 
provide notice ``as expeditiously as practicable and without 
unreasonable delay but no later than 30 days after determination of 
breach, consistent with time necessary to determine scope of the 
breach, identify individuals affected, and restore the reasonable 
integrity of the system,'' and with a 15-day extension granted for 
``good cause shown.'' The FTC staff comments suggest an outer limit of 
between 30 and 60 days, which it views as ``adequate for companies 
while protecting consumers.'' When finalizing its breach notification 
rules, the FCC should take these realities into consideration.
Constitutional Flaws In the FCC's Proposal
    Fundamentally, the NPRM's requirements would impose a substantial 
burden on speech because they would preclude ISPs from engaging in 
important and relatively routine communications with their customers. 
As discussed above, the NPRM would impose an opt-in consent requirement 
for the use or sharing of information, including non-sensitive 
information, by ISPs and their affiliates to market a broad category of 
non-communications related services. While this requirement is also the 
wrong policy outcome, it would prevent the type of targeted speech from 
which consumers benefit, and would prevent speech which will continue 
to be permitted for non-ISPs.
    In order to pass constitutional muster, such a burden on commercial 
speech must satisfy each element of the three-part test set out in 
Central Hudson Gas & Elec. Corp. v. Pub. Serv. Comm'n, 447 U.S. 557 
(1980), which asks whether (1) ``the government interest is 
substantial''; (2) ``the regulation directly advances the governmental 
interest asserted''; and (3) ``it is not more extensive than necessary 
to serve that interest.'' Harvard Professor Laurence H. Tribe has 
concluded that the NPRM fails on each prong of the Central Hudson 
test.\1\
---------------------------------------------------------------------------
    \1\ Laurence Tribe and Jonathan Massey, The Federal Communication 
Commission's Proposed Broadband Privacy Rules Would Violate the First 
Amendment, at 4 (May 27, 2016), http://www.ctia.org/docs/default-
source/defaultdocument-library/ctia-ncta-ust-file-tribe-paper.pdf.
---------------------------------------------------------------------------
    First, in Professor Tribe's view, the government has not 
articulated a substantial interest in restricting ISPs ability to use 
customer information already in its possession, particularly where that 
information is not disclosed to third parties. Second, as discussed 
above, the NPRM completely ignores the fact that, even if the proposed 
highly burdensome rules are imposed on ISPs, myriad edge providers will 
continue to collect and share the same type of consumer information. As 
Professor Swire notes in his testimony, edge providers often collect 
more consumer information than ISPs and the former represent the 
dominant players in the online advertising market. For this reason, 
Professor Tribe has concluded that this asymmetry demonstrates that the 
NPRM cannot be considered to directly advance an important governmental 
interest. And third, Professor Tribe has concluded that the NPRM's 
proposed opt-in rule is not narrowly tailored because a less obtrusive 
opt-out rule would serve any legitimate government interest in 
protecting consumers from first-party marketing.
    The FCC is already familiar with the Central Hudson constraints on 
the restrictions the agency may impose pursuant to Section 222 of the 
Communications Act (47 U.S.C. Sec. 222). In U.S. West Communications, 
Inc. v. FCC, 182 F.3d 1224 (10th Cir. 1999), the U.S. Court of Appeals 
for the 10th Circuit struck down the FCC's attempt at regulations 
governing Customer Proprietary Network Information (``CPNI'') with 
respect to voice communications. In that case, the court determined 
that the collection and sharing of CPNI among affiliates constituted 
speech and that the FCC's opt-in regime did not satisfy intermediate 
First Amendment scrutiny. As Professor Tribe notes, the proposals in 
the NPRM ``represent a much larger burden on speech and are far less 
tailored to any substantial governmental interest.'' (emphasis in 
original) \2\ Because the NPRM's proposed opt-in requirement poses a 
substantial burden on speech and is not tailored to any substantial 
governmental interest, it is susceptible to a constitutional challenge.
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
Conclusion
    Mr. Chairman, thank you for holding this hearing today. Our 
Coalition commends you and Senator Nelson for devoting the Committee's 
attention to this critically important issue. It is through the 
exercise of your crucial oversight authority that Congress can right 
the course of agency rulemakings that have veered away from mainstream, 
practical policy goals.
    In reviewing the record in the FCC's privacy proceeding, the 
breadth and depth of the objections to the proposed rules are striking. 
A diverse set of parties, ranging from civil rights groups, academics, 
researchers, security specialists, start-ups, advertisers, ISPs, 
equipment companies, software providers, IT providers, edge entities, 
and other Federal agencies all raise important and substantive concerns 
about key features of the FCC's proposal. Indeed, separate and apart 
from ISP objections to the FCC's proposal, there is very little support 
in the record for these rules from any entity that is in any way 
involved in network operations, management or security, or otherwise 
involved--either as an ISP or an edge provider--in providing services 
to broadband consumers. The FCC's proposal is so troubling that a 
number of parties that are clearly outside the scope of the proposed 
rules (as well as competitors in the marketplace) nonetheless felt 
compelled to submit comments due to the proposal's potentially 
disruptive effects on the Internet ecosystem as a whole. I think this 
is something that should give policy-makers--both here and at the FCC--
pause. And it certainly counsels against rushing ahead to adopt an 
entirely new set of rules that depart so dramatically from the proven 
and effective FTC framework that governed ISPs online activities prior 
to reclassification.
    As the FCC formalizes its privacy and data security rules, the 
agency should hold ISPs to the same robust privacy standards to which 
the FTC successfully held them for many years--and to which the FTC 
still holds the rest of the Internet ecosystem. A truly consistent 
approach will ensure a comprehensive, technology-neutral privacy 
framework that provides consumers the strong protections and choices 
they need and deserve, while reducing consumer confusion regarding what 
protections apply. At the same time, a consistent approach will promote 
the types of competition and innovation that fuel our economy. Such an 
approach will also demonstrate that the United States views the FTC 
approach to privacy as the preeminent model for consumer protection, 
which will help provide confidence to our trading partners that their 
own consumers will enjoy robust privacy protections under U.S. law.
    As someone who has been involved in more than a handful of 
rulemakings, it is important to point out that final rules are often 
more balanced than proposed ones. But the FCC's current proposal fails 
to achieve its own goals. Instead, it would create inconsistent 
standards across the Internet, harm and confuse consumers, and 
undermine innovation. The NPRM is of questionable constitutionality and 
does not reflect a reasoned approach to consumer privacy. For all these 
reasons, the 21st Century Privacy Coalition's view is that the FCC 
should ensure that any rules it adopts hew closely to the FTC's time-
tested and proven approach, which is consistent with the Obama 
Administration's approach to privacy and data security, and abandon its 
overly prescriptive, asymmetric rules.

    The Chairman. Thank you, Mr. Leibowitz.
    Mr. Garfield.

 STATEMENT OF DEAN C. GARFIELD, PRESIDENT AND CEO, INFORMATION 
               TECHNOLOGY INDUSTRY COUNCIL (ITI)

    Mr. Garfield. Good morning. Chairman Thune, Ranking Member 
Nelson, members of the Committee, on behalf of 60 of the most 
dynamic and innovative companies in the world, we thank you for 
inviting us to present at this hearing.
    This hearing is both timely and important. The companies 
that we represent that are members of ITI reflect the full 
cross-section of the tech sector, from servers to software and 
service, from social media to search. Those companies do not 
fall within the ambit of the FCC's Open Internet Order and so 
are not covered by the proposed rules.
    We are not here to choose sides between distinct regulatory 
agencies. Instead, what we present is our perspective on how to 
ensure that this vibrant ecosystem remains innovative and 
vibrant. I've submitted my testimony for the record, so rather 
than repeat it, I would like to hone in on three things: one, 
our perspective on privacy and cybersecurity; two, our views on 
the flaws of the FCC's approach; and, third, a path forward.
    I've chosen to focus on privacy and cybersecurity first 
because for our companies, they are first principles that are 
foundational. No two issues are more important to building and 
retaining trust with our customers, and we treat them 
accordingly. Privacy and security, by design, are not 
catchphrases in the tech sector, they're truly reflective of 
the commitment we place on privacy and security from the design 
phase to the delivery.
    The commitment of our companies to privacy and security is 
complemented by a rich, robust, well-developed privacy 
ecosystem that works. Jon alluded to much of it. In addition to 
the work of our companies, we have self-regulatory standards. 
We have the enforcement from the FTC and State attorney 
generals and, importantly, constant and consistent feedback 
from our companies that help to inform the approach that we 
take. The problem with the FCC's approach is that it parachutes 
into this rich, robust, well-developed ecosystem and assumes 
that it needs to rework all of the rules whole cloth. That 
presumption is faulty. For example, as Jon noted, the 
definition of PII is uniquely broad and bolts onto it a binary 
and rigid framework that's likely to prove unworkable. As well, 
around consent and choice, the FCC proposes an opt-in approach 
and to put its fingers on the thumb of the scale with no 
evidence that it's likely to work more effectively for 
consumers.
    The FCC takes the same approach on cybersecurity, where 
rather than following the leadership of the experts at NIST, 
that have focused on a risk-based approach that's grounded in 
standard global standards, it instead adopts an approach that's 
mechanical and focused on mandates. The rules, or the proposed 
rules, around data breach are reflective of that. There is 
little evidence that the approach proposed by the FCC will be 
more workable, and it's completely inconsistent with the 
approach that's being taken at the state level today.
    Our suggestion, or my testimony, should not be read to 
suggest that the FCC does not have a role here. Senator Nelson, 
the point you made resonates. We do not intend to suggest that 
the FCC's evaluation of these issues and attempt to find 
resolution of them is mistaken. What we intend to suggest is 
that the approach that they've taken is one that's inconsistent 
with best practices and what we know works.
    And so what we suggest as a path forward is that the FCC 
should take on board the comments that it's receiving, revise 
the existing NPRM to one that's more consistent with the well-
established privacy and security framework that exists today, 
largely guided by the FTC and NIST, and then come back with 
further comments so that we end up with something and rules in 
place that will help to advance the innovation ecosystem rather 
than to stymie them.
    I see that I have a few minutes remaining. I would just 
like to really thank the folks who are sitting behind me who 
are responsible for this testimony. My comments are really an 
embodiment of the thoughts that they've helped us to develop.
    Thank you.
    [The prepared statement of Mr. Garfield follows:]

      Prepared Statement of Dean C. Garfield, President and CEO, 
             Information Technology Industry Council (ITI)
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for the opportunity to testify today. I am Dean 
Garfield, President and CEO of the Information Technology Industry 
Council (ITI), and I am pleased to testify before your committee today 
on the important topic of how the Federal Communications Commission's 
(FCC or the ``Commission'') proposed broadband privacy regulations 
could impact consumers and competition.\1\
---------------------------------------------------------------------------
    \1\ Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-106, Notice of Proposed 
Rulemaking, FCC 15-138 (April 1, 2016) (``Broadband Privacy NPRM'').
---------------------------------------------------------------------------
    ITI shares the Commission's interest in, and respects its efforts 
to, protect the privacy of consumers of broadband Internet access 
services. Privacy is of paramount concern to our member companies, many 
of whom are providers of information technology and Internet services, 
because it is at the core of the trust relationship with our customers. 
Though the FCC lacks the authority to regulate our member companies who 
are the ``edge providers'' of ``over the top'' internet-based services 
referred to in its Notice of Proposed Rulemaking (``NPRM''), we are 
nonetheless concerned with the approach taken by the Commission in a 
number of respects. We therefore welcome your interest and engagement 
on this subject.
    ITI is the global voice of the tech sector. We are the premier 
advocate and thought leader in the United States and around the world 
for the information and communications technology (ICT) industry, and 
this year we are pleased to be commemorating our centennial. ITI 
represents 61 of the world's leading ICT companies,\2\ and we advocate 
globally for policies that advance U.S. leadership in technology, 
promote innovation, open access to new and emerging markets, protect 
and enhance consumer choice, and foster increased global competition. 
ITI's members comprise leading technology and innovation companies from 
all corners of the ICT sector, as well as companies using technology to 
fundamentally evolve their businesses, including wireless and wireline 
network equipment providers, computer hardware and software companies, 
mobile computing and communications device manufactures, Internet and 
digital service providers, and network security providers. ITI's member 
companies are also at the forefront of developing next-generation 
wireless communications equipment, infrastructure, networks, and 
services, along with the content, applications, and new uses that will 
be enhanced as mobile service evolves and advances. In other words, 
many of our members are the ``edge providers'' referred to in the FCC's 
proposal.
---------------------------------------------------------------------------
    \2\ For more information on ITI, including a list of its member 
companies, please visit: http://www.itic.org/about/member-
companies.dot.
---------------------------------------------------------------------------
    Privacy is of paramount concern to our member companies. Protecting 
our customers' personally identifiable information (PII) and their 
privacy, along with providing robust security, are essential to earning 
citizens' trust in the global technology marketplace. Innovating to 
protect privacy and security and to strengthen consumers' trust in the 
global digital infrastructure and Internet services are core to our 
companies' business practices and philosophies. Privacy is thus 
critical to our members' success, an essential component of our 
businesses, and impacts our ability to grow and innovate in a future 
heralding continued advances in the Internet of Things, Big Data, and 
beyond. Consequently, ITI has been a leading voice in advocating 
effective approaches to privacy, both domestically and globally.
    The Internet has thrived--and privacy has been protected--under the 
Federal Trade Commission's (FTC) approach to privacy, which is grounded 
in the Fair Information Practices Principles (``FIPPs''). This 
framework applies to all entities under the FTC's jurisdiction who 
collect and use consumer data. We believe the FCC's primary objective 
should be to closely harmonize with the existing FTC framework any 
Internet Services Provider (ISP) or broadband privacy rules it 
ultimately adopts. While the FCC has concluded that the regulation of 
Broadband Internet Access Services (BIAS) providers is uniquely within 
its purview following the FCC's decision to reclassify broadband as a 
Title II service, irrespective of whether that order is ultimately 
upheld in the courts, there is nothing in that decision that 
necessarily warrants a departure from the FTC's successful approach to 
privacy based on effective notice to consumers and a meaningful choice 
as to how their data is used. Unfortunately, the FCC intends to proceed 
in another direction, proposing a series of onerous privacy and data 
security rules that are out of step with established policy, law, and 
practice in this area.
    I will focus my testimony on four areas: (1) The FCC's lack of 
legal authority to regulate ITI's companies, including ``OTT'' or 
``Edge'' providers; (2) the inconsistency of the FCC's proposed privacy 
regulations with consumer expectations; (3) the broader inconsistency 
of the FCC's proposed privacy regulations with existing privacy 
authorities, frameworks and enforcement regimes, as embodied in the 
FTC's well-established approach to privacy; and (4) ITI's concern that 
the proposed rules will establish negative precedents that will 
ultimately adversely impact consumers, businesses, and the global 
policy ecosystem.
    On this latter point, I will highlight our concerns regarding how 
several of the specific rules proposed by the FCC are out of step with 
current law and practice, including: (1) the unreasonably short and 
inflexible breach notification periods; (2) the overbroad and 
unnecessary definition of personally identifiable information; (3) the 
overly burdensome consumer choice and consent framework; and (4) the 
prescriptive, inflexible data security requirements that are misaligned 
with current industry practice and Federal and state policymaking.
The FCC Lacks the Authority to Regulate ITI's Companies
    By and large, ITI's companies do not offer broadband Internet 
access service as a core part of their businesses, and could not be 
categorized as such given the definitions for BIAS and BIAS providers 
in the Open Internet Order and these proposed broadband privacy rules.
    Given this, ITI's companies are not subject to the FCC's 
jurisdiction under Title II, even after the FCC reclassified broadband 
Internet access service as a telecommunications service under Title II, 
nor is there a valid legal argument which could subject our companies 
to Title II regulation under the Open Internet Order adopted last year.
    The FCC specifically defines BIAS to mean ``[a] mass-market retail 
service by wire or radio that provides the capability to transmit data 
to and receive data from all or substantially all Internet endpoints, 
including any capabilities that are incidental to and enable the 
operation of the communications service, but excluding dial-up Internet 
access service. This term also encompasses any service that the 
Commission finds to be providing a functional equivalent of the service 
described in the previous sentence, or that is used to evade the 
protections set forth[.]'' The FCC defines a ``broadband Internet 
access service provider'' as a person or entity engaged in the 
provision of broadband Internet access service. Furthermore, the 
Commission specifically notes over-the-top services and service 
providers--a category into which many ITI member companies fit--are not 
broadband Internet access service providers and were not captured under 
the Open Internet Order nor the Broadband Privacy Notice of Proposed 
Rulemaking. In fact, in the Open Internet Order the Commission went out 
of its way to emphasize that while broadband Internet access service 
providers may offer over-the-top services, over-the-top providers of 
voice over Internet protocol, Internet protocol messaging services, and 
Internet video providers are separate and distinct from broadband 
Internet access providers.
    There are well-founded consumer, business, and economic reasons to 
rationalize why Internet and IT services providers and network 
operators including broadband services providers are treated 
differently from a regulatory perspective. From a consumer choice 
standpoint, there are significant differences between OTT services 
providers or Internet companies and BIAS providers. Consumers have 
traditionally had limited choices when it comes to choosing a BIAS 
provider for purposes of acquiring broadband or Internet service. 
Indeed, broadband access itself is increasingly considered a 
fundamental right by many--it is necessary for basic services at all 
levels of government, educational opportunities, workforce 
opportunities, and numerous other basic needs. Once a consumer has a 
broadband connection, however, consumers can easily choose amongst many 
different OTT applications and Internet service options, including 
choosing to discontinue one service, switch to another service, or 
subscribe to several comparable services simultaneously. And certainly, 
these types of services are not considered a right; rather, inherent in 
their multiplicity is the very concept of choice.
    Additionally, there are significant differences between the 
business and economic models of ISPs and edge service providers. 
Internet companies providing content or services to consumers have 
different economic interests than ISPs. For instance, consumers 
typically pay for broadband services whereas much of the content and 
many of the services provided to consumers over the Internet are ad-
supported and thus provided to consumers free of charge. This 
relationship has not changed under the reclassification of broadband 
Internet access service, nor has the legal and regulatory authority 
governing that relationship. Internet companies' relationship with 
their customers and the use of their customers' data has been and 
remains subject to FTC enforcement.
    ITI's perspective on this matter is solely driven by years of 
experience in engaging with, and helping to develop, the domestic and 
global privacy policy frameworks we operate under today.
The FCC's Proposed Data Privacy Rules are Inconsistent with Consumer 
        Expectations
    As I described above, ISPs and edge providers are very differently 
situated from the perspectives of consumers both in terms of how their 
business models are implemented and in terms of the regulatory reach of 
the FCC. The fact that there are fundamental differences between ISPs 
and Internet companies and those differences have historically given 
rise to different regulatory and enforcement regimes, however, does not 
give license to creating data privacy rules that are inconsistent with 
consumer expectations. Rather, how the FCC regulates data should be 
determined by what is best for consumers, whether consumers are 
suffering identifiable and quantifiable harms, and whether gaps exist 
in the current regulatory and enforcement regime.
    Additionally, sound privacy policy for one entity in the Internet 
ecosystem should be sound policy for all others. The FCC has not made 
the case to justify the type of expansive and prescriptive regulatory 
regime contemplated by the NPRM--a significant departure from the 
current FIPPs-based approach undertaken by the FTC.
    Fundamentally, if the FCC seeks to ensure the goals articulated in 
the NPRM of protecting consumer privacy, it must carefully weigh 
consumer interests and expectations. Unfortunately, the proposed 
regulations contain no indication that consumer interests--in 
particular whether they are suffering any harm under the current 
regulatory approach--demand expansive new regulations in this area. 
Consumers have embraced today's thriving internet, fueled by 
responsible data practices governed by the existing regulatory 
framework, and they have come to expect a seamless online experience 
across multiple devices that delivers convenience while also protecting 
their privacy. The current online ecosystem subsidizes online offerings 
that consumers value, promotes innovation, and grows the economy. There 
is simply no record of consumer harm supportive of the FCC's proposal 
for such restrictive regulations. In other words, the FCC's proposal 
should embrace a more measured approach. Consumer expectations have 
also not been factored into the FCC's analysis. Indeed, as Commissioner 
O'Reilly points out in his dissent, ``there is no need for the Notice 
to describe consumer expectations because it is irrelevant to the FCC's 
analysis.''
The FCC's Proposed Data Privacy Rules are Inconsistent with Existing 
        Privacy Frameworks and Enforcement Regimes
    We believe what would most benefit consumers is an approach that is 
consistent with existing privacy frameworks grounded in the FIPPs and 
consistent with existing privacy enforcement regimes. Consumers and 
industry benefit when one agency takes the lead on privacy regulation 
and enforcement because regulatory consistency permits continued 
innovation without bias among sectors. The FTC has a long history of 
addressing and enforcing privacy-related issues across industries. 
Indeed, the FTC has shown much leadership over the years as the 
enforcer on digital ecosystem issues, for both technical and legal 
reasons, and it remains well-situated to provide such leadership into 
the future.
    Specifically, existing voluntary self-regulatory standards 
supported by FTC enforcement are the appropriate tool to govern the 
dynamic and interrelated online content and advertising ecosystem. 
Currently, online data collection and use are governed by robust 
industry self-regulatory regimes that subject the industry to the 
jurisdiction of the FTC and state attorneys general. These regimes are 
regularly updated to reflect new business models, which reflect the 
responsible data practices so essential for the continued success of 
the Internet economy. Enforceable, voluntary, self-regulatory codes 
remain best suited to promote consumer privacy protections while 
allowing these legitimate data practices to flourish.
    Further, the FTC's enforcement authority provides effective legal 
safeguards for online data practices. In addition to industry self-
regulation, the FTC robustly enforces consumer privacy and data 
security standards using its authority to address ``unfair or deceptive 
acts or practices'' under Section 5 of the FTC Act. The FTC has used 
this authority to enforce company commitments to customers, to comply 
with industry self-regulatory requirements, and to protect consumers 
from harmful practices. State attorneys general typically follow FTC 
positions to actively enforce similar laws at the state level. These 
legal frameworks already provide consistent, meaningful consumer 
protections which can apply across industries, including to the 
practices the FCC now seeks to regulate. There is no need to create a 
new framework such as that proposed by the FCC because the FTC has 
well-established principles in this area.
    Nonetheless, if the FCC is ultimately found to possess the 
requisite authority to regulate broadband privacy and follows through 
on its intent to do so, it should make certain that any such efforts 
are consistent with existing robust privacy frameworks and enforcement 
authorities, particularly those of the FTC. One way to ensure this sort 
of consistency is for the FCC to work closely with the FTC to harmonize 
its privacy rules for broadband ISP consumers with the framework that 
protects consumers of those online businesses or services falling under 
the jurisdiction of the FTC. In addition, the FCC and FTC should work 
closely together to help the communities within their purview--
broadband ISPs and businesses providing service over the internet, 
respectively--to clearly understand the applicable rules to enable good 
faith compliance.
The FCC's Privacy Proposal is Out of Step with Current Law and 
        Practice, and would Establish Precedents that Will Negatively 
        Impact 
        Consumers, Companies, and the Internet Ecosystem
    Rather than adopt a regime aligned with the FTC's well-established 
approach to privacy, the privacy regime proposed by the FCC in the NPRM 
departs from the FTC framework in significant and material respects. We 
are particularly concerned that the prescriptiveness of the proposed 
regulatory approach could have precedential effects that would 
negatively impact the rest of the Internet ecosystem, including the 
tech sector. While it is hard to say for certain what the implications 
on other sectors will be if the FCC moves forward with the NPRM and 
adopts standards that diverge from those the FTC has already 
established for customer information, we believe the existence of 
multiple sets of privacy rules will, at a minimum, send a troubling 
message to governments and businesses internationally. Additionally, 
I'd like to point out four specific components of the FCC's proposal 
that are out of step with currently established policy and practice and 
raise significant concerns for both consumers and businesses.
    The Breach Notification Periods are Unreasonably Short and 
Inflexible. The FCC proposes extremely short data breach notification 
periods in the NPRM--entities suffering a breach would be required to 
provide notice within seven days to the Commission, FBI, and Secret 
Service, and within 10 days to customers (NPRM  75), without regard to 
whether the breach creates a significant risk of customer harm. Such 
notices would need to be provided regardless of whether a breach is 
malicious or inadvertent, which is an element in determining whether a 
risk of harm exists (NPRM  75).
    First, the FCC's data breach proposal fails to include a risk 
analysis, and therefore will contribute to notice fatigue at best or 
incite unnecessary panic at worst. Additionally, the proposal fails to 
account for breaches of data that are rendered not actionable through 
technology, such as encryption, or for inadvertent but innocent 
breaches, such as an employee accidentally opening the wrong file. 
Notifying individuals that their information has been compromised is an 
important step that enables them to take protective measures. 
Notification to consumers, however, is not productive if all data 
breaches result in notifications. If over-notification becomes 
commonplace, consumers will have difficulty distinguishing between 
notices and determining which ones warrant them to take action. 
Notification should be made to consumers if an organization has 
determined there is a significant risk of identity theft or financial 
harm. Upon receipt of such a notice, consumers can then implement 
measures to help avoid being financially damaged.
    Second, the proposal does not afford organizations adequate time to 
remediate any discovered vulnerabilities or to conduct thorough 
investigations to ascertain the nature and scope of any breach before 
notifying customers or government agencies of a breach of data. Unless 
vulnerabilities are addressed prior to making the breach incidents 
public, organizations and their customers are susceptible to further 
harm by wrongdoers. Because the NPRM does not afford organizations 
adequate time to investigate the scope and nature of breach incidents, 
the NPRM not only encourages over-notification by organizations, but it 
creates a standard of notification that would be counterproductive 
should the alleged breach prove a false alarm or if the breach does not 
create a significant risk of identity theft. A tremendous amount of 
forensics, decision-making, and clerical and legal work is required 
before ascertaining the nature and scope of a breach, assessing the 
risk of harm, or in determining the appropriate form of notification 
based on the organization's relationship with the effected customer.
    More fundamentally, the FCC proposes to regulate breach 
notification in a way that is contrary to the existing state 
notification regimes and the proposals under consideration by Congress. 
Recognizing the sophistication of today's hackers and the challenging 
nature of a post-data breach forensic investigation, a breach 
notification regime must provide realistic, flexible, and workable time 
requirements. ITI has long advocated for Congress to establish a 
uniform but flexible approach to data breach notification that notifies 
customers where there is a significant risk of identity theft or other 
financial harm. Such a uniform approach not only eases compliance 
burdens for businesses, but it reduces or eliminates confusion for 
consumers.
    The Proposed PII Definition is Overbroad and Unnecessary. The FCC 
proposes to define PII as ``any information that is ``linked or 
linkable to an individual.'' (NPRM  60). This is an overly broad 
definition that subsumes the entirety of the Customer Proprietary 
Network Information (``CPNI'') category that the FCC proposes to expand 
elsewhere in the NPRM. As a result, both the proposed PII and CPNI 
definitions expansively include data elements that have never before 
been considered PII under U.S. law, such as Internet protocol addresses 
or other unique identifiers necessary for the functioning of connected 
Internet devices, application usage data, persistent online identifiers 
(cookies), and Internet browsing history--data that is highly unlikely 
to contribute to a risk of concrete harm such as identity theft. (NPRM 
 62-63).
    First, it is unclear why the Commission endeavors to define PII at 
all, rather than just focusing on the CPNI data clearly within its 
statutory ambit. Further, the Commission acknowledges that BIAS 
providers may not actually collect all of the categories of information 
included within the proposed expansive definitions, yet the FCC 
proposes to regulate the collection of such data anyway. The potential 
unintended consequences of these overly and unnecessarily broad 
definitions are quite concerning, particularly since many of the types 
of data captured by the proposed definitions are integral to providing 
Internet services to consumers, including securing Internet 
transactions.
    Exhibiting some awareness of the potential unintended consequences 
that could flow from such a broad PII definition, the FCC proposes a 
number of exceptions to the definition of PII. For example, the NPRM 
exempts from the definition of PII data collected by entities ``to 
protect themselves or others from cybersecurity threats or 
vulnerabilities.'' (NPRM  117). We are concerned this exception may 
not be nearly broad enough to adequately help protect the Internet 
ecosystem. To illustrate, the definition suggests that companies would 
only be allowed to collect such information to counteract specific 
threats. This belies the reality that some of this information, such as 
unique IDs, must be collected and shared by companies as part of their 
cybersecurity risk management programs in order to prevent 
cybersecurity intrusions from happening. Indeed, the trajectory of 
Federal policymaking in this area over the past several years has been 
to encourage both continuous monitoring by organizations and the 
sharing of cybersecurity threat information to counteract cyber 
threats. The approach here is illustrative of the overall flawed 
approach to, and treatment of, PII in the FCC's proposal.
    The Proposed Consumer Choice and Consent Framework is Overly 
Burdensome and Restrictive. The consent standard proposed by the FCC is 
both overly burdensome and restrictive. Generally, the FCC has proposed 
to restrict most collection, use, and disclosures of data with an 
``opt-in'' consent standard, which it acknowledges may cause ``notice 
fatigue'' for consumers (NPRM  141). The Commission further 
acknowledges the ``burden of [their] proposed customer choice 
framework'' on businesses, particularly on smaller entities (NPRM  
151). The proposed choice framework is also out of step with current 
policy and practice.
    Experience shows that an opt-out or implied consent standard is an 
effective mechanism to effectuate consumer privacy preferences with 
respect to non-sensitive online data while allowing legitimate 
practices, including advertising, to continue. We urge the FCC to 
follow the FTC approach of permitting an opt-out approach for use of 
consumer data in most instances, with an opt-in approach reserved for 
uses of the most sensitive consumer data.
    The Proposed Data Security Requirements are Prescriptive, 
Inflexible, and Misaligned with Both Industry Approaches and Federal 
Cybersecurity Policies. In the NPRM, the FCC proposes both general data 
security requirements for BIAS providers and ``specific types of 
practices they must engage in to comply with the overarching 
requirement.'' (NPRM  167).
    While the Commission acknowledges any proposed security 
requirements must ``allow for flexibility for practices to evolve as 
technology advances,'' and claims it does not propose ``to specify 
technical measures for implementing the data security requirements,'' 
(NPRM  176), it nonetheless proposes a series of increasingly 
prescriptive security requirements. For example, the Commission 
proposes to not only require regular Graham-Leach-Bliley-like risk 
assessments (NPRM  180) at a frequency to-be-determined (NPRM  183), 
but it also asks whether the FCC should prescribe specific risk-
management requirements on BIAS providers, and how the risk assessments 
themselves should be conducted. (NPRM  182) These proposed 
requirements contradict existing cybersecurity public policy--such as 
that embedded in the Framework for Improving Critical Infrastructure 
Cybersecurity (``Cybersecurity Framework'')--that risk management is a 
continuous process demanding flexibility in order to provide reasonable 
protections in light of the nature and scope of the activities of a 
given company, including the sensitivity of the data it handles, its 
threat profile, and the size and complexity of the relevant data 
operations of the company. Another example can be found in the series 
of proposed specific authentication measures the Commission proposes to 
prescribe (NPRM  191-200).
    Indeed, the structure of the entire security section appears 
contrary to many of the core concepts of risk management (e.g., 
voluntariness, flexibility, etc.) as throughout the NPRM the Commission 
asks a series of ``should we require this'' and ``should we require 
that'' questions. This is a fundamentally flawed approach, out of step 
with the approach embodied in the Cybersecurity Framework and the 
consensus standards and best practices included within. We agree with 
Commissioner O'Reilly's dissenting statement that the proposed 
prescriptive security rules are inconsistent with the voluntary 
approach embodied in the Framework and are indeed ``alarming.''
Conclusion
    Members of the Committee, ITI and our member companies are pleased 
you are examining the important issue of how the FCC's proposed 
broadband privacy regulations may impact consumers and competition. We 
share both the FCC's and your interest in protecting the privacy of 
consumers of broadband Internet access services. As noted above, 
however, we are concerned with the approach taken by the Commission in 
a number of respects. We have raised our concerns directly with the 
Commission by submitting comments on the NPRM, urging the agency to 
reconsider promulgating data privacy rules that are inconsistent with 
consumer expectations or existing privacy authorities, frameworks and 
enforcement regimes, such as embodied by the FTC's longstanding 
approach to privacy. We appreciate the opportunity to reiterate these 
concerns today, including our belief that the privacy regime proposed 
by the FCC is out of step with current law and practice and would 
establish precedents that will negatively impact not only consumers but 
companies and the Internet ecosystem as a whole. Please consider ITI a 
resource on these important issues moving forward, and do not hesitate 
to contact us with any questions regarding this submission.
    Thank you for the opportunity to appear before you today.

    The Chairman. Thank you, Mr. Garfield.
    Professor Ohm.

          STATEMENT OF PAUL OHM, PROFESSOR, GEORGETOWN

          UNIVERSITY LAW CENTER AND FACULTY DIRECTOR,

          GEORGETOWN CENTER ON PRIVACY AND TECHNOLOGY

    Mr. Ohm. Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee, it's really my 
privilege to be here today to discuss a very important topic 
with you. The basic principle at stake is a very old one. The 
Postal Service cannot track the letters you send or open your 
letters in order to sell that information to marketers. Without 
your consent, your telephone company cannot track the phone 
numbers you dial or listen in on your conversations in order to 
sell that information to advertisers. We should have the same 
rule for ISPs, and without your consent, they should not be 
able to sell your reading habits and your physical location to 
advertisers.
    So to help protect this very old basic principle, the FCC 
has proposed the rule we are discussing today. I want to say 
three things about the rule. I believe it is unambiguously 
authorized by law, it is a wise rule, and it is a measured 
rule. Let me take those in turn.
    Now that the D.C. Circuit has ruled that reclassification 
of broadband service into Title II was within the power of the 
FCC, it's incumbent on the FCC to elaborate what this means for 
broadband providers, including rules for customer privacy. And 
nobody in the debate disputes that Congress enacted Section 222 
of the Telecommunications Act to obligate telecommunications 
providers, such as telephone companies, to respect the privacy 
of their customers. It makes a straightforward reading of the 
statute to extend this obligation to ISPs as well. Because this 
is a straightforward reading, the burden should be on those who 
would rewrite the statute, or even worse, ask the FCC to 
disregard it, rather than the agency that's merely trying to 
apply it.
    Number two, and I want to spend the most of the time on 
this, Why is the law wise? Congress's act reflects the well-
reasoned conclusion that telecommunications providers owe a 
heightened level of privacy to their customers. I've already 
explained the historical antecedent for this with our Postal 
Service and our telephone companies. Three other factors 
support this conclusion: visibility, choice, and sensitivity.
    Visibility. Your ISP sits at a privileged place in the 
network. They are the bottleneck between you and the Internet. 
You cannot access the Internet but by sending information 
through this bottleneck, and with this privileged location, 
they can be a part of every website or online destination that 
you visit. For unencrypted websites, this visibility is 
unparalleled, comprehensive, and complete, but even for 
websites that use encryption, the ISP's view is only partially 
obscured, they can see the domain names of the websites you 
visit, how often you return to these websites, how much 
information you exchange with these websites. It is a very, 
very complete and privileged location.
    Number two, choice. Most Americans today, as you well know, 
do not have a meaningful choice when it comes to fixed 
broadband service. The situation is specifically and especially 
difficult in rural America, and I'm glad, Chairman Thune, you 
raised rural America, where only 13 percent of residents have 
more than one choice for high-speed fixed broadband. And even 
for those Americans who do happen to have more than one choice, 
switching costs make it quite difficult to switch their ISP.
    Finally, sensitivity. With the visibility providers have 
and given the lack of your choice for exit, your provider can 
compile a detailed list of what you read, with whom you 
communicate, what you say, and, increasingly, where you go. And 
because storage is cheap, ISPs can record all of this vital 
sensitive information about you across years and eventually 
across decades. Privacy scholars have long tried to properly 
come up with a metaphor to characterize what we should think 
about a data base like this about every person in this room. 
Some have referred to them as digital dossiers. Others have 
talked about the right to intellectual privacy we ought to 
enjoy. My contribution to the metaphor debate has been to 
describe the database of ruin, the idea that there is now a 
corporate database in the celestial cloud that contains at 
least one fact about every member of our society that you would 
not want your worst enemy to know.
    These four factors together--history, choice, visibility, 
and sensitivity--led Congress in 1996 to do what it had done 
several times before. Simply put, in the American privacy law 
system, when we identify a sector or a context that has unique 
privacy risks like we have in telecommunications, we create a 
sectoral privacy law. We did this for health information in 
HIPAA, we did this for education information in FERPA, and, 
indeed, we did this in Section 222 of the Telecommunications 
Act.
    Finally, why do I believe that the FCC proposal is 
measured? Number one, the FCC proposal does not propose a ban. 
You might be excused from misunderstanding that based on some 
of the heated rhetoric that has come from critics of the 
proposal. You are not prohibited from any conduct under this 
rule. This is simply a disagreement about the type of user 
consent we ought to require before your ISP can look over your 
shoulder and record everything you do in order to sell it to 
advertisers. The FCC decided to require prior, informed, 
expressed consent before they could undertake this type of 
activity. I think this is the only sensible choice. And I'm 
happy to talk with you more about why during Q&A.
    Last, the proposal preserves the necessary conditions for 
competition by treating all providers alike. When Google 
operates as a broadband provider, as it now does in Kansas City 
through Google Fiber, they are required to follow the 
strictures of Section 222. When Verizon acquires American 
Online in order to bolster its advertising business, as it did 
last year, they are no longer regulated for that activity under 
Section 222. The playing fields are level.
    In closing, we do not have many privacy laws in this 
country. Section 222 is one of the few. And given the 
powerlessness your constituents feel and all Americans feel 
about this state of affairs, we ought to be bolstering and 
supplementing our privacy law, not cutting back on one of the 
very few that we have on the books.
    Thank you again for your invitation.
    [The prepared statement of Mr. Ohm follows:]

 Prepared Statement of Paul Ohm, Professor, Georgetown University Law 
     Center and Faculty Director, Georgetown Center on Privacy and 
                               Technology
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, I appreciate the opportunity to discuss with you the Federal 
Communications Commission's (FCC) proposal to protect the privacy of 
the customers of broadband Internet access service (BIAS).
    I am a Professor at the Georgetown University Law Center and a 
Faculty Director of the Center on Privacy and Technology at Georgetown. 
I specialize in information privacy, computer crime law, and technology 
and the law. I make these comments to you in my independent, academic 
capacity.
    In 1996, Congress enacted section 222 of the Telecommunications Act 
of 1996, delegating to the FCC the power to promulgate rules to protect 
the information held by telephone companies and other 
telecommunications providers covered by Title II of the Act. Under this 
clear statutory authority, the FCC has proposed new rules requiring 
BIAS providers to respect and protect the privacy of their customers, 
in the wake of the agency's decision to reclassify these providers into 
Title II, a reclassification recently found to be a proper exercise of 
the FCC's power by a panel of the Court of Appeals for the D.C. 
Circuit.
    The FCC has acted appropriately and wisely. The application of 
section 222 to BIAS providers represents not only a straightforward 
implementation of the law but also a laudable exercise of privacy 
theory and policy. I support these conclusions not only through my 
academic work \1\ and the work of other scholars, but also by 
leveraging the experience I have gained as a former Senior Policy 
Advisor to the Federal Trade Commission (FTC) on privacy issues, 
Department of Justice computer crimes prosecutor, and professional 
network systems administrator.
---------------------------------------------------------------------------
    \1\ This testimony builds on several articles I have written on 
information privacy, most notably on Paul Ohm, The Rise and Fall of 
Invasive ISP Surveillance, 2009 U. Ill. L. Rev. 1417 (2009). A full 
list of my published works is available online at http://paulohm.com/
scholarship.shtml.
    I have recently filed two public documents commenting on the FCC's 
NPRM. See Statement of Paul Ohm Before the Subcommittee on 
Communications and Technology, Committee on Energy and Commerce, U.S. 
House of Representatives (June 14, 2016), available at http://
paulohm.com/projects/testimony/PaulOhm20140614FCCPrivacyRules.pdf and 
Reply Comments of Paul Ohm Before the Federal Communications Commission 
in the Matter of Protecting the Privacy of Customers of Broadband and 
Other Telecommunications Services, WC Docket No. 16-106 (June 22, 
2016), available at https://www.fcc.gov/ecfs/filing/10622254783425.
---------------------------------------------------------------------------
    In this testimony, I make four points:

  <bullet> Section 1: The Telecommunications Act of 1996 obligates 
        telecommunications providers to serve as important gatekeepers 
        of privacy, a sensible choice then and now, one that continues 
        to protect important values in today's online environment.

  <bullet> Section 2: The proposed FCC rules will decrease overall 
        consumer confusion by creating a clear, bright line of privacy 
        protection.

  <bullet> Section 3: Rather than ban any behavior, the proposed rules 
        will create and preserve opportunities for innovation and 
        competition. Importantly, BIAS providers will retain the 
        ability to compete directly with edge providers subject to the 
        same privacy rules as any other company.

  <bullet> Section 4: There remains a significant need to strengthen 
        privacy rules for online actors other than BIAS providers. The 
        Federal Trade Commission (FTC) does not have all of the 
        authority or resources required to solve all online privacy 
        problems.
1 The Statute Treats BIAS Providers as the Gatekeepers of Individual 
        Privacy
    Our Federal laws protect privacy on a sector-by-sector basis and in 
piecemeal. The FTC Act provides an essential backstop across many 
industries, but there are limits to its approach, as I will discuss 
later. In narrowly circumscribed contexts, Congress has seen fit to 
create heightened privacy obligations. HIPAA protects the privacy of 
some health information, FERPA does the same for some education 
records, and the Fair Credit Reporting Act protects some credit 
reports, to name only three examples. In the same way, Congress 
reaffirmed in the Telecommunications Act of 1996 (1996 Act) that 
certain telecommunications providers would be subject to heightened 
privacy obligations. This was a measured and appropriate choice at the 
time, and it remains even more so today, even in light of 
reclassification.
    There are four reasons why it is essential to provide heightened 
protection for the privacy of information gathered by the companies 
that serve as our gatekeepers to the rest of the Internet: history, 
choice, visibility, and sensitivity. Each of these reasons contributes 
an answer to the question: why was Congress correct to require 
communications gatekeepers to respect the privacy of their customers? 
Let me elaborate each of these reasons in turn.
1.1 History
    The first reason to subject BIAS providers to special privacy rules 
is history. Since the dawn of intermediated communications, we have 
almost always required our common carriers to respect the privacy of 
what they have carried. It was so for the postal service in the 
nineteenth century, the telephone service early in the twentieth 
century, and parcel delivery services in more recent years. Time, 
experience, and theory demonstrate why we must enact laws to create the 
conditions that allow people to have faith in the privacy, security, 
and confidentiality of the information and goods they entrust to 
intermediaries like these.
    Congress enacted privacy protections in the original Communications 
Act of 1934 and restated and perhaps even broadened those protections 
in the 1996 Act. We are not working from a legal blank slate. Too much 
of the commentary around the FCC rules ignores the--perhaps 
inconvenient for some--fact that Congress has spoken quite clearly on 
this matter. The law protects what it protects, and the burden should 
be on those who would rewrite the statute, not on the agency that 
implements it.
1.2 Choice
    It is also appropriate for Congress to protect the privacy of 
information sent through a BIAS provider because of the relative lack 
of choice consumers enjoy for BIAS services. Today, most people in the 
United States have only a single broadband Internet service provider to 
choose from.\2\ Even when there is a nominal choice, high switching 
costs in the form of time, effort, hassle, and contractual lock-in make 
it difficult for a privacy-sensitive consumer to change providers in 
search of a more privacy-respecting alternative.
---------------------------------------------------------------------------
    \2\ FCC 2016 Broadband Progress Report, 31 FCC Rcd 699 
(``Approximately 51 percent of Americans have one option for a provider 
of 25 Mbps/3 Mbps fixed broadband service.'').
---------------------------------------------------------------------------
1.3 Visibility
    Every BIAS provider sits at a privileged place in the network, the 
bottleneck between the customer and the rest of the Internet. This 
favorable position gives it a unique vantage point, from which it 
enjoys the ability to see at least part of every single packet sent to 
and received from the rest of the Internet.
    No other entity on the Internet possesses the same ability to see. 
If you are a habitual user of the Google search engine, Google can 
watch you while you search, and it can follow you on the first step you 
take away from the search engine. After that, it loses sight of you, 
unless you happen to visit other websites or use apps or services that 
share information with Google. If you are a habitual Amazon shopper, 
Amazon can watch you browse and purchase products, but it loses sight 
of you as soon as you shop with a competitor. Habitual Facebook users 
are watched by the company when they visit Facebook or use websites, 
apps or services that share information with Facebook, but they are not 
visible to Facebook at any other times.
    When users interact with websites or use apps or devices that do 
not support encryption or do not enable it by default, a BIAS 
provider's ability to spy is complete and comprehensive. While it is 
true that BIAS providers can view less about its users' visits to 
websites that deploy encryption, it is a regrettable fact that millions 
of websites, including many of the most popular ones, still do not 
enable encryption by default.\3\
---------------------------------------------------------------------------
    \3\ Upturn, What ISPs Can See: Clarifying the Technical Landscape 
of the Broadband Privacy Debate, March 2016, https://
www.teamupturn.com/reports/2016/what-isps-can-see (reporting that more 
than 85 percent of popular sites in health, news, and shopping 
categories do not encrypt browsing by default).
---------------------------------------------------------------------------
    Even for user visits to websites that deploy encryption, a BIAS 
provider retains a significant ability to observe. When you visit a 
website protected by the most widespread form of encryption in use, 
https or http over TLS, even though your BIAS provider cannot tell 
which individual page you are visiting on the website, it still can 
tell the domain name of the website you are communicating with, how 
often you return, roughly how much data you send and receive, and for 
how long each visit lasts.
    Compare the richness of this information to the information a 
telephone company can see, which although subjected to the heightened 
protection of section 222, is relatively limited by comparison. In the 
1996 Act, Congress decided to impose significant limits on what 
telephone companies could do with the list of numbers an individual 
customer dials. This made good sense because even though this list did 
not literally expose the contents of communications, it nevertheless 
testified to something very private, individual, and important about 
our habits and associations. The list of websites visited by an 
individual (including how often and how long she visits each site) is 
even more private, individual, and sensitive than those older lists of 
telephone contacts.
1.4 Sensitivity
    Perhaps the most important reason to protect the information a BIAS 
provider can obtain is the intrinsic sensitivity of this 
information.\4\ A BIAS provider can gather at least three types of 
information we have long deemed sensitive: communications, reading 
habits, and location.
---------------------------------------------------------------------------
    \4\ See Paul Ohm, Sensitive Information, 88 S. Cal. L. Rev. 1125 
(2015) (providing a detailed review of the use in privacy laws of the 
concept of sensitive information).
---------------------------------------------------------------------------
    Our laws have long recognized the sensitivity of our 
communications. Under the Fourth Amendment, almost nothing receives the 
heightened protection for privacy given to the content of our 
conversations. Federal and state statutes vigorously protect both the 
content of and the metadata associated with communications. We reveal 
intimate portraits of ourselves through what we say to our friends, 
family, and associates. A BIAS provider can readily access the content 
and metadata of communications, particularly sent across unencrypted 
services.
    A BIAS provider can also build a fairly complete dossier of our 
reading habits across time. The list of websites an individual visits, 
available to a BIAS provider even when https encryption is used, 
reveals so much more than a member of a prior generation would have 
revealed in a composite list of every book she had checked out, every 
newspaper and magazine she had subscribed to, every theater she had 
visited, every television channel she had clicked to, and every 
bulletin, leaflet, and handout she had read. Nobody has been able until 
now to watch us read individual articles, calculate how long we linger 
on a given page, and reconstruct the entire intellectual history of 
what we read and watch on a minute-by-minute, individual-by-individual 
basis.
    Professor Neil Richards describes the right we should enjoy to 
``intellectual privacy.'' \5\ He argues that the law ought to protect 
vigorously the record of what we read and write. His writing supplies a 
powerful and well-reasoned justification for treating BIAS providers 
precisely as the 1996 Act does.
---------------------------------------------------------------------------
    \5\ Neil Richards, Intellectual Privacy: Rethinking Civil Liberties 
in the Digital Age (2015).
---------------------------------------------------------------------------
    Finally, with the rise of mobile broadband, BIAS providers now also 
track our location across time in a finely granular manner. Never 
before has anybody compiled such a complete accounting of the precise 
comings-and-goings of so many of us.
    So much of us can be revealed to a company that compiles a finely 
wrought accounting of where we have traveled, what we have read, with 
whom we have engaged, and what we have said. BIAS providers might 
respond that they want this information only to reduce us into 
marketing categories to sell and resell. I derive no comfort from that 
justification.
1.5 Privacy for All
    The four reasons for holding BIAS providers to high privacy 
standards--history, choice, visibility, and sensitivity--each implicate 
the same, difficult question: will privacy be enjoyed by every 
American, regardless of wealth or station in life, or only by America's 
privileged few? For each of these factors, the need for meaningful 
privacy protections for broadband customers is even stronger from the 
perspective of mainstream and marginalized Americans.
    For example, when it comes to visibility, some have argued that we 
need not worry about the privacy threat to a given consumer from any 
single ISP because the average American owns 6.1 devices and accesses 
the Internet using at least three different networks: one each for 
home, mobile, and work.\6\ These arguments ignore the lived reality for 
the many Americans who rely on only a single smartphone with a single 
connection as their lifeline to the Internet, and as a group tend to be 
less wealthy, younger, and disproportionately members of minority 
groups than the general population.\7\ Also, the average American 
worker does not have access to a Virtual Private Network (VPN) provided 
by an employer, the way some white collar workers do, and so is left 
looking for clunkier, costlier alternative technologies if she wants to 
shield her online activities from her provider.
---------------------------------------------------------------------------
    \6\ E.g., Comments of the United States Telecom Association, WC 
Docket No. 16-106 at 4; Comments of Mobile Future, WC Docket No. 16-106 
at 6. These commenters uniformly rely on statistics cited in a report 
by a team of attorneys from Georgia Tech and Alston & Bird, Peter 
Swire, et al., Online Privacy and ISPs at 3 (May 2016) [hereinafter 
Broadband for America Report].
    \7\ Pew Research, Chapter One: A Portrait of Smartphone Ownership, 
U.S. Smartphone Use in 2015, April 1, 2015, http://www.pewinternet.org/
2015/04/01/chapter-one-a-portrait-of-smart
phone-ownership/.
---------------------------------------------------------------------------
    The problem of insufficient choice, the next factor, is 
particularly stark for rural Americans, many of whom have only a single 
available provider to access the network. While 44 percent of Americans 
in urban areas have more than one available provider offering 25 Mbps/
3Mbps fixed broadband, only 13 percent of Americans in rural areas can 
say the same.\8\ Protecting only information deemed ``sensitive'' tends 
to underprotect Internet users with idiosyncratic or non-majoritarian 
sensitivities, such as members of minority religions, racial or ethic 
groups, or marginalized political viewpoints. Finally, history suggests 
that we protect the privacy of the telephone system (and the mail 
system before it) as a reflection of how important these networks are 
for average Americans seeking basic access to employment, social 
interaction, and benefits, which is even more true today for the 
Internet. This argument weighs much more heavily for those without 
stable employment or social support than for those who enjoy greater 
stability, wealth, and political power.
---------------------------------------------------------------------------
    \8\ FCC 2016 Broadband Progress Report, 31 FCC Rcd 699,  86 
(2016).
---------------------------------------------------------------------------
    We should reject arguments that would set information policy based 
only on the conditions of urban and wealthier Internet users who have 
relatively more (but still very little) service choice, more devices, 
more connections, better access to privacy tools, and whose 
sensitivities conform to society's default standards. Privacy should be 
available to all.
2 The FCC's Proposed Rule Will Decrease Consumer Confusion
    The FCC has proposed a simple, bright-line rule for the privacy of 
information transiting a BIAS provider's network: a BIAS provider may 
not use its customer's private information for purposes unrelated to 
the provision of service unless and until the informed consumer 
consents to those uses. The burden of communicating the purported 
benefits of uses of information rests on the party best positioned to 
make that case, the BIAS provider itself. This approach mirrors the 
approach the law takes in other sectors where the information at stake 
is especially sensitive or private, including healthcare, banking, and 
education.
    Contrast the straightforward nature of this proposal with the 
``notice-and-choice'' background rules that apply to otherwise 
unregulated online actors. Notice-and-choice regimes rest on the 
fiction that Internet users read and understand the hundreds of Terms 
of Service and Privacy Policy documents with which they are presented 
online each year.\9\ Each one of these lawyer-drafted and densely-
worded documents sets idiosyncratic ground rules for acceptable 
provider behavior for a single site or service alone. Even when 
companies break their own ground rules, they cannot be held to account 
unless the FTC or a state Attorney General notices, pursues, and proves 
the deception or unfairness.
---------------------------------------------------------------------------
    \9\ Two noted privacy experts, Aleecia McDonald and Lorrie Faith 
Cranor (currently Chief Technologist of the Federal Trade Commission), 
estimate that it would take the average person 244 hours per year to 
read the privacy policies of all sites and apps they used. Aleecia M. 
McDonald and Lorrie Faith Cranor, The Cost of Reading Privacy Policies, 
4 I/S: J L & Pol Info Soc'y 540, 560 & table 7 (2008), available at 
https://lorrie.cranor.org/pubs/readingPolicyCost-author
Draft.pdf.
---------------------------------------------------------------------------
    This crazy cacophony is somehow the ideal framework that BIAS 
providers urge the FCC to embrace, in the dubious name of reducing 
consumer confusion. The FCC's proposed default rule is much simpler and 
comprehensible: no unexpected uses of your information. A BIAS provider 
can diverge from the default, but only if it explains to you in clear, 
non-deceptive terms what it intends to do and receives your informed, 
express consent. To argue that this will increase rather than decrease 
consumer confusion not only defies good sense but also fails to give 
the consumer his or her due respect.
3 By Allowing Data Uses with Consent, the FCC's Proposed Rule Benefits 
        Consumers Without Unduly Burdening Providers or Competition
    In section 222, Congress made clear that covered providers could 
continue to use any information they could access ``with the approval 
of the customer.'' Faithfully applying this provision, the FCC proposes 
to allow any uses of information after prior customer consent. Neither 
Congress nor the FCC has enacted or even proposed a ban on uses of 
information, although you might think otherwise based on the 
characterizations of many of the covered providers.
    Put plainly, this debate is not about prohibiting conduct. Stripped 
of this confusion, this is simply a disagreement about the type of user 
consent we ought to require for conduct that at least some consumers 
find objectionable. In my reply comment to the FCC, I pointed out that 
the difference between the proposed opt-in rule and an alternative opt-
out rule is not nearly as stark a difference as some have stated.\10\ 
Recent research suggests that companies in other industries subjected 
to opt-in requirements have managed to convince large numbers of users 
to choose to opt in.\11\ I do not doubt that BIAS providers will try to 
replicate these results.
---------------------------------------------------------------------------
    \10\ Reply Comments of Paul Ohm Before the Federal Communications 
Commission in the Matter of Protecting the Privacy of Customers of 
Broadband and Other Telecommunications Services, WC Docket No. 16-106 
(June 22, 2016), available at https://www.fcc.gov/ecfs/filing/
10622254783425.
    \11\ Id. citing Lauren E. Willis, When Nudges Fail: Slippery 
Defaults, 80 U. Chi. L. Rev. 1155 (2013).
---------------------------------------------------------------------------
    The new rules also preserve other level playing fields to 
facilitate unburdened competition. BIAS providers like Verizon or 
Comcast can acquire (and have acquired) edge provider services such as 
content publishers, search engines, and social networking sites. A BIAS 
provider that launches or acquires a search engine will be able to use 
the information it takes from its search engine customers in the 
relatively unrestricted manner the law currently provides for that 
industry. Likewise, if a traditional edge provider like Google creates 
or acquires a broadband Internet service, such as the Google Fiber 
service, it will fall for those purposes within Title II of the 
Communications Act and thus be subject to the FCC's privacy rules. In 
either case, any two companies competing in the same market will be 
subjected to precisely the same rules under precisely the same terms.
4 The Need to Enhance Privacy in Other Contexts
    Of course, the FCC's new privacy rule will not solve all of the 
privacy problems we face. We need to raise our privacy standards across 
other parts of the online ecosystem as well. We ought to increase the 
resources we provide to the FTC and enhance its power to police 
deceptive and unfair privacy practices. We also ought also to consider 
imposing new and more stringent rules for industry segments striving to 
develop the kind of pan-Internet view that BIAS providers structurally 
enjoy or that handle vast amounts of sensitive information, as BIAS 
providers do.
4.1 The FTC Cannot Go It Alone
    It was my privilege to serve the FTC as a Senior Policy Advisor on 
privacy issues from 2012 to 2013. I was convinced during my service and 
continue to feel today that the FTC has become an important bulwark of 
privacy in a tumultuous time of change. We should view the FTC as the 
irreducible floor of online privacy protection, and we should do what 
we can to give the FTC additional resources to raise that floor.
    But the FTC simply cannot go it alone. The rise of the FTC as a 
capable and well-respected privacy regulator does not mean we should 
dismantle sectoral privacy regulation. The FTC's jurisdiction and 
enforcement activity cannot supplant the Department of Health and Human 
Service's role under HIPAA, the Department of Education's role under 
FERPA, or the Consumer Financial Protection Bureau's role under 
numerous financial privacy laws. Likewise, the fact that the FTC has 
been very active and successful policing privacy online does not mean 
we should discourage the FCC from protecting privacy under Section 222 
using its distinctive approaches and capabilities.
    For all of the amazing strides the FTC has taken to become an 
expert in online data collection, the FCC has had a much longer time to 
develop expertise in the protection of network access subscribers. With 
this head start, the FCC has unparalleled experience ensuring that the 
Nation's communications networks function in a way that is reliable and 
trustworthy and crafting regulations that promote the buildout of 
networks. Nobody has more experience and staff expertise on these 
matters than the FCC.
    Moreover, the FCC's clear statutory mandate in Section 222 is 
specific and proactive, in contrast to the FTC's mandate in Section 5 
of the FTC Act, which is far more general and reactive. Fortunately, 
these two mandates work together, as nothing in the proposed FCC rule 
will subject any company to conflicting FTC rules and vice versa. It is 
to the credit of the staff of these two agencies that they have entered 
into a Memorandum of Understanding committing to work together in their 
common privacy endeavors.
4.2 The Need to Strengthen Other Privacy Laws
    As I have argued above, it is a combination of history, choice, 
visibility, and sensitivity that justifies subjecting BIAS providers to 
the same kind of special privacy rules we have enacted for doctors, 
schools, credit agencies, and other industries. A sectoral approach to 
privacy law continues to be a desirable approach.
    It is true that other online entities are beginning to rival BIAS 
providers on at least some of these critical dimensions.\12\ Other 
entities traffic in location information, a category Congress ought to 
consider protecting as especially sensitive. Social networking sites 
carry exceptionally sensitive information and exhibit network effects 
and insufficient data portability that limit customer choice and exit. 
Finally, advertising networks strive to attain a BIAS-provider-like 
visibility across the Internet.
---------------------------------------------------------------------------
    \12\ Peter Swire, et al., Online Privacy and ISPs (May 2016).
---------------------------------------------------------------------------
    Congress should examine whether any other industry segment has 
implicated individual privacy along these dimensions so much that they 
have begun to rival doctors, schools, credit agencies, or BIAS 
providers. But once it identifies such an example, the answer will not 
be to decrease privacy law across industries, the answer will be to 
enact another new, measured and narrow sectoral privacy law, perhaps 
one modeled on the FCC's rules.
5 Conclusion
    Given the deep concern many of your constituents feel about their 
lack of control of information about them; given the calls and e-mails 
you no doubt receive after every significant data breach or other 
privacy debacle; given the survey after survey which bear witness to 
the breadth and depth of concern American citizens have about this 
state of affairs; and given the critical importance of an Internet we 
can trust for commerce, communications, and innovation, this is not the 
time to roll back one of the very few privacy protections we have for 
online activity. We should be strengthening not weakening the privacy 
of online activity. All American Internet users owe owe our thanks to 
Congress and the Federal Communications Commission for taking modest, 
sensible, and legally authorized steps toward enhancing the protection 
we enjoy.

    The Chairman. Thank you, Professor Ohm.
    Mr. Polka.

  STATEMENT OF MATTHEW M. POLKA, PRESIDENT AND CEO, AMERICAN 
                       CABLE ASSOCIATION

    Mr. Polka. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee, for inviting me to 
testify about the Federal Communications Commission's proposed 
privacy regulations and their effect on consumers and 
competition. Today I would like to focus on four essential 
points.
    First, American Cable Association members are already 
subject to a host of privacy and data security obligations, 
take those obligations seriously, and have an excellent track 
record of compliance. We, too, are consumers and so understand 
the need for privacy protections.
    Second, to best serve the interests of broadband consumers, 
the FCC should adopt a privacy and data security regime that is 
consistent with the FTC's framework. It has proven valuable and 
workable for all interests.
    Third, we fear that the FCC's proposed privacy and data 
security rules would impose needless, unduly burdensome 
obligations on smaller broadband providers, chilling investment 
and innovation, all with little consumer benefit.
    And fourth, should the FCC nonetheless proceed and adopt 
rules in line with its proposals, it should ease the burden on 
small broadband providers by providing tailored exemptions, 
extending compliance deadlines, and streamlining its rules.
    The American Cable Association represents 750 smaller cable 
operators, incumbent telephone companies, municipal utilities, 
competitors, and other local providers which offer service in 
all 50 States. Eighty percent of our members serve fewer than 
5,000 customers. Fifty percent serve fewer than 1,000. Most 
have 10 or fewer employees and cannot afford to dedicate 
employees solely to regulatory compliance.
    As I said at the outset, ACA members must comply, and have 
complied, with numerous privacy and data security obligations, 
several of which were the work of this committee. These two 
longstanding provisions include the Communications Act, Section 
631, for cable services enacted in 1984, and Section 222, the 
Consumer Proprietary Network Information rules, also known as 
CPNI, for voice and now broadband services, enacted in 1996. 
These also include Section 5 of the Federal Trade Commission 
Act for non-common carrier services and the laws of the states 
where providers operate. Complying with all of these 
requirements imposes a significant burden on smaller providers, 
but ACA members understand their duty and their legal 
obligations to protect the confidentiality of their customers' 
information.
    Because ACA members are subject to so many time-tested 
privacy and security obligations, they had hoped that the FCC, 
in crafting CPNI regulations to cover broadband, would have 
proposed a regime consistent with requirements already on the 
books. In fact, ACA joined with other industry organizations 
last year to present to the FCC a privacy framework that would 
promote the goals of transparency, choice, data security, while 
retaining consistency with the FTC's framework.
    Our privacy proposal would protect consumers and equally 
regulate all participants in the Internet ecosystem. It would 
also enable smaller providers to comply without undue burdens. 
Unfortunately, the FCC insisted on blazing an entirely new path 
by proposing novel, complex, and overly burdensome 
requirements. In comments filed recently with the FCC, the 
Small Business Administration's Office of Advocacy said that 
smaller providers will be subject to onerous obligations.
    In our view, these obligations would chill investment and 
innovation while providing uncertain consumer benefits. Even 
more importantly, these rules would apply only to broadband 
providers, a mere subset of players in the Internet ecosystem. 
This would lead to customer confusion as well as distort the 
market through asymmetric regulation. The FCC should revise its 
approach, reassess the costs and benefits of its proposal, and 
seek to blend it with the FTC's approach.
    In closing, ACA members have spent decades protecting their 
customers' privacy and data security. As the FCC moves to craft 
new rules for broadband, we seek to bring to bear our 
experience and the previous efforts of this committee and other 
government bodies to build a sound and lasting regulatory 
regime. And we promise to continue our efforts to develop a 
solution that works for all.
    Thank you.
    [The prepared statement of Mr. Polka follows:]

      Prepared Statement of Matthew M. Polka, President and CEO, 
                       American Cable Association
    Thank you, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee, for inviting me to testify on behalf of the American 
Cable Association (ACA) and its members about the steps we are taking 
to protect the privacy and security of our customers' personal 
information and our thoughts on the Federal Communications Commission's 
(FCC's or Commission's) proposed privacy and data security rules for 
broadband Internet access service (broadband service).
    In my testimony, I will focus on four points. First, ACA members 
are already subject to a host of privacy and data security obligations, 
take those obligations seriously, and have an excellent track record of 
compliance. Because they too are consumers, ACA members understand 
consumers' expectations and the need for privacy protections. Second, 
to best serve the interests of broadband consumers, the FCC should 
adopt a privacy and data security framework that is consistent with the 
Federal Trade Commission's (FTC's) approach, which has proven valuable 
and workable for all interests. Third and most unfortunately, we fear 
that the FCC's proposed privacy and data security rules would impose 
needless, unduly burdensome obligations on smaller broadband providers, 
chilling investment and innovation, all with little consumer benefit. 
And finally, if the FCC nonetheless proceeds and adopts rules in line 
with its proposals, it should ease the burdens on small providers by 
providing tailored exemptions, extending compliance deadlines, and 
streamlining its rules.
I. Background on ACA's Members
    ACA represents approximately 750 small and medium-sized cable 
operators, incumbent telephone companies, municipal utilities, and 
other local providers, which provide service in all fifty states. ACA 
members provide a variety of services to their residential and business 
customers, including voice, cable service, broadband, and various non-
common-carrier services, such as home security, PC support, e-mail, and 
data center services. Eighty percent of ACA members serve fewer than 
5,000 subscribers, and roughly fifty percent serve fewer than 1,000 
subscribers. Half of ACA's members have ten or fewer employees, with 
typically just one or two engineers or individuals with technical 
expertise, and these employees perform many duties within their 
companies. Few have in-house personnel dedicated to privacy and data 
security compliance. Yet, they take all necessary steps to comply with 
today's regulatory mandates, even though it is a challenge and cuts 
into their ability to upgrade systems and to offer new products and 
services.
    Consequently, ACA urges Congress and the Commission to continue to 
seek to balance actions that would impose new obligations with the 
resource capabilities of smaller providers. Skewing that balance 
against broadband providers--as the Commission proposes to do--imperils 
investments in high performance networks and information services so 
critical for consumers and our economy.
II. ACA Members Are Already Subject to A Host of Privacy and Data 
        Security Rules, Take Those Obligations Seriously, and Have 
        an Excellent Track Record of Compliance
    ACA members must comply and have complied with numerous privacy and 
data security obligations, several of which were the work of this 
Committee. ACA members that provide cable service must comply with 
Section 631 of the Cable Communications Policy Act of 1984 (the Cable 
Act).\1\ ACA members that provide voice services--whether traditional 
circuit-switched voice or interconnected voice over Internet Protocol 
(VoIP)--must comply with Section 222 of the Communications Act of 1934, 
and its implementing rules related to customer proprietary network 
information (CPNI).\2\ ACA members that provide broadband service must 
comply with the FCC's transparency rule (which requires disclosure of 
privacy policies), and since the 2015 Open Internet Order, the FCC has 
asserted that they must comply with Section 222 (notwithstanding 
ongoing challenges to the agency's authority to do so). ACA members 
that provide non-common-carrier information services, a term which 
until recently applied to broadband service, must also comply with 
Section 5 of the Federal Trade Commission Act, which prohibits ``unfair 
or deceptive acts or practices,'' including those related to privacy 
and data security. Further, our members are subject to the laws and 
rules of the states in which they operate, including but not limited to 
data breach notification laws.\3\ In addition, to the extent that they 
interact with institutions handling sensitive information such as 
banks, hospitals, and schools, they often must assume obligations--by 
statute, rule, or contract--to protect such information.
---------------------------------------------------------------------------
    \1\ Cable operators have been subject to Section 631 for over 30 
years. Section 631 includes a robust set of requirements, including 
annual subscriber notices, a customer consent framework, access rights, 
and a private right of action.
    \2\ Section 222 and its implementing rules are designed to protect 
the confidentiality of individually identifiable CPNI, a narrow 
category of information that includes information about a customer's 
use of the network (e.g., call detail records) and information 
contained within customer bills. The CPNI rules include a three-tiered 
notice and consent regime, data security safeguards, a breach 
notification rule, and annual certifications. Beginning in 2014, the 
FCC began to read Section 222 more broadly to protect ``customer 
proprietary information,'' a category of information that according to 
the FCC includes both CPNI as well as all personally identifiable 
information. ACA and others have challenged the Commission's broad 
interpretation of the statute as unlawful.
    \3\ Every state has a law prohibiting deceptive practices, and most 
have laws prohibiting unfair practices, similar to the FTC's Section 5 
prohibition. See, e.g., Conn. Gen. Stat. Sec. 42-110b(a); Fla. Stat. 
Ann. Sec. 501.204; Mass. Gen. Laws Ch. 93A, Sec. 2(a); S.D. Codified 
Laws Sec. 37-24-6(1). Further, 47 states have enacted data breach 
notification laws. See, e.g., Conn. Gen Stat. Sec. 36a-701b; Fla. Stat. 
Sec. Sec. 501.171, 282.0041, 282.318(4)(j)(1); Mass. Gen. Laws 
Sec. 93H-1 et seq. Moreover, several states have enacted additional 
privacy and data security requirements. See, e.g., Fla. Stat. 
Sec. 501.171; 201 CMR 17.00. For example, Massachusetts requires 
companies to ``develop, implement, and maintain a comprehensive 
information security program that is written in one or more readily 
accessible parts and contains administrative, technical, and physical 
safeguards,'' with granular requirements that every such information 
security program must include. See 201 CMR 17.00.
---------------------------------------------------------------------------
    Complying with all of these privacy and data security laws is a 
significant burden for smaller providers, but they understand their 
responsibilities and have taken the necessary steps to ensure they 
comply. ACA members notify their subscribers of their privacy practices 
through welcome packages, annual notifications, and website privacy 
policies. Our members also provide opportunities for customers to make 
choices about how service providers use or share their information and 
give all the necessary information to make an informed choice. They 
also understand the importance of effective personnel training, as well 
as the need to ensure that agents and independent contractors--e.g., 
billing and customer service companies--protect the confidentiality of 
customer information.
    ACA members employ reasonable physical, technical, and 
administrative data security practices to protect against breaches of 
customer information. For example, ACA members have established robust 
authentication requirements, such as password protection for access to 
customer information or, for small-town providers, requiring customers 
to authenticate themselves in person with proper identification. In 
addition, our members are responsible in their duties to comply with 
the recordkeeping and reporting obligations of the FCC's existing 
privacy and data security rules, including obligations to keep records 
of customer approval status and marketing campaigns, as well as annual 
certification obligations. We have been active in the FCC's 
Communications Security, Reliability and Interoperability Council 
Working Group IV proceeding, which is intended to assist companies with 
implementing voluntary cybersecurity measures for the communications 
sector that respect the unique challenges that small and medium-sized 
providers face.
    The privacy and data security actions described above and others 
that smaller providers undertake do not exist in a vacuum--they are 
just one part of an increasingly complex web of legal and regulatory 
obligations with which providers must comply, including law 
enforcement, disabilities access, copyright, emergency alert service, 
universal service, and open Internet obligations, as well as a variety 
of state and local regulations.
    ACA members have an excellent track record in protecting the 
confidentiality of their customers' information and complying with 
privacy and data security laws and rules. Indeed, in the decade during 
which the FTC exercised its authority over broadband providers--
conducting innumerable investigations and actions against companies 
related to privacy and data security--we are not aware of a single 
action against a smaller broadband provider for the sorts of privacy 
and data security practices that the FCC seeks to regulate pursuant to 
its proposals. Such a long run free of major incidents reinforces the 
view that a new and more intrusive privacy and data security regime is 
not needed to protect consumers.
III. To Best Serve the Interests of Broadband Consumers, the FCC Should 
        Adopt a Privacy and Data Security Framework That Is Consistent 
        With the FTC's Approach, Which Has Proven Valuable and Workable 
        for All Interests
    Until the FCC classified broadband service as a Title II 
telecommunications service in the 2015 Open Internet Order, all 
industry participants in the Internet ecosystem were subject to the 
jurisdiction of the FTC. The FTC's approach combines a flexible 
statutory provision--Section 5 of the FTC Act--with heightened 
obligations for limited categories of sensitive information (e.g., 
children's information, health information, or financial information). 
As such, the FTC's approach has at its core the concepts of 
flexibility, context specificity, and technological neutrality. This 
framework has enabled the Internet ecosystem to flourish to the benefit 
of consumers, edge providers, and broadband providers alike. Further, 
by avoiding hyper-prescriptive rules and focusing instead on the 
reasonableness of providers' practices and the truthfulness and 
completeness of their representations to their customers, the FTC's 
framework lessens the compliance burdens on smaller providers.
    In contrast, the FCC proposes to cleave the Internet ecosystem in 
two by subjecting one set of participants--broadband providers--to a 
different and more burdensome privacy and data security regime, while 
another set--including edge providers--remain subject to the FTC's 
approach. The FCC is proposing these rules despite the fact that the 
large edge providers can know more about a user's activity and, unlike 
broadband providers, often employ business models that depend on the 
collection, use, and sharing of their customers' personal information. 
For smaller broadband providers, which lack scale, such business models 
are rarely in our members' strategic plans.
    In advance of the FCC issuing its proposals, ACA and several trade 
associations proposed a framework that would protect consumers and 
promote the FCC's goals of transparency, choice, and data security 
while retaining consistency with the FTC's framework. Such an approach 
would protect consumers and avoid entity-based regulation that would 
create consumer confusion and stifle innovation. Consumers expect their 
data will be subject to consistent privacy standards based upon the 
sensitivity of the information and how it is used, regardless of which 
entity in the Internet ecosystem uses that data. Indeed, FTC staff has 
stated that ``any privacy framework [for broadband providers, operating 
systems, browsers, and social media] should be technology neutral,'' 
and has argued that the FCC's failure to propose a consistent privacy 
regime is ``not optimal.''
    We recommended that to maintain consistency with the FTC's 
framework, the FCC should adopt rules based on the following 
principles:

  <bullet> Transparency. A broadband (telecommunications service) 
        provider should provide notice, which is neither deceptive nor 
        unfair, describing the CPNI that it collects, how it will use 
        the CPNI, and whether and for what purposes it may share CPNI 
        with third parties.

  <bullet> Respect for Context and Consumer Choice. A broadband 
        provider may use or disclose CPNI as is consistent with the 
        context in which the customer provides, or the provider 
        obtains, the information, provided that the provider's actions 
        are not unfair or deceptive. For example, the use or disclosure 
        of CPNI for the following commonly accepted data practices 
        would not warrant a choice mechanism, either because customer 
        consent can be inferred or because public policy considerations 
        make choice unnecessary: product and service fulfillment, fraud 
        prevention, compliance with law, responses to government 
        requests, network management, first-party marketing, and 
        affiliate sharing where the affiliate relationship is 
        reasonably clear to consumers. Consistent with the flexible 
        choice mechanisms available to all other entities in the 
        Internet ecosystem, broadband providers should give consumers 
        easy-to-understand choices for non-contextual uses and 
        disclosures of their CPNI, where the failure to provide choice 
        would be deceptive or unfair. The provider should consider the 
        sensitivity of the data and the context in which it was 
        collected when determining the appropriate choice mechanism.

  <bullet> Data Security. A broadband provider should establish, 
        implement, and maintain a CPNI data security program that is 
        neither unfair nor deceptive and includes reasonable physical, 
        technical, and administrative security safeguards to protect 
        CPNI from unauthorized access, use, and disclosure. Providers' 
        CPNI data security programs should provide reasonable 
        protections in light of the nature and scope of the activities 
        of the company, the sensitivity of the data, and the size and 
        complexity of the relevant data operations of the company.

  <bullet> Data Breach Notifications. A broadband provider should 
        notify customers whose CPNI has been breached when failure to 
        notify would be unfair or deceptive. Given that breach 
        investigations frequently are ongoing at the time providers 
        offer notice to customers, a notice that turns out to be 
        incomplete or inaccurate is not deceptive, as long as the 
        provider corrects any material inaccuracies within a reasonable 
        period of time of discovering them. Broadband providers have 
        flexibility to determine how and when to provide such notice.

    Our proposal would meet consumers' privacy needs while allowing 
them to take advantage of products and services they expect from their 
service provider and would avoid inconsistent and burdensome oversight. 
Moreover, it would ensure a level playing field between edge providers 
and broadband providers, promoting an innovative and competitive 
broadband ecosystem.
    Our proposal also would improve the ability of smaller providers to 
comply without incurring undue costs or other burdens. As I explained 
earlier, smaller providers work to ensure that they use customer 
information consistent with their customers' expectations. Since these 
providers are already familiar with the FTC framework, they would not 
have to incur material additional costs to bring their policies, 
processes, and systems into compliance if the FCC adopts rules 
consistent with this framework.
    Our proposal also is superior because the consumer choice 
provisions align with consumer expectations by respecting the context 
of customer-carrier interactions. This will enable small providers to 
offer new and innovative services to their customers, increasing 
consumer choice and competition.
    The data security rule in our proposal also contains a robust 
general security standard that requires ``physical, technical, and 
administrative'' security safeguards while including the size of the 
company as a factor in determining whether particular safeguards are 
reasonable. As such, in the event that smaller providers grow, the 
rules will require more sophisticated processes commensurate with their 
larger operations. Additionally, our framework enables the FCC to 
establish best practices through multi-stakeholder processes.
    Finally, our proposed data breach notification rule is superior to 
the FCC's proposed rule because it provides flexible deadlines that 
will not overburden small providers and a safety valve for good faith 
disclosures so that small providers can avoid counterproductive strict 
liability enforcement actions associated with inflexible and overly 
prescriptive regimes.
IV. The FCC's Proposals Would Needlessly Impose Unduly Burdensome and 
        Costly Restrictions on Small Providers, Chilling Investment and 

        Innovation With Minimal Additional Consumer Benefit
    The FCC proposes a set of privacy and data security rules that, if 
adopted, would be one of the most complex in the United States. Let me 
highlight just some of the new notice, customer approval, data 
security, and data breach notification obligations the FCC proposes to 
impose on smaller broadband providers.

  <bullet> Proposed Notification Rules. The proposed notification rules 
        would prescribe, in minute detail, when, where, how, and how 
        often providers must notify their subscribers about their 
        privacy and data security practices, which would require 
        smaller providers incur legal costs to draft and update privacy 
        notices, administrative costs to deliver the notices, and 
        technical costs to post the notices ``persistently'' on the 
        provider's website, mobile app, and any functional equivalent.

  <bullet> Proposed Customer Approval Rules. The proposed customer 
        approval rules would replace the long-standing, context-
        specific, and consumer-friendly opt-out regime of the FTC with 
        an incredibly complex and restrictive three-tiered framework 
        that would erect unnecessary barriers to collecting, using, or 
        sharing customer information by requiring opt-in consent in 
        many situations that are well within consumer expectations.

  <bullet> Proposed Data Security Rules. The proposed data security 
        rules would replace the FTC's reasonable security standard with 
        a general strict liability rule requiring providers to 
        ``ensure'' the confidentiality, security, and integrity of 
        customer information, irrespective of the sensitivity of that 
        information and ignoring the fact that most agencies recognize 
        that there is no such thing as perfect security. The proposed 
        data security rules also would impose exacting operational 
        requirements on broadband providers, such as: requiring regular 
        risk management assessments; appointing ``senior officials'' to 
        oversee providers' privacy and data security practices; 
        implementing third party oversight mechanisms; and conducting 
        training for personnel, agents, and affiliates.

  <bullet> Proposed Data Breach Notification Rules. The proposed data 
        breach notification rules would impose a strict, seven-day 
        turnaround time from discovery of the breach to notify the FCC 
        and law enforcement about any data breach, and a ten-day 
        turnaround for notifying affected customers, regardless of 
        whether the breach was intentional or whether consumer harm is 
        reasonably likely. The result of this proposed breach 
        notification rule will be over-notification, often including 
        incomplete or evolving facts, which will confuse consumers, 
        breed unnecessary distrust in the Internet ecosystem, and work 
        to undermine the ``virtuous circle'' of demand for Internet 
        services, deployment of broadband infrastructure, and 
        innovation.

    Unlike the existing CPNI rules, the proposed rules would not be 
limited to ``customer proprietary network information''--the narrow set 
of information that Section 222 was drafted to address--but rather 
would apply to all ``customer proprietary information,'' a broad, 
amorphous term that appears nowhere in the Communications Act and 
covers everything from the make and model of a user's modem to an 
individual's public demographic information. Further, unlike the 
existing CPNI rules, the proposed rules would apply to all past, 
present, and prospective customers of a broadband provider. The FCC 
even seeks comment on whether to expand the definition of customer to 
include minors, members of a group plan, or other individual users who 
can access a shared account. By extending the universe of covered 
information and individuals, smaller providers will need to manage 
significantly more information, dramatically increasing the costs and 
burdens of compliance.
    To meet all of these new, extensive obligations, smaller broadband 
providers would need at least to:

  <bullet> Develop and implement new data security controls, website 
        policies, and customer approval tracking systems;

  <bullet> Hire and train dedicated privacy and data security staff;

  <bullet> Provide additional customer notices, including data breach 
        notifications that would increase customer confusion and 
        ``notice fatigue'';

  <bullet> Retain attorneys and consultants for such activities as 
        regulatory analysis, contract negotiation, risk management 
        assessments, and preparing required policies, forms, training, 
        and audits;

  <bullet> Ensure compliance for call centers, billing software, and 
        others that interface with customer proprietary information; 
        and

  <bullet> Divert scarce resources from innovation and infrastructure 
        deployment to regulatory compliance.

    These new costs would be most burdensome for smaller providers, 
decreasing their ability to innovate, upgrade systems, and compete 
while increasing costs, confusion, and inconvenience for their 
customers. Indeed, the Office of Advocacy for the Small Business 
Administration (SBA) told the FCC that its ``proposed rules will be 
disproportionately and significantly burdensome for small Broadband 
Internet Access Service (BIAS) providers,'' arguing that ``the FCC 
failed to comply with the [Regulatory Flexibility Act's] requirement to 
quantify or describe the economic impact that its proposed regulations 
might have on small entities,'' and ``[t]he FCC has provided no 
estimate of the paperwork hours required to comply with the 
regulations.''
V. If the FCC Adopts Its Proposed Rules, It Should Take Steps to Ease 
        the Burden on Smaller Providers Through Exemptions to the More 
        Onerous Elements of the Rules, Extensions of the Applicable 
        Compliance Deadlines, and Streamlined Regulations
    If the FCC rejects our proposal in favor of its prescriptive, ex 
ante privacy and data security framework, it should, consistent with 
similar privacy regimes:

  <bullet> Exempt smaller providers from prescriptive specific data 
        security requirements (while maintaining a flexible general 
        data security standard) and add ``the size of the BIAS 
        provider'' to the factors that the FCC must consider when 
        assessing the reasonableness of a BIAS provider's security 
        program;

  <bullet> Exempt smaller providers from the more onerous elements of 
        its customer approval framework by grandfathering existing 
        customer consents and exempting smaller providers from the 
        requirement to obtain additional approval where they do not 
        share sensitive personal information with third parties for 
        marketing purposes;

  <bullet> Exempt smaller providers from several elements of the FCC's 
        proposed data breach notification rule (as applied to voice and 
        broadband services) by exempting smaller providers from the 
        specific notification deadlines in favor of an ``as soon as 
        reasonably practicable'' standard; and

  <bullet> Exempt smaller providers from any customer dashboard 
        requirements that it adopts pursuant to its notice and choice 
        regulations.

    These exemptions address and reduce the burdens that the proposed 
privacy rules would have on smaller providers, and align with the SBA 
Advocacy Office's request that the FCC adopt ``exemptions for small 
BIAS providers wherever practicable.''
    The FCC also should extend the deadlines for smaller providers to 
comply with any new privacy and data security rules by at least one 
year beyond any general compliance deadline (i.e., the date at which 
larger providers must comply with the rules). The FCC should commit to 
initiate a subsequent rulemaking together with or immediately after any 
order that results from this proceeding to determine whether to further 
extend the deadline and/or establish additional exemptions, and should 
further commit to rule on whether to extend the deadline or establish 
additional exemptions prior to the expiration of the general compliance 
deadline. The FCC often has extended effective dates for small entities 
in the context of its consumer protection regulations, including: (1) a 
three-year waiver for certain analog-only cable systems to comply with 
the emergency information rule; (2) a two-year delay to comply with the 
User Guide Requirements of the FCC's accessibility rules; (3) a one-
year extension of the compliance deadline for the FCC's open Internet 
enhanced transparency rule, which it subsequently extended for another 
year; and (4) a six-month extension to implement requirements of the 
2007 CPNI Order.
    Moreover, the FCC should rationalize and streamline its proposed 
rules to ensure that they are not too burdensome for smaller broadband 
providers by:

  <bullet> Developing, with industry and other stakeholders, 
        standardized notices with safe harbor protection that small 
        providers can use to reduce enforcement risks, as well as the 
        need to pay for outside counsel, consultants, and developers;

  <bullet> Streamlining its proposed customer approval requirements to 
        better align with consumer expectations and avoid disrupting 
        existing customer relationships;

  <bullet> Adopting a general data security standard and working with 
        industry to establish and update best practices rather than 
        imposing prescriptive data security rules;

  <bullet> Tailoring any data breach notification requirements to ease 
        burdens on broadband providers, including by adopting flexible 
        deadlines for breach notification, limiting notifications to 
        situations where consumer harm is reasonably likely, creating a 
        one-stop-shop for breach reporting, and preempting state breach 
        notification laws; and

  <bullet> Harmonizing its rules within Section 222, but not across 
        statutory provisions including Section 631 of the Cable Act, 
        which would undermine consumer expectations and would upend 
        providers' existing compliance regimes.

    While a suite of extensions, exemptions, and rationalized rules 
would not be as effective as adopting rules consistent with the FTC 
framework, it would address the concerns of smaller providers and many 
others in the record--including the SBA--that the FCC's proposed rules 
go too far without adequately considering the burdens of its proposals 
on smaller providers.
    ACA members have a strong record of protecting consumer data and 
complying with myriad state and Federal privacy and data security laws. 
Based on this experience, we urge the Commission to adopt the time-
tested privacy framework employed by the FTC. It has proven valuable 
for consumers and imposes important but reasonable obligations on 
smaller broadband providers. We look forward to working with the 
Committee and the Commission as this process moves forward.

    The Chairman. Thank you, Mr. Polka.
    Next up is Professor Swire. And I apologize, I 
mispronounced your name----
    Mr. Swire. It's happened before.
    [Laughter.]
    The Chairman.--during my introduction. That was from me not 
wearing these (referencing glasses). But, Professor Swire, 
please proceed.

 STATEMENT OF PETER SWIRE, HUANG PROFESSOR OF LAW AND ETHICS, 
 SCHELLER COLLEGE OF BUSINESS, GEORGIA INSTITUTE OF TECHNOLOGY

    Mr. Swire. Thank you, Chairman Thune, and Ranking Member 
Nelson and members of the Committee. And thank you for the 
opportunity to testify today on the FCC's proposed privacy 
rule. As you said, my name is Peter Swire, not Swine. I teach 
at George Tech.
    Today I'm testifying about a major research project that my 
co-authors and I issued this year called ``Online Privacy and 
ISPs.'' It's 125 pages. It has pretty color illustrations. We 
tried to set out the facts for how this stuff works. Before our 
report came out, many of those supporting stronger privacy 
rules signed a letter stating that ISPs, ``have a comprehensive 
view of consumer behavior,'' and they said, ``that ISPs have a 
unique view in the online ecosystem because they connect the 
users to the Internet.''
    And our report documented two factual findings. First, ISP 
visibility into consumer online information is far from 
comprehensive and will likely continue to decline, and the 
biggest reason is the huge growth in encryption.
    Second, ISPs appear to lack unique insights into users' 
Internet activity. The biggest reason is that the data the ISPs 
see is generally not as detailed and insightful as that 
available to others in the Internet ecosystem. These two 
conclusions are surprising to many people on first encounter 
for understandable reasons based in history, but the facts have 
changed over time and will continue to do so.
    My own work here began when the FCC invited me to testify 
over a year ago at their workshop on broadband consumer 
privacy. That day, the debates were about comprehensive and 
unique access, and I believe getting more facts would be 
useful.
    I'll say just a word about my own role in this discussion. 
During 2009 and 2010, I worked in the White House on the 
National Economic Council. As part of that job, I signed what 
is sometimes called the ``Obama Pledge,'' I will not engage in 
any lobbying of Federal officials while President Obama is in 
office. As a consequence, all of my writing about this privacy 
rulemaking has been factual, and I do not and have not 
advocated for any policy outcome.
    As a related point, I know why I think our research has 
been helpful to those with different views about the policy 
issues here. For those who believe the proposed rule is too 
strict, and we heard several people today already, our research 
has corrected important misperceptions that policymakers might 
have had, and now we can decide based on current facts rather 
than previous impressions. And for those who support the FCC's 
proposed rules, such as Professor Ohm, I believe our research 
has also been useful. Before the working paper, much of the 
advocacy for the rule was based on factual claims that have not 
stood up to scrutiny, especially the claim that ISPs, because 
of their place in the ecosystem, see everything about a user's 
activity. Without the working paper, supporters of the rule 
faced a real risk the rule would be based on inaccurate facts, 
thus exposing the rule to risk of reversal in judicial review. 
And I believe the factual record now before the Commission is 
more nuanced and complete than it would have been.
    So turning to these facts and the issue of whether there is 
comprehensive access, the most cited findings in our working 
paper concern the recent and rapid and historic rise in 
encrypted communications for the typical user. Just two years 
ago, in 2014, in February, 13 percent of the bits going through 
the U.S. backbone were encrypted. By this January, that number 
had soared to 49 percent, half the bits, and we expect it to be 
70 percent by the end of this year.
    And with the shift to HTTPS, which is the secure protocol, 
there are two main effects. First of all, the content gets 
encrypted. This is again for a majority of bits now today. And 
for years, the biggest privacy concern about ISPs is what was 
called ``deep-packet inspection,'' and that was because ISPs 
technically can go deep into the packet to see the full content 
and not just the header. For encrypted communications, deep-
packet inspection doesn't work anymore, it's encrypted, they 
can't get in.
    Second, blocking of detailed URLs. HTTPS also blocks ISP 
access to the detailed URLs. With encryption, the ISP sees 
something like ``www.example.com,'' but along with blocking 
content, encryption blocks all the details, such as 
``www.example.com/sensitivemedical
condition.'' So a lot of the details get blocked, and that 
applies broadly to our e-mails now and social networks and web 
search.
    The other topic is to discuss briefly whether ISPs have 
unique data, maybe because they're the bottleneck, as Professor 
Ohm mentioned, and whether they have unique insights. My 
written remarks discuss five categories of data: domain names, 
location information, IP addresses, subscriber information, and 
NetFlow or IPFIX information.
    Sticking with domain names as the example, ISPs can see the 
general domains, such as ``example.com,'' but so can a lot of 
others, and that's sort of the point here. The user's operating 
systems see it, the user's browser, the app that he or she is 
using, the advertising network, all the people with cookies in 
the system. Advertisers also have third parties who sell 
profiles based on where people surf. And so the point when it 
comes to domain names is that compared to other Internet 
actors, ISPs access only the domain names, that's third best, 
not as good as the content or the detailed URLs that others 
see.
    So in conclusion, at a factual level, there are greater 
limits in ISP visibility than most people had assumed, and I 
had assumed when I began the research, and the FCC should base 
its conclusions on the ecosystem we have today and going 
forward rather than a simplified view of what ISPs used to be 
able to see.
    My thanks to the Committee for the opportunity to speak 
here, and I look forward to your questions.
    [The prepared statement of Mr. Swire follows:]

 Prepared Statement of Peter Swire, Huang Professor of Law and Ethics, 
     Scheller College of Business, Georgia Institute of Technology
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for the opportunity to testify today on ``How Will 
the FCC's Proposed Privacy Regulations Affect Consumers and 
Competition?'' I am Peter Swire, the Huang Professor of Law and Ethics 
at the Scheller College of Business at Georgia Tech. I have worked 
intensively on privacy and cybersecurity issues in government, 
academia, and practice for over twenty years. A biography is attached 
to the end of this testimony.
    In February of this year, my co-authors and I issued the 125-page 
Working Paper called ``Online Privacy and ISPs: ISP Access to 
Information is Limited and Often Less Than That of Others.'' \1\ My 
testimony today, based on reply comments filed this week with the 
FCC,\2\ focuses on two principle factual findings arising from that 
research project:
---------------------------------------------------------------------------
    \1\ Peter Swire, Justin Hemmings, and Alana Kirkland, Online 
Privacy and ISPs: ISP Access to Consumer Data is Limited and Often Less 
than Access by Others (Feb. 29, 2016) available at http://
www.iisp.gatech.edu/working-paper-online-privacy-and-isps.
    \2\ https://www.fcc.gov/ecfs/filing/107062066122504/document/
10706206612250467ca.

  (1)  ISP visibility into consumer online information is far from 
---------------------------------------------------------------------------
        comprehensive, and will likely continue to decline; and

  (2)  ISPs appear to lack unique insights into users' Internet 
        activity.

    These two conclusions, in my experience, are surprising to many 
people on first encounter. For understandable reasons based in history, 
many observers have believed that ISPs do have comprehensive and unique 
insights into users' Internet activity. Our research has sought to 
provide an accurate factual basis for consideration by the FCC and 
other policymakers about these topics. As discussed further below, we 
have researched the facts about ISP activity, and I do not take any 
position on the policy issues facing the FCC concerning broadband 
privacy.
    This testimony first discusses the context for our research 
project. It next discusses the limits on the comprehensiveness of ISP 
visibility into consumer behavior, notably due to the historic rise in 
encrypted communications. It concludes by examining claims that ISPs 
have unique insight into users' Internet activity.
1. The Context for the Research Project
    I briefly discuss the origins of the research project in 2015, and 
the chronology of work product through the testimony today.
A. The Origins of the Research Project
    My research into ISP access to user data began with the request 
from the Federal Communications Commission to participate in its April 
28, 2015, Public Workshop on Broadband Consumer Privacy.\3\ In 
connection with that Workshop, I was asked by a senior FCC official 
about a prominent dispute during the workshop--advocates for stricter 
privacy regulation essentially argued that ISPs have ``comprehensive'' 
access to consumer online information, while the ISPs instead 
emphasized the limited data to which they have access. In response, I 
answered that this was actually a factual question--research could 
illuminate the extent to which ISPs do or do not have ``comprehensive'' 
access.
---------------------------------------------------------------------------
    \3\ My statement is at https://peterswire.net/wp-content/uploads/
Swire_FCC-testimony
_CPNI_04_27_15.pdf.
---------------------------------------------------------------------------
    My research project has sought to shed light on the 
``comprehensive'' access and related issues. As disclosed from the 
start, in addition to funding from Georgia Tech-related sources, 
funding also came from Broadband for America, a trade association that 
includes major ISPs. At each stage, my co-authors and I have had 
complete editorial discretion--the views expressed are our own. To 
underscore our commitment to accurate research, we have asked for 
public comments about any factual inaccuracies. Our Working Paper in 
February 2016 held up very well to scrutiny. Our May 2016 comments to 
the FCC included detailed responses to comments, including deletion of 
two sentences (out of the 125-page report) that we concluded we could 
not support.
    As someone who has often previously provided policy recommendations 
concerning privacy issues, I provide some detail about why my work on 
this topic has been factual rather than making any policy 
recommendations about what the FCC should do in its privacy rulemaking. 
I am under binding obligations that arise from my role as Special 
Assistant to President Obama for Economic Policy in 2009-2010. As a 
condition of that employment, I signed what is sometimes called the 
``Obama Pledge''--I will not engage in any lobbying of Federal 
officials while President Obama remains in office. As a consequence, my 
writing about the FCC privacy rulemaking has been factual, and I do not 
and have not advocated for any policy outcome in the proceeding.
    As a related point, I note the role that our research has played 
both for those concerned the FCC's proposed privacy rule is too strict 
as well as those who support the FCC's proposed rule. For those 
concerned that the FCC's proposed rule is too strict, I believe our 
research has served a distinctly useful role--the public debate had 
often assumed that ISPs have comprehensive insights into user online 
activity, but in fact that is not so. The research, most clearly 
concerning the rising use of encryption, thus has corrected important 
misperceptions, prompting policymakers to decide based on current facts 
rather than false impressions. For those who support the FCC's proposed 
rule, I submit that our research has also served a distinctly useful 
role. Prior to our Working Paper, a substantial part of the advocacy 
for the rule had been based on factual claims that have not stood up to 
scrutiny, especially the claim that ISPs, due to their place in the 
Internet ecosystem, see ``everything'' about a user's Internet 
activity. In the absence of our Working Paper, proponents of the rule 
faced a risk that the rule would be based on inaccurate facts, thus 
exposing the rule to the risk of reversal during the process of 
judicial review.
B. The Chronology Related to the Research Project
    Here is the chronology related to our research project:

  1.  As discussed above, in April 2015, the FCC invited me to 
        participate as a panelist in its Public Workshop on Broadband 
        Internet Privacy. The Workshop notably featured the debate 
        about the extent to which ISPs have ``comprehensive'' access to 
        user online information. Shortly thereafter, we began our 
        research project on the topic.

  2.  In January 2016, over fifty public interest groups signed a 
        letter urging the FCC to enact a broadband privacy rule, 
        stating that ISPs have a ``comprehensive view of consumer 
        behavior,'' and ``have a unique role in the online ecosystem'' 
        due to their role in connecting users to the Internet (emphasis 
        supplied).\4\
---------------------------------------------------------------------------
    \4\ Letter from Access, et al., to Tom Wheeler, Chairman, Federal 
Communications Commission (Jan. 20, 2016) available at https://
www.publicknowledge.org/assets/uploads/documents/
Broadband_Privacy_Letter_to_FCC_1.20.16_FINAL.pdf.

  3.  In February, we issued the Working Paper on ``Online Privacy and 
        ISPs: ISP Access to Information is Limited and Often Less Than 
        That of Others.'' \5\ We submitted a slightly revised version 
        as initial comments to the FCC, including with an appendix that 
        documents that our initial draft is factually accurate based on 
        expert review.\6\
---------------------------------------------------------------------------
    \5\ Peter Swire, et al., Online Privacy and ISPs: ISP Access to 
Consumer Data is Limited and Often Less than Access by Others (Feb. 29, 
2016) available at http://www.iisp.gatech.edu/working-paper-online-
privacy-and-isps.
    \6\ Comment of Peter Swire, In the Matter of: Protecting the 
Privacy of Customers of Broadband and Other Telecommunications 
Services, WC Docket No. 16-106 (May 24, 2016) available at https://
www.fcc.gov/ecfs/filing/60001926727.

  4.  Several comments in the wake of our Working Paper modified the 
        claim that ISPs have a ``comprehensive'' view to a revised 
        statement that ISPs have a ``comprehensive view of unencrypted 
        traffic,'' \7\ (emphasis supplied) an important change because 
        a majority of non-video Internet traffic is already encrypted 
        today and there are strong trends toward greater encryption. 
        Comments also emphasized types of data where ISPs may have 
        unique advantages, such as the time of user log-in and the 
        number of bits uploaded and downloaded.
---------------------------------------------------------------------------
    \7\ See, e.g., FCC Overreach: Examining the Proposed Privacy Rules: 
Hearing Before the Subcomm. on Commc'ns and Tech. of the H. Comm. on 
Energy and Commerce, 114th Cong. 3 (2016) (statement of Paul Ohm, 
Prof., Georgetown University Law Center) (``When users interact with 
websites or use apps or devices that do not support encryption or do 
not enable it by default, a BIAS provider's ability to spy is complete 
and comprehensive.'') (emphasis added) available at https://
energycommerce.house.gov/hearings-and-votes/hearings/fcc-overreach-
examining-proposed-privacy-rules, Examining the Proposed FCC Privacy 
Rules: Hearing Before the Subcomm. on Privacy, Tech. and the Law of the 
S. Comm. on the Judiciary, 114th Cong. 1 (2016) (statement of Tom 
Wheeler, Chairman, Federal Communications Commission) (``. . . an ISP 
has a broad view of all of its customers' unencrypted online 
activity'') (emphasis added) available at http://
www.judiciary.senate.gov/meetings/examining-the-proposed-fcc-privacy-
rules, Comments of Public Knowledge, et al., In the Matter of: 
Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-106, 19-22 (May 27, 2016) 
(discussing why traffic remains largely unencrypted) available at 
https://www.fcc.gov/ecfs/filing/60001974141/document/60002080037.

  5.  On July 6, we submitted reply comments to the FCC, providing 
        additional facts and insights to support our view that ISPs 
        lack comprehensive knowledge of or unique insights into users' 
        Internet activity.\8\ The key parts of the reply comments are 
        laid out in this testimony today. As with our February Working 
        Paper, the reply comments and this testimony take no position 
        on what rules should apply to ISPs and other players in the 
        Internet ecosystem going forward. As we did in February, we 
        will receive comments on the Georgia Tech Institute of 
        Information Security and Privacy Website, and publish edits or 
        corrections if needed.
---------------------------------------------------------------------------
    \8\ https://www.fcc.gov/ecfs/filing/107062066122504/document/
10706206612250467ca.
---------------------------------------------------------------------------
2. ISP Visibility into Consumer Online Information is Far From 
        Comprehensive, and Will Likely Continue to Decline
    Our February Working Paper informed the public debate by 
documenting how encryption is limiting the possibility of ISP's viewing 
much of the content and the detailed URLs accessed by consumers. The 
trend toward greater encryption has continued since February, including 
the recent Apple announcement that apps in the iOS ecosystem must be 
encrypted by the end of 2016. The growing use of encryption and other 
developments mean that ISP visibility is likely to continue to decline 
during the period when any new FCC broadband privacy rule would go into 
effect.
A. The Trend Toward Encryption is Continuing
    The most-cited findings of our Working Paper concern the recent and 
rapid rise in encrypted connections for the typical user, most notably 
by use of the HTTPS (secure HTTP) protocol. As we reported in our 
Working Paper, HTTPS traffic in the U.S. Internet backbone was 13 
percent in February 2014. That number rose to 49 percent by January 
2016, an historic shift. Sandvine estimates that figure will grow to 70 
percent of global Internet traffic by the end of 2016,\9\ and 
encryption will become increasingly ubiquitous in the next five to ten 
years.\10\ Some of the continuing growth in encrypted bits is due to 
the decision of high-volume video providers such as Netflix to shift to 
encryption. As discussed in the Working Paper, however, a majority of 
non-video traffic is already encrypted, including widespread encryption 
for potentially revealing activities such as e-mail, text messages, 
video conversations, social networks, and web search.
---------------------------------------------------------------------------
    \9\ ``2016 Global Internet Phenomena, Latin America & North 
America,'' Sandvine, 1, Jun. 2016 (``Sandvine forecasts that 70 percent 
of global Internet traffic will be encrypted in 2016, with many 
networks expected to exceed 80 percent'') available at https://
www.sandvine.com/trends/global-internet-phenomena/.
    \10\ Larry Downes, The Downside of the FCC's New Internet Privacy 
Rules, Harvard Business Review (May 27, 2016) available at https://
hbr.org/2016/05/the-downside-of-the-fccs-new-internet-privacy-rules.
---------------------------------------------------------------------------
    The Working Paper provides diagrams and detailed explanations of 
what changes with the shift from HTTP to the encrypted HTTPS protocol. 
The shift to HTTPS has two main effects, the shift to encrypted content 
and blocking of detailed URLs.

  i. The shift to encrypted content. Based on my professional 
        experience, the most prominent privacy concerns about ISPs for 
        the past twenty years have been about ``deep-packet 
        inspection'' (DPI). When an ISP uses DPI, then the ISP can go 
        ``deeply'' into the packet, examining the full content in 
        contrast to the header information about where the packet 
        should go. Privacy experts have long expressed concerns that 
        ISP examination of all of a user's content could reveal a great 
        deal of sensitive personal information.\11\ Notably, for 
        encrypted communications, DPI does not work. Even if ISPs 
        sought to profile customers based on content, the use of HTTPS 
        blocks the ISP's access to the content.\12\ In short, the rise 
        of HTTPS provides technical assurances that address the 
        longest-voiced privacy concern about ISPs.
---------------------------------------------------------------------------
    \11\ See, e.g., Center for Democracy and Technology, Online 
Behavioral Advertising: Discussing the ISP-Ad Network Model (Sep. 18, 
2008) available at https://cdt.org/insight/online-behavioral-
advertising-discussing-the-isp-ad-network-model/, Declan McCullagh, Web 
Monitoring for Ads? It may be Illegal, C/Net (May 19, 2008) available 
at http://www.cnet.com/news/web-monitoring-for-ads-it-may-be-illegal/, 
Grant Gross, ISP Backs off of Behavioral Ad Plan, PCWorld (Jun. 24, 
2008) available at http://www.pcworld.com/article/147508/article.html.
    \12\ Professor Nick Feamster, in his comments to the FCC, said 
``DPI is typically not widely deployed in many ISP networks,'' and, 
``contrary to some conventional beliefs, ISPs often do not retain much 
of the data that they collect because the cost of doing so can be 
substantial.'' Taken together with the increasing prevalence of HTTPS, 
these comments from Professor Feamster provide the basis for concluding 
that DPI going forward is much less of a privacy concern than has often 
been asserted in ISP privacy debates. Comment of Nick Feamster, In the 
Matter of: Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-1606, 6 (May 27, 2016) 
available at https://www.fcc.gov/ecfs/filing/60001973502/document/
60002079367. 
    Professor Feamster discusses other possible privacy risks in his 
comments, which are discussed below.

  ii. Blocking of detailed URLs. Along with blocking ISP access to 
        content, HTTPS blocks ISP access to detailed URLs. By contrast, 
        ISPs continue to see the domain itself, such as 
        www.example.com. Compared to the domain, detailed URLs 
        typically reveal more granular detail about a user's interests 
        and communications. For a news site, the detailed URL is 
        typically more revealing (www.OnlineNewspaper.com/
        PoliticalNewsStory) than the domain itself 
        (www.OnlineNewspaper.com). As another example, the major search 
        engines have shifted to HTTPS. With HTTP search, information 
        known as ``HTTP refer'' would reveal the search terms to the 
        ISP. With HTTPS search, however, ISPs can no longer see the 
        search terms. As Professor Neal Richards has explained, more 
        granular information provides greater risks to what he calls 
        ``Intellectual Privacy,'' or the ability of the organization 
        gathering the data to make inferences about a person's 
        interests and personality.\13\ Consistent with this view, 
        Federal courts have found content and detailed URLs deserving 
        of stricter legal protection under the Electronic 
        Communications Privacy Act than the domain itself.\14\
---------------------------------------------------------------------------
    \13\ Neil Richards, Intellectual Privacy: Rethinking Civil 
Liberties in the Digital Age (2015).
    \14\ In Re: Google Inc. Cookie Placement Consumer Privacy 
Litigation, 806 F.3d 125, 138 (3rd Cir. 2015) available at http://
www2.ca3.uscourts.gov/opinarch/134300p.pdf.
---------------------------------------------------------------------------
    Comments made after release of the Working Paper have agreed with 
the growth of encryption and the fact that HTTPS blocks content and 
detailed URLs, and have focused instead on other points. A report from 
Upturn, for instance, correctly states that while HTTPS is prevalent on 
some of the most popular websites, the majority of total websites 
remain unencrypted, including a large percentage of health, news, and 
shopping sites.\15\ In considering these statistics, we note that the 
number of bits transferred is an important measure of whether users' 
communications are typically encrypted, including for important 
communications such as e-mails, search, and social networks. Users do a 
large portion of their Internet activity on the most popular such 
sites, where encryption has often already been adopted.
---------------------------------------------------------------------------
    \15\ ``What ISPs Can See: Clarifying the Technical Landscape of the 
Broadband Privacy Debate,'' Upturn, 3-4, Mar. 2016, available at 
https://www.teamupturn.com/reports/2016/what-isps-can-see.
---------------------------------------------------------------------------
    News and a wide variety of other sites that rely on display 
advertising. Change is occurring for sites that rely on display 
advertising, including news sites, where encryption adoption has been 
slow to date. The announcement this April that Wired Magazine is 
shifting to HTTPS is instructive. Wired Magazine has reported that 
every advertisement placed on a page must be delivered via HTTPS for 
the page to work properly.\16\ Wired Magazine is thus staging its 
deployment of HTTPS, working with its advertising providers to make the 
transition. This effort by Wired Magazine as an early adopter is a 
promising sign that display advertising-based sites will shift to 
HTTPS. Once an advertising company has upgraded to HTTPS to serve Wired 
Magazine and other early adopters, there is a positive spillover 
effect--the advertising company can then support HTTPS for the other 
news, shopping, health, and other sites where it places display 
advertisements.
---------------------------------------------------------------------------
    \16\ Zack Tollman, We're Going HTTPS: Here's How Wired is Tackling 
a Huge Security Upgrade, Wired (Apr. 28, 2016) available at https://
www.wired.com/2016/04/wired-launching-https-security-upgrade/.
---------------------------------------------------------------------------
    In considering the prevalence of encryption under any FCC broadband 
privacy rule, policymakers should move beyond a static view of the 
state of encryption today, and consider the overall trend toward 
increasingly ubiquitous deployment of encryption, including for the 
``long tail'' of websites that have lower user traffic.
    In 2016, signs of the expansion of encryption include:

  <bullet> Apple is requiring HTTPS for iOS applications. In June, 
        Apple announced at its Worldwide Developers Conference that app 
        developers will be required to connect over HTTPS servers when 
        transferring data online.\17\ App developers must make these 
        changes by January 1, 2017, and new apps will not be listed on 
        the App Store unless they are encrypted.
---------------------------------------------------------------------------
    \17\ Kate Conger, Apple Will Require HTTPS Connections for iOS Apps 
by the End of 2016, TechCrunch (Jun. 14, 2016) available at https://
techcrunch.com/2016/06/14/apple-will-require-https-connections-for-ios-
apps-by-the-end-of-2016/.

  <bullet> Progress for the Let's Encrypt Project, to make implementing 
        HTTPS easier. The Let's Encrypt project is a free, automated, 
        and open certificate authority.\18\ The organization hosts a 
        support community for those seeking to implement Let's Encrypt 
        certificates and to navigate the obstacles to encrypting a 
        website.\19\ In March, Let's Encrypt issued its one millionth 
        certificate and reported a rate of growth of 100,000 
        certificates per week.\20\ The success of the project, thanks 
        in part to the support of numerous sponsors from public 
        interest groups and technology companies,\21\ is raising 
        encryption adoption for smaller websites.\22\
---------------------------------------------------------------------------
    \18\ About, Let's Encrypt (last visited Jun. 24, 2016) available at 
https://letsencrypt.org/about/.
    \19\ Let's Encrypt Community Support, Let's Encrypt (last visited 
Jun. 24, 2016) available at https://community.letsencrypt.org/.
    \20\ Josh Aas, Our Millionth Certificate, Let's Encrypt (Mar. 8, 
2016) available at https://letsencrypt.org/2016/03/08/our-millionth-
cert.html.
    \21\ Current Sponsors, Let's Encrypt (last visited Jun. 24, 2016) 
available at https://letsencrypt.org/sponsors/.
    \22\ https://letsencrypt.org/2016/03/08/our-millionth-cert.html.

  <bullet> WordPress has enabled HTTPS by default for hosted content. 
        WordPress announced in April that it will provide HTTPS by 
        default for hosted content, providing increasingly available 
        and accessible encryption for the ``long tail'' of sites.\23\ 
        By utilizing the Let's Encrypt project, WordPress was able to 
        automatically deploy and manage HTTPS for the over 1 million 
        custom domains hosted through the company.\24\ The announcement 
        by WordPress illustrates the growth of encryption and how 
        encryption is becoming easier to implement. In addition, with 
        26.3 percent of all content management systems running 
        WordPress,\25\ the shift would appear to provide a competitive 
        advantage for WordPress compared to other hosting services, 
        incentivizing other services to offer easy-to-use encryption 
        tools.
---------------------------------------------------------------------------
    \23\ HTTPS Everywhere: Encryption for All WordPress.com Sites, 
WordPress (Apr. 8, 2016) available at https://en.blog.wordpress.com/
2016/04/08/https-everywhere-encryption-for-all-
wordpress-com-sites/.
    \24\ Id.
    \25\ Darren Pauli, WordPress Pushes Free Default SSL for Hosted 
Sites, The Register (Apr. 11, 2016) available at http://
www.theregister.co.uk/2016/04/11/wordpress_pushes_free_default
_ssl_encrypts_26_of_the_webs_cmses/.

  <bullet> The Federal Trade Commission has emphasized the importance 
        of encrypting Internet of Things (IoT) devices. In January, an 
        FTC report strongly recommended encryption of confidential 
        consumer information transmitted by IoT devices.\26\ The FTC 
        gave notice that companies face the risk of enforcement action 
        if they fail to encrypt their devices and communications.\27\ 
        The public threat of enforcement action provides an incentive 
        for companies to deploy encryption for the IOT, where 
        encryption adoption has previously lagged.
---------------------------------------------------------------------------
    \26\ ``Internet of Things: Privacy & Security in a Connected 
World,'' Federal Trade Commission, 27-28 (Jan. 2015) available at 
https://www.ftc.gov/system/files/documents/reports/federal-trade-
commission-staff-report-november-2013-workshop-entitled-internet-
things-privacy/150127iotrpt.pdf.
    \27\ Id. at 30.

  <bullet> As discussed above, Wired.com's switch to full HTTPS will 
        make it easier for news and a wide variety of other display 
---------------------------------------------------------------------------
        advertising-supported sites to follow suit.

    Our original Working Paper provided extensive additional 
information about the trend toward prevalent use of encryption.\28\ As 
one notable example:
---------------------------------------------------------------------------
    \28\ Peter Swire, et al., Online Privacy and ISPs: ISP Access to 
Consumer Data is Limited and Often Less than Access by Others, 28-30 
(Feb. 29, 2016) available at http://www.iisp
.gatech.edu/working-paper-online-privacy-and-isps.

  <bullet> Google Search ranks HTTPS higher. In 2014, Google announced 
        it would use HTTPS as a ranking signal as part of its ``HTTPS 
        Everywhere'' campaign. In light of Google's large market share 
        in search, website owners thus have an incentive to enable 
        HTTPS in order to gain better search rankings and subsequent 
        page views. Together with developments such as the ``Let's 
        Encrypt'' campaign, this means that even small website owners: 
        (i) have an incentive to use HTTPS; and (ii) increasingly have 
        the ability to do so.
B. The Rise of Mobile and Other Reasons for Limits on ISP Visibility
    Beyond encryption, our Working Paper discussed other limits on ISP 
visibility into consumer online information, notably the shift toward 
mobile access to the Internet. Historically, many consumers did most or 
all of their Internet access from home, using an unencrypted connection 
through a single ISP. We believe that this mental model of Internet use 
is a reason that many people have believed that an ISP does have a 
``comprehensive'' view of its customers' Internet activity. The rise of 
smartphones, tablets, and other mobile computing, however, places 
limits on an ISP's ability to gain such a view, in addition to the 
limits that come from prevalent encryption:

  <bullet> Mobile is becoming the leading way to access the Internet. 
        As our Working Paper noted, the number of mobile Internet-
        enabled devices today is as large as traditional laptops and 
        desktops combined,\29\ and the market share of desktop 
        computers is continuing to fall.\30\ Today, the great majority 
        of Internet users own mobile devices.\31\
---------------------------------------------------------------------------
    \29\ Angela Moscaritolo, Tablets to Make Up Half the PC Market in 
2014, PCMag (Nov. 26, 2013) available at http://www.pcmag.com/article2/
0,2817,2427623,00.asp.
    \30\ Robert McMillan, PC Sales Continue to Fall, Wall St. J. (Jul. 
9, 2015) available at http://blogs.wsj.com/digits/2015/07/09/pc-sales-
continue-to-fall/, Jordan Weissman, The End of the Home Computer: Why 
PC Sales Are Collapsing, The Atlantic, (Apr. 11, 2013), available at 
http://www.theatlantic.com/business/archive/2013/04/the-end-of-the-
home-computer-why-pc-sales-are-collapsing/274899/.
    \31\ At the beginning of 2015, one study showed that 91 percent of 
users owned a desktop or laptop. Smartphone use has climbed sharply, to 
80 percent. In addition to desktops, laptops, and smartphones, nearly 
50 percent of users reported owning a tablet. See Jason Mander, 80 
percent of Internet users own a smartphone, GlobalWebIndex (Jan. 5, 
2015) available at http://www.globalwebindex.net/blog/80-of-internet-
users-own-a-smartphone.

  <bullet> Mobile traffic is offloaded to WiFi networks. By 2014, an 
        estimated 46 percent of all data traffic shifted to WiFi 
        networks,\32\ growing to an estimated 60 percent of all mobile 
        data traffic by 2020.\33\ The ISP that connects the WiFi 
        network to the Internet (WiFi ISP) is often different from the 
        ISP that connects the mobile user to the Internet (subscriber 
        ISP). In such cases, the subscriber ISP has no visibility into 
        the subscriber's Internet activity connected through the WiFi 
        network.\34\
---------------------------------------------------------------------------
    \32\ ``Cisco Visual Networking Index, Forecast and Methodology, 
2014-2019 Working Paper,'' Cisco (May 27, 2015) available at http://
www.cisco.com/cen/us/solutions/collateral/service-provider/ip-ngn-ip-
next-generation-network/white_paper_c11-481360.html.
    \33\ ``Juniper Mobile Data Onload & Offload Report,'' Juniper (Jun. 
2015) available at http://www.juniperresearch.com/researchstore/
enablingtechnologies/mobile-data-onload-offload/wifi-small-cell-
network-strategies.
    \34\ If the Wifi ISP and subscriber ISP are the same, then that ISP 
can generally detect that the individual is using the same MAC address 
to connect to the ISP.

  <bullet> Consumers switch carriers. According to FCC statistics, 82 
        percent of mobile broadband Internet users have a choice of at 
        least four providers, and 98.8 percent have at least 
        two.\35\According to the FCC, between a fifth and a third of 
        wireless subscribers switch their carriers annually.\36\ 
        Consumers also switch wireline carriers, with one out of six 
        subscribers switching wireline providers every year, and 37 
        percent of subscribers switching every three years.\37\ 
        Switching carriers cuts off the visibility of the old carrier, 
        splitting the user's Internet history.
---------------------------------------------------------------------------
    \35\ ``Seventeenth Annual Mobile Wireless Competition Report,'' 
Federal Communications Commission, DA 14-1862  51, rel. Dec. 18, 2014, 
available at https://apps.fcc.gov/edocs_public/attachmatch/DA-14-186 
2A1.pdf; ``2015 Broadband Progress Report and Notice of Inquiry on 
Immediate Action to Accelerate Deployment,'' Federal Communications 
Commission, FCC 15-10 109, rel. Feb. 4, 2015, available at https://
apps.fcc.gov/edocs_public/attachmatch/FCC-15-10A1.pdf.
    \36\ ``Annual Report and Analysis of Competitive Market Conditions 
with Respect to Mobile Wireless, Including Commercial Mobile Services: 
Fifteenth Report,'' Federal Communications Commission (Jun. 27, 2011) 
available at https://apps.fcc.gov/edocs_public/attachmatch/FCC-11-
103A1.pdf.
    \37\ ``Broadband Decisions: What Drives Consumers to Switch-or 
Stick with-Their Broadband Internet Provider,'' Federal Communications 
Commission (Dec. 2010) available at https://apps.fcc.gov/edocs_public/
attachmatch/DOC-303264A1.pdf.

  <bullet> Consumers access the Internet through multiple mobile 
        carriers. Any given ISP loses visibility into the subscriber's 
        Internet activity as the user moves between cellular 
        connections and WiFi hotspots during the day. For example, they 
        may connect using their home and work WiFi, then free WiFi in a 
        coffee shop, then WiFi at a friend's house, any of which may 
---------------------------------------------------------------------------
        use different ISPs.

    In conclusion about whether ISPs have ``comprehensive'' visibility 
into user Internet activity, the prevalence of encryption and the shift 
to mobile computing put important limits today on ISPs' visibility. In 
addition, the role of both encryption and mobile computing will 
continue to grow in the coming years, during the period when any new 
rule would enter into effect.
3. ISPs Appear to Lack Unique Insights Into Users' Internet Activity
    Public debate about privacy and ISPs has featured comments that 
ISPs ``play a unique role in the online ecosystem'' \38\ and their 
position as an Internet ``bottleneck'' gives them unique access to 
privacy sensitive insights about users.\39\ To clarify the role that 
ISPs play in the online ecosystem, our Working Paper explained the 
roles played by other online actors, including their access to 
sensitive personal information, devoting separate chapters to: social 
networks; search engines; webmail and messaging; mobile and other 
operating systems; interest-based advertising; and browsers, Internet 
video, and E-commerce.
---------------------------------------------------------------------------
    \38\ Letter from Access, et al., to Tom Wheeler, Chairman, Federal 
Communications Commission (Jan. 20, 2016) available at https://
www.publicknowledge.org/assets/uploads/documents/
Broadband_Privacy_Letter_to_FCC_1.20.16_FINAL.pdf.
    \39\ FCC Overreach: Examining the Proposed Privacy Rules: Hearing 
Before the Subcomm. on Commc'ns and Tech. of the H. Comm. on Energy and 
Commerce, 114th Cong. 3 (2016) (statement of Paul Ohm, Prof., 
Georgetown University Law Center) available at http://docs
.house.gov/meetings/IF/IF16/20160614/105057/HHRG-114-IF16-Wstate-OhmP-
20160614.pdf.
---------------------------------------------------------------------------
    In the reply comments and this testimony, we examine sources of 
data, raised by commenters, which are potentially available to ISPs. 
For each source of data, we look at the visibility to others--other 
actors in the online ecosystem often have access to the same or 
comparable data as that available to ISPs. We also look at the insights 
available from data seen by the ISPs. Looking at each category of data, 
the data available to ISPs appears to offer the same as or less insight 
than the data used by other actors. For instance, ISPs sometimes see 
``third-best'' information: they can see the basic domain name a user 
visits (such as www.example.com) but not the encrypted content (what 
example.com sends to the user) or the detailed Uniform Resource Locator 
(URL) (such as www.example.com/InterestingPageTitle). Others in the 
Internet ecosystem, meanwhile, see the content and detailed URLs.
    Before discussing the relevant categories of data, I note the 
difference between having access to unique data and having access to 
unique insights about users. Any two companies, at some level, have 
unique data--they have at a minimum different customer lists and 
different specific interactions with their customers. For purposes of 
informing the record about online privacy, the discussion here provides 
detail about the uniqueness or lack thereof of several categories of 
data available to ISPs. Our analysis here and in the Working Paper 
primarily focuses, however, on whether ISPs have unique insights about 
their customers--to what extent their position in the online ecosystem 
may mean that ISPs can learn more about consumers than others can. For 
commercial businesses, the focus on insight is key. These insights are 
what provide economic value, including for internal proprietary 
purposes, to sell more valuable advertisements, or to sell to other 
parties such as data brokers. To date, of the top 10 ad-selling 
companies, which earn over 70 percent of the total online advertising 
dollars, none gained their current position by providing broadband 
Internet service.\40\ For the reasons discussed below, ISPs, based on 
our review, appear to lack unique insights about consumer online 
activity because other players in the Internet ecosystem can collect 
the same (or equivalent) information.
---------------------------------------------------------------------------
    \40\ Peter Swire, et al., Online Privacy and ISPs: ISP Access to 
Consumer Data is Limited and Often Less than Access by Others, 4 (Feb. 
29, 2016) available at http://www.iisp.gatech.edu/working-paper-online-
privacy-and-isps.
---------------------------------------------------------------------------
    I next examine categories of Internet activity data identified by 
commenters, which are sometimes or always available to ISPs. For each 
category, I provide: (i) the type of data; (ii) a description of who 
other than ISPs has visibility, including in some cases data being 
considered already ``public''; (iii) discussion of the quality of 
insights that the available data may provide about users; and, (iv) 
other discussion.

  <bullet> Domain names. As discussed above, with HTTPS, general domain 
        information is visible to the ISP (such as www.example.com), 
        while the content (what www.example.com sends to the user) or 
        the detailed URL (such as www.example.com/InterestingPageTitle) 
        are not for encrypted traffic.

    <ctr-circle> Visibility to others: Many or all of the domain names 
            a user visits are available to others, including the user's 
            operating system, the user's browser or application, and 
            advertising networks and other third parties with cookies 
            or services that are present on the page being visited.\41\ 
            Third parties sell profiles of users based on the domains 
            and/or detailed URLs they visit.
---------------------------------------------------------------------------
    \41\ Moreover, the domain resolution process was expressly designed 
to be public. Comment of Manos Antonakakis, et al., In the Matter of: 
Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-106, 6 (May 27, 2016) 
available at https://www.fcc.gov/ecfs/filing/60001973444/document/
60002079307.

    <ctr-circle> Insights: The domain names a user visits are not as 
            revealing as the content accessed or full URLs. Some domain 
            names, however, can reveal information that would be 
            considered sensitive by most privacy experts, such as 
            www.SensitiveHealthSite.com or 
---------------------------------------------------------------------------
            www.UnusualPoliticalViews.com.

    <ctr-circle> Discussion: Compared to other Internet actors, ISP 
            access to domain names can be seen as ``third-best'' 
            information, less revealing than content or detailed URLs. 
            With HTTPS, ISPs cannot see encrypted content or detailed 
            URLs, whereas that more detailed information is available 
            to others, including the operator of the page being 
            visited, the operating system, and the browser or 
            application.

  <bullet> Location information. As discussed in the Working Paper, 
        mobile carriers can estimate a user's location through the 
        process of ``trilateration,'' based on the distance from the 
        user to three or more cell towers.\42\
---------------------------------------------------------------------------
    \42\ Peter Swire, et al., Online Privacy and ISPs: ISP Access to 
Consumer Data is Limited and Often Less than Access by Others, 70-72 
(Feb. 29, 2016) available at http://www.iisp
.gatech.edu/working-paper-online-privacy-and-isps.

    <ctr-circle> Visibility to others: Commercial services today 
            principally determine location based on information from 
            the global positioning system (GPS) or Bluetooth. When GPS 
            is switched on, at a minimum the operating system can 
            determine location. A large number of popular mobile apps 
            gather detailed location information. Third parties sell 
            profiles based on location information. Moreover, mobile 
            operating systems and apps can collect trilateration 
            results using the known locations of cell towers and WiFi 
---------------------------------------------------------------------------
            networks.

    <ctr-circle> Insights: Most privacy experts consider precise 
            location history to be sensitive information.

    <ctr-circle> Discussion: As discussed in our Working Paper, 
            trilateration results in rough location information 
            compared to GPS or Bluetooth location tracking, which is 
            significantly more precise and available to the user's 
            device, operating system, and any application or service 
            with access to those sensors.\43\
---------------------------------------------------------------------------
    \43\ Id.

  <bullet> Subscriber information. ISPs often learn subscriber 
        information, such as name, address, credit card information, 
---------------------------------------------------------------------------
        and Social Security number.

    <ctr-circle> Visibility to others: Many players in the online 
            ecosystem gain access to data such as name, address, and 
            credit card information. Companies that seek information 
            under the Fair Credit Reporting Act (such as for lending, 
            employment, or insurance purposes) also learn Social 
            Security number. A company that has name and address can 
            often purchase additional profiling information, a process 
            that Jules Polonetsky of the Future of Privacy Forum calls 
            ``the democratization of data.'' \44\
---------------------------------------------------------------------------
    \44\ Comment of The Future of Privacy Forum, In the Matter of: 
Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-1606, 14-16 (May 27, 
2016) available at https://www.fcc.gov/ecfs/filing/60001981713/
document/6000208
9525.

    <ctr-circle> Insights: Many privacy experts, along with the FTC in 
            its report on Data Brokers,\45\ have expressed concerns 
            about the amount of personal information that can be 
            purchased when a company knows subscriber information such 
            as name and address.
---------------------------------------------------------------------------
    \45\ ``Data Brokers: A Call for Transparency and Accountability,'' 
Federal Trade Commission, 47-49 (May 2014) available at https://
www.ftc.gov/system/files/documents/reports/data-brokers-call-
transparency-accountability-report-federal-trade-commission-may-2014/
140527data
brokerreport.pdf.

    <ctr-circle> Discussion: The insights that ISPs can gain from 
            subscriber information are available to many others in the 
---------------------------------------------------------------------------
            Internet ecosystem.

  <bullet> IP addresses. ISPs use Internet Protocol addresses to 
        connect an individual device to the Internet. IP addresses are 
        assigned by the ISP.\46\
---------------------------------------------------------------------------
    \46\ Number Resources, Internet Assigned Numbers Authority (last 
visited Jul. 5, 2016) available at https://www.iana.org/numbers.

    <ctr-circle> Visibility to others: IP addresses are visible to 
            every carrier between the customer and the relevant content 
            provider. Operating Systems, websites, applications, 
            content/website providers, browser plug-ins, and software 
            development kits can all collect IP address 
            information.\47\ E-commerce sites can combine IP addresses 
            of visiting customers with the names and addresses of those 
            customers, along with purchase history. Logs of IP 
            addresses are commonly used for purposes other than 
            marketing, including for cybersecurity. Third parties sell 
            correlations of IP addresses with cookies and other 
            information. All these channels enable other actors to 
            replicate IP address information that an ISP can access 
            through providing its services.
---------------------------------------------------------------------------
    \47\ See, e.g., View IP Address, Chrome Web Store (last visited 
Jul. 5, 2016) available at https://chrome.google.com/webstore/detail/
view-ip-address/mfhcchbdblkggcenfmmpgkpgphfhfc
be?hl=en.

    <ctr-circle> Insights: IP addresses can give clues to information 
            such as a user's location, commonly visited sites, and 
            usage patterns (including time of log-in, amount uploaded 
---------------------------------------------------------------------------
            and downloaded, and some information on protocols used).

    <ctr-circle> Discussion: Many of the insights that ISPs can gain 
            from IP addresses are available to many others in the 
            Internet ecosystem.

  <bullet> IPFIX Data/Netflow. The Internet Protocol Flow Information 
        Export (IPFIX)\48\ and NetFlow \49\ are protocols for 
        monitoring network traffic.\50\ For any individual IP flow, or 
        ``sequence of packets sent from a particular source to a 
        particular. . .destination,'' \51\ IPFIX can be used to record 
        and store the start and end time for the flow, the number of 
        bytes and packets in the flow, the protocol/type of connection 
        (e.g., TCP or UDP), and the source and destination of the 
        flow.\52\
---------------------------------------------------------------------------
    \48\ IPFIX is a protocol developed by the Internet Engineering Task 
Force as an open, universal standard for exporting Internet Protocol 
flow information and as an alternative to Cisco's proprietary NetFlow 
protocol. See RFC 5102--Information Model for IP Flow Information 
Export, Internet Engineering Task Force (Jan. 2008) available at 
https://tools.ietf.org/html/rfc5102.
    \49\ NetFlow is Cisco's proprietary protocol for exporting Internet 
Protocol flow information. The term ``NetFlow'' is often used 
interchangeably with IPFIX to refer to this type of protocol. 
Introduction to Cisco IOS NetFlow--A Technical Overview, Cisco (May 29, 
2012) available at https://www.cisco.com/c/en/us/products/collateral/
ios-nx-os-software/ios-netflow/prod_white
_paper0900aecd80406232.html.
    \50\ See id.
    \51\ See RFC 3697--IPv6 Flow Label Specification, Internet 
Engineering Task Force (Mar. 2004) available at https://tools.ietf.org/
html/rfc3697.
    \52\ Id.

  <bullet> Visibility to others: IP flow information is visible to 
        each: network operator; ISP; transit provider; Internet 
        backbone provider; and edge provider along the path between the 
        end-user and the destination. The same IP flow information, as 
        well as additional information, is visible to the user's 
        operating system and applications. For other members of the 
        ecosystem, this data can be aggregated through purchase from 
        and sale to data brokers, including data linked to the IP 
        addresses of a service's users.\53\
---------------------------------------------------------------------------
    \53\ Oracle, Little Blue Book: A Buyer's Guide, 84 (Dec. 2014) 
available at http://www.bluekai.com/bluebook/assets_20150102/bluekai-
little-blue-book.pdf.

  <bullet> Insights: Access to IPFIX/Netflow data may in some instances 
        provide ``side channel'' information from these flows that can 
        help in inferring end-user behavior such as whether they are 
        browsing the web, streaming a video, or chatting with someone 
        online. Comments state it is possible to ``identify certain web 
        page visits'' or ``information about what those packets likely 
        contain'' \54\ from the IP flow information; to do this appears 
        to require ``finger printing'' each website of interest \55\ 
        and the collection of a high fraction of the flows. In 
        addition, concerning the statement that such information is 
        stored as a ``permanent record of these individual 
        transactions,'' \56\ Professor Nick Feamster reports that IPFIX 
        normally samples one out of every 1,000 packets for traffic 
        statistics.\57\ Thus, ``many short flows may not be recorded 
        whatsoever.'' Sampling this data would be an inefficient way to 
        profile users compared to analysis of the actual content 
        available to the operators of pages that users visit and 
        others. Similarly, given the volume of connections and volume 
        of websites, we are not aware of a business justification for 
        creating a ``permanent record'' of all of IPFIX data for an 
        ISP's users nor for maintaining an archive of website 
        fingerprints (which change often and dynamically).
---------------------------------------------------------------------------
    \54\ ``What ISPs Can See: Clarifying the Technical Landscape of the 
Broadband Privacy Debate,'' Upturn, 8, (Mar. 2016) (``It is possible to 
uniquely identify certain web page visits or otherwise reveal 
information about what those packets likely contain.'') available at 
https://www.teamupturn.com/reports/2016/what-isps-can-see.
    \55\ Chen, Shuo; Side-Channel Leak in Web Applications: a Reality 
Today, a Challenge Tomorrow; https://www.microsoft.com/en-us/research/
wp-content/uploads/2016/02/WebAppSideCha
nnel-final.pdf
    \56\ FCC Overreach: Examining the Proposed Privacy Rules: Hearing 
Before the Subcomm. on Commc'ns and Tech. of the H. Comm. on Energy and 
Commerce, 114th Cong. 52 (2016) (testimony of Paul Ohm, Prof., 
Georgetown University Law Center) available at http://docs.house.gov/
meetings/IF/IF16/20160614/105057/HHRG-114-IF16-Transcript-20160614.pdf.
    \57\ Comment of Nick Feamster, In the Matter of: Protecting the 
Privacy of Customers of Broadband and Other Telecommunications 
Services, WC Docket No. 16-1606, 3-4 (May 27, 2016) available at 
https://www.fcc.gov/ecfs/filing/60001973502/document/60002079367. 
Feamster also states: ``even though IPFIX records contain no 
information about the actual content of communication, information such 
as volumes, sources, and destinations can sometimes reveal private 
information about user behavior.'' The discussion here has pointed out 
that access to the content of communications will provide greater 
insights than partial information about the types of data Feamster 
describes. Id. at 4.

  <bullet> Discussion: Professor Feamster also states: ``even though 
        IPFIX records contain no information about the actual content 
        of communication, information such as volumes, sources, and 
        destinations can sometimes reveal private information about 
        user behavior.'' This data, along with other ``side channel'' 
        inferences, is an example of what we believe is ``third-best'' 
        advertising data--inferences based on information that provides 
        less insight than content or detailed URLs. We are not aware of 
        any evidence that these methods are currently widely used, let 
        alone profitable,\58\ for advertising. This data, however, is 
        useful for purposes including network management, network 
        security, and research.\59\
---------------------------------------------------------------------------
    \58\ ``What ISPs Can See: Clarifying the Technical Landscape of the 
Broadband Privacy Debate,'' Upturn, 8 (Mar. 2016) available at https://
www.teamupturn.com/reports/2016/what-isps-can-see.
    \59\ Comment of Nick Feamster, In the Matter of: Protecting the 
Privacy of Customers of Broadband and Other Telecommunications 
Services, WC Docket No. 16-1606, 4 (May 27, 2016) (``Network operators 
may also share IPFIX data with researchers. I use IPFIX data collected 
at interconnection points to analyze utilization patterns. In another 
project related to DoS mitigation, we are using IPFIX data to better 
understand traffic attack patterns. In the past, we have also used 
IPFIX traffic traces from access ISPs to design and validate algorithms 
to detect botnets, large networks of compromised machines. Most 
recently, I have been using IPFIX data collected at the interconnection 
points from seven access ISPs in the United States--covering 50 percent 
of the U.S. broadband subscriber population--to explore the 
characteristics and patterns of utilization between access ISPs and 
edge providers. Interestingly, this type of project that provides 
exactly the type of insight and analysis that the FCC is increasingly 
paying attention to. Preventing ISPs from sharing this type of data 
with researchers would impede progress on this research.'') available 
at https://www.fcc.gov/ecfs/filing/60001973502/document/60002079367.
---------------------------------------------------------------------------
Conclusion
    In conclusion about whether ISPs have ``unique'' visibility into 
user Internet activity, the discussion here has pointed out the many 
places where other players in the Internet ecosystem receive the same 
(or equivalent) information about user actions. Concerning unique 
insights into user behavior, ISPs in many instances have access to data 
that is less revealing than content or other information about user 
activity available to the companies providing services to the user.
    In conclusion, I thank the Committee for the opportunity to testify 
today, and would be glad to answer any questions.
Background of the witness
    I am the Huang Professor of Law and Ethics at the Georgia Tech 
Scheller College of Business, with appointments by courtesy with the 
College of Computing and School of Public Policy. Consistent with 
university consulting rules, I am Senior Counsel with Alston & Bird, 
LLP.
    I have been immersed in privacy and cybersecurity issues for two 
decades. In 2015, the International Association of Privacy 
Professionals, among its over 20,000 members, awarded me its Privacy 
Leadership Award. In 2013, I served as one of five members of President 
Obama's Review Group on Intelligence and Communications Technology. 
Prior to that, I was co-chair of the global Do Not Track process for 
the World Wide Web Consortium. I am Senior Fellow with the Future of 
Privacy Forum.
    Under President Clinton, I served as Chief Counselor for Privacy, 
in the U.S. Office of Management and Budget. In that role, my 
activities included being White House coordinator for the HIPAA medical 
privacy rule, serving as White House representative to the privacy 
rulemaking process under the Gramm-Leach-Bliley Act, and helping 
negotiate the U.S.-E.U. Safe Harbor agreement for trans-border data 
flows. Under President Obama, I served as Special Assistant to the 
President for Economic Policy in 2009-2010.
    I have testified on privacy and other issues before almost a dozen 
committees in the U.S. Congress, and worked closely with the Federal 
Trade Commission and other Federal agencies on privacy and 
cybersecurity issues. In 2011, the Federal Communications Commission 
asked me to summarize and comment on the day's proceedings for its 
Workshop on Location Information. Further information is available at 
www.peterswire.net.
                               Attachment
    Complete article can be found at: http://www.iisp.gatech.edu/sites/
default/files/images/online--privacy--and--isps.pdf
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Professor Swire.
    Before I begin with questions, I want to submit a few items 
for the record of today's hearing. I received two letters that 
I believe contribute greatly to this topic. The first letter is 
signed by constitutional scholar Laurence Tribe and 13 other 
law professors, economists, and experts. They support strong 
protections for consumers in the online space, but they have 
significant concerns with the FCC's proposal, and, instead, 
they suggest that the Commission adopt rules modeled after the 
FTC's longstanding and highly successful approach, their words.
    The second letter, signed by the heads of eight trade 
associations representing both the technology sector and the 
telecom industry, also argues for the FCC to harmonize its 
effort with the existing FTC framework, in order to minimize 
consumer confusion and provide flexibility for the marketplace 
to innovate.
    [The letters referred to follow:]
                   International Center for Law & Economics
                                                      July 11, 2016
VIA EMAIL

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation.

Hon. Fred Upton,
Chairman,
Committee on Energy and Commerce.

  
  
Hon. Frank Pallone,
Ranking Member,
Committee on Energy and Commerce.

Hon. Greg Walden,
Chairman,
Subcommittee on Communications and Technology,
Committee on Energy and Commerce.

Hon. Anna Eshoo,
Ranking Member,
Subcommittee on Communications and Technology,
Committee on Energy and Commerce.

Re: Letter from legal scholars and economists concerning the Federal 
            Communications Commission's Broadband Privacy NPRM

Dear Senators Thune and Nelson, Congressmen Upton, Pallone and Walden, 
and Congresswoman Eshoo:

    We, the undersigned experts in the law and economics of the 
Internet, have significant concerns with the proposal of the Federal 
Communications Commission (``Commission'' or ``FCC'') to adopt new data 
privacy and security rules for broadband Internet access service 
providers (``ISPs'') under Title II of the Communications Act.
    We support strong consumer protection and believe that the 
Commission has a role to play in protecting consumers' data privacy and 
security. For several reasons, however, we find that the proposed rules 
take the wrong approach and would harm consumers, competition, and 
innovation.
    As a fundamental matter, the proposed rules do not reflect the 
technological and economic nature of the Internet environment, in which 
ISPs are just one of many types of entities that have access to and can 
use consumers' online information to provide services, including access 
to ad-supported content. The proposed rules would single out ISPs for 
heightened regulation, imposing strict opt-in consent requirements on 
their use and disclosure of customer information.
    By contrast, other online entities--such as social media networks, 
operating systems, browsers, data brokers, and search engines--would 
operate under the Federal Trade Commission's (``FTC's'') strong but 
flexible opt-out consent regime, which would allow them to continue 
collecting, using, and sharing information about consumers' online 
activities for a variety of commercial purposes. The FTC's framework 
focuses on stopping practices that truly harm consumers, allowing 
companies ample space to develop innovative and beneficial products and 
services.
    As a result, the FCC's proposed rules would not only distort the 
marketplace in ways that are likely to increase costs to consumers, but 
also mark an unprecedented and unwarranted departure from the 
successful balance that has governed the Internet economy for the past 
couple of decades and which has led to substantial innovation, 
investment, competition, and growth.
    Moreover, the asymmetrical regulatory framework that would be 
created by the proposed rules likely would confuse consumers and 
negatively affect the Internet economy. Specifically, the Commission's 
proposal to require ISPs to obtain opt-in consent before using or 
disclosing consumers' data for most activities is diametrically opposed 
to the approach that the FTC has taken for decades and to which 
consumers have become accustomed. Consumers may not understand that the 
choices they make through their ISPs' opt-in mechanism do not apply to 
other participants in the Internet ecosystem, even though these other 
participants will be collecting exactly the same data and using it for 
exactly the same purposes (e.g., online advertising) as ISPs.
    In addition, the free flow of data is the lifeblood of the Internet 
economy. The proposed heightened consent requirements, however, would 
impede consumers' access to information about new online services and 
cost-savings that may be of interest to them and therefore would reduce 
ISPs' incentives to develop new services, reducing competition and 
innovation online.
    The Commission's failure to take these costs into account 
exemplifies its broader failure to conduct a full economic analysis of 
the proposed rules.
    Finally, the Commission's proposed choice rules are 
unconstitutional because they would uniquely prohibit ISPs' use and 
disclosure of information for marketing purposes without obtaining 
consumers' opt-in consent. By treating ISPs differently from other 
online entities, the proposed rules would create a discriminatory, 
speaker-based regime. Such a regime is presumptively invalid and 
subject to strict scrutiny, which the proposed rules could not 
withstand. Nor could the proposed rules survive intermediate scrutiny: 
by requiring opt-in consent for most first-party marketing and other 
activities, regardless of the potential for consumer harm, they are not 
narrowly tailored to advance a substantial governmental interest.\1\
---------------------------------------------------------------------------
    \1\ See also Professor Laurence H. Tribe and Jonathan Massey, ``The 
Federal Communications Commission's Proposed Broadband Privacy Rules 
Would Violate the First Amendment,'' WC Docket No. 16-106 (May 27, 
2016) (white paper detailing how the FCC's proposed rules would violate 
the First Amendment in various respects and should not be adopted).
---------------------------------------------------------------------------
    Fortunately, there is another path forward. The Commission should 
adopt rules modeled after the FTC's longstanding and highly successful 
approach, which the FTC staff highlighted in its comments filed in this 
proceeding. This technology-neutral approach--which applies an opt-in 
consent requirement to the use and sharing of sensitive information 
such as financial, health, children's, and precise geolocation data as 
well as social security numbers, plus robust notice and opt-out choice 
for other data uses--would provide strong, time-tested, and consistent 
privacy protections for consumers across the Internet ecosystem while 
fostering continued innovation, competition, investment, and growth.
            Respectfully submitted,

(Affiliations provided for identification purposes only)

Laurence H. Tribe
Carl M. Loeb University Professor & Professor of Constitutional Law
Harvard Law School

Richard A. Epstein
Laurence A. Tisch Professor of Law, The New York University School of 
Law
The Peter and Kirsten Bedford Senior Fellow, The Hoover Institution
The James Parker Hall Distinguished Service Professor of Law Emeritus 
and Senior Lecturer, The University of Chicago

Robert Corn-Revere
Partner
Davis Wright Tremaine LLP

Robert D. Atkinson
President
Information Technology and Innovation Foundation

Jane Bambauer
Associate Professor of Law
University of Arizona
James E. Rogers College of Law

Babette Boliek
Associate Professor of Law
Pepperdine University School of Law

Fred H. Cate
Distinguished Professor and C. Ben Dutton Professor of Law
Indiana University Maurer School of Law

James C. Cooper
Associate Professor of Law and Director, Program on Economics & Privacy
Scalia Law School, George Mason University

Justin (Gus) Hurwitz
Assistant Professor of Law
Nebraska College of Law

Mark A. Jamison
Director and Gunter Professor, Public Utility Research Center
University of Florida

Daniel A. Lyons
Associate Professor of Law
Boston College Law School

Geoffrey A. Manne
Executive Director
International Center for Law & Economics

David W. Opderbeck
Professor of Law, Seton Hall University Law School
Director, Gibbons Institute of Law, Science & Technology

Paul H. Rubin
Samuel Candler Dobbs Professor of Economics
Emory University
                                 ______
                                 
                                                      July 11, 2016

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write to applaud the Committee for your efforts to examine the 
Federal Communication Commission's (``FCC'') proposed broadband privacy 
rules. Now that the reply comment period in the FCC's proceeding has 
closed, this hearing is a timely and important venue for considering 
the deep flaws that we, and many other commenters, have identified in 
the FCC's lead proposal. In the months since the FCC unveiled its 
proposed rules, a diverse set of stakeholders has criticized the 
proposals because they would impose unnecessary costs on consumers, put 
a drag on innovation and competition, and make it harder for broadband 
Internet access service providers (``ISPs'') to work with the 
government and third-party partners to ensure the security, 
reliability, and integrity of the service. The record before the FCC 
adds depth and breadth to these criticisms and raises additional 
arguments, including important constitutional concerns. It is clear 
that the FCC's proposed rules are both inconsistent with consumer 
expectations and clash with the important policies that have 
successfully guided the Internet economy for almost two decades under 
both Democratic and Republican administrations.
    Title II of the Communications Act in no way requires the FCC to 
adopt prescriptive privacy rules that would single out one subset of 
the broader online ecosystem for heightened and inconsistent regulation 
that ignores the sensitivity of the information at issue. As comments 
from current and former Federal Trade Commission (``FTC'') 
Commissioners, civil rights organizations, economists, legal scholars, 
and companies ranging from advertisers to home efficiency companies 
have noted, the FTC's consumer privacy framework is much better suited 
for the dynamic, innovative, and highly competitive Internet economy--
in which ISPs play an important but limited role. At the center of the 
FTC's framework and the Obama Administration's reports and legislative 
proposals is the idea that companies should be transparent with 
consumers, provide them with choices that are appropriate for the 
sensitivity of data or use in question, and maintain reasonable data 
security safeguards.
    Consistent with that approach, before the FCC initiated the 
broadband privacy proceeding, a broad industry coalition of ISPs, tech 
companies, equipment providers, and others joined together to urge the 
FCC to adopt a framework based on the broad principles of transparency, 
respect for context, and choice. The coalition's proposal, which is 
attached to this letter, emphasized that ``[c]onsumers should have 
consistent and predictable privacy protections for the information they 
deem private and sensitive, no matter how or with whom they share it.'' 
In other words, we support privacy protections that address the 
potential for genuine consumer harm, allow consumers to exercise 
appropriate control over how information about them is used and shared, 
and provide the flexibility that is necessary to promote innovation and 
competition. The FCC's proposed rules, however, are inconsistent with 
the flexible framework that the FTC enforces against many other players 
in the Internet economy; and the proposed rules offer no material 
improvement to consumer privacy protections.
    The staff of the FTC's Bureau of Consumer Protection recently made 
the same point in their comments to the FCC, noting that creating 
special rules for ISPs ``is not optimal'' and that the rigid proposed 
rules ``could hamper beneficial uses of data that consumers may prefer, 
while failing to protect against practices that are more likely to be 
unwanted and potentially harmful.'' We agree: privacy rules that hamper 
innovation and competition while also failing to meet consumers' 
expectations are ``not optimal,'' to say the least.
    The FCC's proposed rules are also seriously out of step with the 
technology-neutral approach--applied to both ISPs and non-ISPs--that 
that has guided the Administration's many efforts on privacy and 
cybersecurity policy, with great success. For example, the 
Administration's Consumer Privacy Bill of Rights emphasized the 
importance of common principles that apply across the ecosystem, in 
particular the need to harmonize the standards that apply to 
communications companies with the standards that apply to the rest of 
the Internet economy. The Consumer Privacy Bill of Rights framework 
provides a ``clear statement of basic privacy principles that apply to 
the commercial world, and a sustained commitment of all stakeholders to 
address consumer data privacy issues as they arise from advances in 
technologies and business models.'' Similarly, the Administration's 
Cybersecurity Framework was ``created through collaboration between 
government and the private sector, uses a common language to address 
and manage cybersecurity risk in a cost-effective way based on business 
needs without placing additional regulatory requirements on 
businesses.'' This is the right approach for the innovative, dynamic, 
competitive Internet economy.
    The FCC's proposal to go in a radically different direction also 
raises serious constitutional concerns. Professor Laurence Tribe, a 
pre-eminent scholar of the U.S. Constitution, concluded that the 
``profound mis-matches'' between the goals of the FCC proposal and its 
actual effects if adopted would violate the First Amendment in several 
ways. According to Professor Tribe, because the proposal ``singles out 
broadband ISPs for extremely burdensome regulation'' while leaving a 
wide range of other participants in the Internet economy under 
different rules, it is the kind of speaker-based restriction that would 
face strict scrutiny under the First Amendment. Professor Tribe also 
concluded that the proposal would be unconstitutional even under the 
more lenient standard that applies to commercial speech. The time-
proven effectiveness of the legal standards that the FTC enforces 
demonstrates that a much less restrictive alternative is available to 
the FCC.
    Put simply, the ``profound mis-match'' between the FCC's highly 
restrictive proposal and the surrounding legal, economic, and 
technological landscape is bad policy and constitutionally problematic.
    We appreciate the Committee's important recognition of this issue 
and the need for Congressional oversight. We are hopeful that your 
examination of these issues will lead to an FCC approach that closely 
harmonizes FCC privacy rules with the existing FTC framework and is 
consistent with the Administration's guiding principles for privacy and 
security in the Internet economy. Doing so would protect consumer 
privacy, minimize consumer confusion resulting from inconsistent 
regulations, permit new entry into the online advertising market, and 
provide the flexi-

bility the online marketplace needs in order to continue to innovate 
and evolve as it has done for many years under such a regime.
            Sincerely,

Gary Shapiro
President and CEO
Consumer Technology Association

Jim Halpert
President & CEO
Internet Commerce Coalition

Jonathan Spalter
Chair
Mobile Future

Scott Belcher
CEO
Telecommunications Industry Association

Meredith Attwell Baker
President and CEO
CTIA

Genevieve Morelli
President
ITTA

Michael Powell
President & CEO
National Cable & Telecommunications Association

Walter B. McCormick, Jr.
President & CEO
USTelecom

    The Chairman. There is also a new paper published by Gerard 
Faulhaber, former Chief Economist at the FCC, and Hal Singer, a 
Senior Fellow at the George Washington School of Public Policy. 
Their paper is titled, ``The Curious Absence of Economic 
Analysis at the Federal Communications Commission: An Agency in 
Search of a Mission.'' And while it focuses primarily on the 
Commission's failure to ground its recent regulations in 
economic reasoning, Faulhaber and Singer offer some valuable 
insight in this case about the FCC's privacy proposal, and 
particularly noting the complete lack of any cost-benefit 
analysis by the Commission in this proceeding.
    So I want to as well submit that for the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. As I mentioned in my opening statement, 94 
percent of Americans prefer that all companies collecting data 
online follow the same consumer privacy rules, and so the 
question for any of you really is the FCC is, as I've said, 
nonetheless proposing to create a privacy regime for ISPs 
that's wholly distinct from the privacy rules governing all 
other companies on the Internet. So do any of you believe that 
consumers expect or want to have their online activity 
subjected to privacy rules that differ depending on the type of 
company collecting their information?
    Mr. Ohm.
    Mr. Ohm. Absolutely. I think companies--consumers do expect 
that health care companies, for example, when interacting with 
a consumer on the Internet, are obligated to follow different 
rules. I think parents, and I'm a parent of young children, 
hope that websites are obligated to follow different rules when 
it comes to the sensitivity of information collected from 
children. I think the same is said when our children go to 
school and use Google Docs: we hope that the companies that are 
engaging in contracts with our school districts are obligated 
to follow special privacy rules. And as I said in my opening 
statement, I think ISPs belong in this group as well for the 
reasons that I've already laid out.
    This speaks to something that we've heard in this debate, 
that the FCC rule will somehow confuse consumers. I think I 
give the American consumer a lot of credit, right? The notice 
and choice regime that the FTC use, which is exalted by almost 
everybody in this debate, is frankly a pretty complex system of 
reading privacy policy after privacy policy after privacy 
policy, trying to manipulate privacy settings. It's a really, 
really straightforward thing. In contrast to that, what the FCC 
proposes is a bright line opt-in consent for certain uses of 
information that are unexpected. Thanks.
    The Chairman. Mr. Leibowitz.
    Mr. Leibowitz. Yes. Can I just respond to the last point? 
And I have the greatest respect for Professor Ohm. He worked 
for the FTC when I was there, he helped out with the Children's 
Online Privacy Protection Act, and he did a great job. But 
first of all, the FTC approach is not complicated, it is 
simple. It prohibits unfair or deceptive acts or practices, and 
if you--which means if you're a company and you don't honor 
your privacy commitment, the FTC will go after you. And the FTC 
has brought cases against Google, against Facebook, against 
Dish Network for not honoring its privacy commitments.
    The second point I'd make--I just want to come back to the 
consumer confusion issue--90 percent of consumers, according to 
a study--this might have been what you cited, Mr. Chairman--by 
the Progressive Policy Institute, and I'll put this in the 
record after the hearing, believe that consumers should be 
under the same rules, and those same--and those same rules--and 
the reason isn't just because of consumer confusion, although 
that's a reason, the reason is because consumers benefit when 
there is competition between ISPs and other technology 
companies, and the FCC has an ability to take the FTC approach 
and turn it into rules. And that's why I think Mr. Garfield's 
idea of having them put out a second draft, because the draft 
that they've put out is full of--it makes--I believe they have 
policy choices or the Coalition believes, and it is riddled 
with just mistakes, would be a good idea. You don't write a 
bill--you don't write a bill, introduce it one day and go to 
the floor the next day. It gets beveled by this committee, it 
gets tested and stress-tested, and that's what the FCC should 
do. This is a big part of industry. You want to get this right. 
They're not very close yet. They need to do a better job.
    Mr. Garfield. Yes, I would add that the problem is not 
simply that it's distinct, and there's a problem there, as Mr. 
Leibowitz has pointed it, it's also that it ignores what is 
proven to be effective and workable over decades. And so 
replacing something with something that's likely to not be 
workable is making change for change's sake without any 
evidence that will improve the nature of things for consumers.
    The Chairman. Mr. Leibowitz, has the FCC identified any 
specific harm or particular problems posed by ISPs that require 
a different privacy framework from what the FTC has applied to 
ISPs for years?
    Mr. Leibowitz. No, I don't believe it has, Mr. Chairman, 
and, indeed, you know, it would be easy for the FCC to take the 
FTC's approach embodied in the 2012 report, which, by the way, 
was criticized by some businesses and supported by a lot of 
consumer groups, and just focus on the really important thing, 
where consumers need protection, which is sensitive data.
    The Chairman. Mr. Polka, while the FCC's proposals would 
place significant additional burdens on all broadband 
providers, as you pointed out, there are burdens that I think 
probably disproportionately affect smaller providers, like 
those serving much of South Dakota and rural America, who may 
have only hundreds or perhaps a few thousand broadband 
consumers.
    Would you think the FCC's proposed regulations lead to more 
and better broadband service options for rural American 
households, or might they lead to less? And maybe you could 
elaborate a little bit, too, some of the burdens and how they 
do disproportionately affect providers in our part of the 
world.
    Mr. Polka. We believe it would lead to less with a chilling 
effect on investment and deployment, which is something none of 
us want. I mean, we're all here in Washington where we're 
encouraging greater deployment of broadband in smaller markets, 
rural areas. And the fact of the matter is you can look at our 
members and say that they're good actors. They've been member 
companies that have supported privacy and protected the privacy 
of their customers for decades.
    And, in fact, our member companies have been part of the 
solution. We're the ones that have delivered broadband out to 
the smaller markets in rural areas where the large companies 
simply won't come. So we are part of that solution in reaching 
those hard-to-reach communities.
    But what we're talking about here is really the challenge 
of balancing the need for privacy and privacy regulations with 
the ability to deliver important broadband services in rural 
markets in rural areas, in smaller markets, and in competitive 
areas, and that's where I think the balance is necessary with 
the FCC's rules.
    When we look at changing the nature of what has been a 
consistent longstanding policy that is applied to consumers in 
the broadband--Internet ecosystem for years and now changing 
that and changing their expectations, I think we're asking for 
trouble.
    As your previous question alluded to, consumers expect 
privacy to apply across the board. If you create two different 
systems of privacy regulation, the consumer is going to think 
there is just one standard. They might be surprised on the 
other end, where there's a lesser standard, to realize that 
maybe their privacy isn't protected as maybe they assumed it 
would be when they're dealing with their ISP.
    The Chairman. Thank you. My time has expired.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I have been struck listening to your testimony, and I thank 
you for it, I think it's very reasoned. What we have been going 
through over the past several years in trying to protect the 
privacy of American citizens and American persons from 
intrusion by the government, and, thus, we have set up this 
long case history that if you want to get something in 
somebody's house, you have to go to a judge, if you're the 
government, to get that. So, too, then in this new world of the 
Internet and telephone calls, we have said that if the 
government wants to get content of those communications, it has 
to go to a specially set-up court to handle intelligence 
matters, the FISA court.
    Now, if that is true and now we move from government 
wanting to get your content over to corporations wanting to get 
your content, Professor Swire, is that the reason that half the 
people are now encrypting their communications?
    Mr. Swire. Well, a big reason for the shift in encryption--
and I was on the President's NSA Review Group and we worked a 
lot on those FISA kinds of things--a big reason is that 
American-based companies that operate overseas were facing a 
lot of loss of confidence overseas, folks didn't want to use 
U.S.-based services, and one of the ways that American-based 
tech companies have responded is by upping the level of 
encryption in a lot of different places.
    Senator Nelson. But you said in your testimony, as I 
understood it----
    Mr. Swire. Yes.
    Senator Nelson.--that it is the consumers that are choosing 
to encrypt their communications.
    Mr. Swire. It happens at the service level. So Gmail a few 
years ago wasn't encrypted, and now it is. Facebook a few years 
ago wasn't encrypted, and now it is. It's complicated for us, 
as individuals, to set up an encryption system, but it's by 
default, then it works, and what's happened for consumers is in 
the last few years the defaults have shifted a lot more toward 
encryption.
    Senator Nelson. OK. Professor Ohm.
    Mr. Ohm. Yes, no, it's a great question and it's a really 
interesting one. I spent four years at the Justice Department 
as a computer crime prosecutor----
    Senator Nelson. In essence, my question to you is----
    Mr. Ohm. Yes, yes.
    Senator Nelson.--do we not have an obligation since we're 
protecting American citizens and American persons from the 
government intrusion of their content, do we not have an 
obligation to protect from the commercial intrusion of their 
content?
    Mr. Ohm. Yes, it speaks to the Chairman's question about 
consumer expectations, right? Privacy is in shambles 
everywhere. The consumers and the citizens feel a lot of 
anxiety about this, and again I'm guessing that you hear this 
from your constituents. One measure of this is kind of clamor 
for encryption. And, by the way, some of that encryption may 
be, ``Please encrypt your service so my ISP can't look over 
shoulder,'' which feeds the FCC's impetus, not cuts against it, 
right? And for these reasons--and, in fact, in some of my work, 
I've even documented how the line between these two systems of 
surveillance is actually quite blurry, and that a lot of 
government surveillance is sometimes abetted by massive data 
bases that are held by corporations.
    But to get to your basic point, I couldn't agree more. Like 
if we want parity, we should have parity in all ways, including 
parity in the understanding that information, when it's sent 
through an intermediary that you have to use, you have no 
option not to use an ISP, will have a modicum of measured level 
of modest privacy support on top of that.
    Mr. Garfield. What we're talking about is not a choice 
between protection or no protection. What we're talking about 
is the framework for that protection, and should it be grounded 
in well-established principles or reinvented whole cloth by the 
FCC?
    Senator Nelson. Well, what we're talking about, when you 
look at it from the consumer's standpoint, is, should the 
consumer have the authority, by giving their consent or not, to 
control the invasion of their content? That's what we're 
talking about.
    Mr. Garfield. Right. But opt-in and opt-out are both giving 
consumers choice and consent. What we're talking about is 
whether the agency gets to define which is----
    Senator Nelson. But as a practical matter, that doesn't 
work that way.
    Mr. Ohm. Right. And if I may, Senator Nelson, it goes 
directly to your question, the Wiretap Act and FISA, which you 
referenced, they do have consent exceptions, but they're prior 
consent exception just like the FCC's opt-in rule. Imagine if 
it weren't so. Imagine if the baseline rule was all of our 
communications could be wiretapped unless we found some obscure 
government website and opted out. Right? So this goes exactly 
to the question that you were asking.
    Mr. Leibowitz. But the other thing I just wanted to mention 
is you are talking about sensitive data, and I think we all 
agree there should be protections for sensitive data. That was 
the FTC's approach, and we believe that could be the FCC's 
approach, but that is not the approach they have now, it's for 
all data. And keep in mind that right now over the top 10 ad 
sites and 70 percent ad-selling companies and 70 percent of 
online advertising revenue, much of it driven by rich data 
collection. It's not ISPs, it's everybody else in the Internet 
ecosystem. And so everyone should be under the same--every 
company should be under the same rules to protect the kind of 
data you want protected.
    Senator Nelson. Well, I'll get into it later on. But thank 
you, Mr. Chairman.
    But let me just tell you some country boy logic. One 
person's sensitive data is not another person's sensitive data. 
And so the question here to me is, Should the consumer have the 
choice of whether they want that data shared with the 
commercial sector?
    The Chairman. Thank you, Senator Nelson.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. And following up on that thought, Mr. 
Leibowitz, why would you have two different standards?
    Mr. Leibowitz. Well----
    Senator Blunt. Even if you do establish this data, 
sensitive data standard, why would you have one standard for 
one group of data providers and another standard for another 
group of data providers?
    Mr. Leibowitz. Well, I think you're absolutely right, and 
in the FTC's 2012 report, which was widely praised by consumer 
groups and had some praise and some criticism by businesses, we 
called for the same standards to be imposed on all large-
platform providers, large-platform providers meaning both ISPs 
and other collectors of data, if those standards were to be 
applied at all, because we think that's what's critical, and 
technology neutrality, which I think is the point that you're 
going to.
    Senator Blunt. It seems to me, Mr. Garfield, that that's 
the fundamental debate we ought to be having here, is if we 
determine the issue of sensitive data, why would it only apply 
in one sector of the way we transmit this information? I mean, 
everything from my flashlight on my iPhone, I believe if there 
is a way to disconnect that from the location finder, I don't 
know what it is, so if I turn on that flashlight, somebody 
knows where I am, or at least it's been registered in a way 
that somebody could find out where I was, and that kind of data 
isn't even considered in this FCC discussion. Is that right?
    Mr. Garfield. Correct. The FCC's proposed rules would only 
apply to companies that provide broadband internet access 
services and that are otherwise covered by the Open Internet 
Order and so would not apply to many of the companies that I 
represent.
    Our advocacy--there are important differences between 
network operators and our companies, but our advocacy today is 
not suggesting that there shouldn't be protection, it is 
actually making the point that you're making, which is we have 
rules that have been working for the last--at least the last 3 
decades, and rather than rewrite those rules with no 
foundation, no data to suggest that they would help consumers 
more, less rely on the rules that are well established that 
have been working that have been developed by the FTC.
    Senator Blunt. Mr. Polka, I believe your group of 
companies, the American Cable Association, is largely small and 
rural cable providers.
    Mr. Polka. Right.
    Senator Blunt. What would be discussed here? Does that 
impact the ability of your companies to provide the higher 
levels of Internet and communication that we think everybody 
needs to have?
    Mr. Polka. It would because it adds layers of complexity 
regarding privacy compliance. And in saying that, I'm not 
saying at all that our members are not strictly committed to 
protecting the privacy of their customers, it's just that these 
rules have a tradeoff effect in terms of providing broadband 
service in smaller markets.
    When you're talking about small companies in southeast 
Missouri that I know of, such as BOYCOM Communications or 
Fidelity Communications or SEMO Communications, that have less 
than a couple of thousand subscribers, the FCC would be asking 
them to maintain a strict liability of ensuring privacy 
protection, which even the FTC has said is undoable. It's 
impossible to meet that standard, not to mention the revision 
of policies, the revision of consents that are asked of 
consumers who opted out to provide consent for commercial 
reasons, which they enjoy, now to an opt-in over non-sensitive 
data that would necessitate the addition of legal time, 
consultant time, man-hours. The FCC itself hasn't even 
determined the cost-benefit analysis of these rules on smaller 
operators, let alone larger ISPs, and I think it's a big issue 
in terms of----
    Senator Blunt. And in rural areas, it costs more to add 
customers----
    Mr. Polka. Absolutely.
    Senator Blunt.--that are further spaced apart, and you're 
saying this is just another reason not to make that additional 
investment to further expand your liability for very little 
impact on your company in a positive way? Is that----
    Mr. Polka. What this would cause is a shift of resources 
from investment and deployment into regulatory compliance for 
smaller businesses, and that means less deployment of broadband 
in smaller markets, rural areas, slower speeds, maybe less 
capacity. And in addition, because of the customer confusion, 
maybe customer anger over consents that they now have to give 
that they didn't have to give before, more consents, and in 
such a way, creating, you know, fatigue on the part of a 
consumer to say, ``Well, I just give up. I don't even want the 
service any longer.'' We don't want to see that happening in 
our markets.
    Senator Blunt. Thank you.
    The Chairman. Thank you, Senator Blunt.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Professor Ohm, it seems to me that one of the basic 
questions is, what is it that makes an ISP different from 
another Internet company? And the Title II part is easy, that 
was sort of pursuant to a legal strategy, the Open Internet 
Order. Set that aside for a moment. Your assertion, and I find 
it persuasive, is that ISPs occupy a unique place in the 
Internet ecosystem, and especially for people in rural areas 
and actually people in D.C. who have very few choices in terms 
of how they get on the Internet.
    So I want you to talk a little bit about that, and then I 
want to give a chance for Mr. Leibowitz to respond, and then, 
additionally, I want you to respond to Professor Swire's data 
point regarding encryption because it seems to me that this 
unique place in the ecosystem becomes somewhat less critically 
essential if you're talking about 70 percent encryption 
eventually and going up and up and up, which is to say, 
intuitively, I don't want to necessarily let an ISP have all of 
my data, and yet if all they know is that I went to Facebook, I 
went to the Star-Advertiser back home, I went to Gmail, that I 
do not find to be, to repeat Mr. Leibowitz's term, particularly 
personally sensitive.
    So I want you to address, first of all, what is it that 
makes an ISP special? And how do you respond to the contention 
that increasing encryption may diminish that argument?
    Mr. Ohm. Absolutely, and thank you for the question. There 
are actually two ways to take on the first question. I think 
they're both consistent with one another. The first is simply 
the choice point again, that if you have an operating system, 
as Professor Swire suggested in his testimony, that is bucking, 
frankly, their industry norms and beginning to build a dossier 
on you as well. Well, first of all, it will have a press outcry 
when this is revealed; second, you have a choice to switch 
operating systems. It's even an easier choice if it's your 
browser that is doing the untoward spying, but when it's your 
Internet service provider, as you say, for rural Americans, for 
people who live on tribal lands, and for urban dwellers, that's 
not really a meaningful choice.
    Second, it goes directly to Senator Blunt's----
    Senator Schatz. So you're not necessarily talking about 
current bad behavior, but potential future bad behavior.
    Mr. Ohm. Potential future, yes.
    Senator Schatz. Fairly.
    Mr. Ohm. I strongly believe that we don't need to wait for 
Pearl Harbors and data out--you know, dead bodies before we 
decide in anticipation to regulate something, right? And I 
think that's the decision that was made by this body in 1996.
    Second, it goes to Senator Blunt's question about, Why have 
two standards? Right? As I said earlier, we have numerous 
privacy standards about online space itself. One reason why not 
to have two standards is because Congress hasn't gotten around 
to regulating----
    Senator Schatz. Well, I'll just interject there and point 
out that if you ask a person whether they think that there 
should be one standard, the assumption of the respondent in the 
poll is that it would be one high standard----
    Mr. Ohm. Right.
    Senator Schatz.--not one high standard and one low 
standard. So I don't find that particularly persuasive at all.
    Mr. Ohm. Yes, no, no. And if I can say one more thing 
agreeing with you on that, I have all the respect in the world 
for Professor Swire's work. You can read his report to say 
everybody is collecting information in ways that consumers 
don't know, don't expect, don't appreciate. Right? And so you 
could read it, and I think he's even said this, you can even 
read it as a full-throated defense for more privacy law in 
different sectors. Right?
    Senator Schatz. Can I get you to respond to the encryption 
question and then kick it over to Mr. Leibowitz?
    Mr. Ohm. Absolutely, absolutely. So encryption is 
spreading, but as the report from Upturn, which has been widely 
cited, has said, 85 percent of the most widely used websites 
still don't encrypt. It's a sad fact in 2016.
    The second thing is you were talking about a rather anodyne 
list of websites that you may not care if people know about, 
but it doesn't require much imagination to come up with the 
websites we might care more about. This person is visiting the 
NRA website reliably, this person is visiting Planned 
Parenthood, this person is visiting Black Lives Matter related 
websites. Right? There's a long tail of sensitivity, and 
sensitivity is often in the eye of the beholder.
    Senator Schatz. OK. Go ahead.
    Mr. Leibowitz. So I will yield 30 seconds of my time to 
Professor Swire at the end so that he can talk about why----
    Senator Schatz. That gives you 10 seconds.
    [Laughter.]
    Mr. Leibowitz.--why ISPs are not unique. Then I will only 
yield 15 seconds of my time.
    [Laughter.]
    Mr. Leibowitz. But I think the important answer--and I can 
see you're struggling with this, and I think all of us are 
struggling with this, is you can have similar--rules ought to 
be technology-neutral to the extent that they can, and if 
you're going to have a higher level of scrutiny--right?--for 
the things that consumers are concerned about and that they 
need to be protected about, then it should be the kind of 
sensitive data like health, like financial information, and 
like information that involves children--right?--which is what 
the FTC did in its role, which Senator Markey was very involved 
in, on the Children's Online Privacy and Protection Act.
    And so all we are saying from a 21st Century Privacy 
Coalition approach, Privacy Coalition approach, is have the 
FCC's rules reflect more of the FTC's policies, which is 
enforcement plus restrictions on sensitive data and technology 
neutrality to the extent that you can do it, and then I'll turn 
it----
    Senator Schatz. With the Chair's permission, we'll go to 
Professor Swire for just a couple of seconds.
    Mr. Swire. I don't think I have really much to add.
    Senator Schatz. OK. Thank you.
    [Laughter.]
    The Chairman. That is a first in front of this committee.
    [Laughter.]
    The Chairman. I have Senator Markey up next.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And I 
guess I would argue that where you go online all day long, and 
we've learned from recent surveys that adults and children are 
pretty much online all day long, but where you go online all 
day long is as sensitive as your health information. It is as 
sensitive. I mean, that's the profile of who you are as a human 
being in the United States in 2016. OK? If that information is 
not considered to be sensitive, then all of us have every bit 
of information being gathered about us, about what we're doing 
all day long, every single day, as being out there and kind of 
being determined to be not sensitive, not sensitive, just kind 
of a product, just information that can be sold to people. And 
I think that's what the heart of this whole matter is all 
about.
    So historically, the telephone company was viewed as a 
company that if you got on the phone and you called that 
department store or you called this or you called that place, 
we had laws that said the telephone company can't sell that 
information, where you went, who you are. Right? And beginning 
now, with this new FCC regulation that's been upheld, well, 
this broadband access is now considered to be a common carrier 
like a telephone company was, so now the FCC has the ability to 
regulate it.
    And so as you're looking at the issue again and you're 
saying, OK, so what should the protections be? What should this 
common carrier be allowed to do with all of this information, 
which is essentially who we are as people? Now, what that 
company did that you called with your information, that's one 
issue, and we have to deal with that, but this is a separate 
issue. What does the telephone company do? Because essentially 
there's just a telephone company and a cable company. You don't 
have a choice. If you're going to be online, you have to pick 
one or the other, and in many places, you can just pick one.
    So, Professor Ohm, can you talk a little bit about that 
transferring over of what the expectations are of ordinary 
Americans and the protection of this profile of who they are as 
a human being?
    Mr. Ohm. There are so many studies, including a 
particularly distressing one about a survey of American 
authors, that show that people hesitate to surf the Web in the 
way they would like to because they're worried about where that 
information may end up. Now, it may be that for some of the 
people, they're worried about the government, and for others, 
they're worried about corporations, but that chilling effect 
has been documented and it has a sort of deleterious effect and 
influence on expectations that you've been describing.
    And the other thing I can tell you is I couldn't agree more 
with your assessment of all of this information being 
sensitive. I would be so bold as to say it probably could 
justify a ban on the sort of behavior we're talking about, but 
that's not what Congress did in 1996, and it's not what the FCC 
has done in its rule. It's a very measured rule, and I would 
love to say more about that, but it doesn't go to the extreme--
--
    Senator Markey. Then say a little bit about that because 
what they're talking about is giving consumers more power to 
choose if their sensitive information can be used or shared by 
the ISPs, require the ISPs to adopt ADA security protections 
and notify consumers if a breach occurs, and promote 
transparency by mandating that the ISPs disclose what they 
collect about consumers. So what's wrong with that?
    Mr. Ohm. Absolutely. It's a modest set of requirements. It 
overlaps in significant part with the FTC report of 2012 that 
Mr. Leibowitz has talked about several times. As I hear Mr. 
Polka's testimony, and I'm very sympathetic to the idea that 
small businesses need to be accommodated by regulations, I 
heard him say repeatedly this his companies are responsibly 
already doing right by their consumers when it comes to privacy 
and security. I'm guessing most of them are not selling data en 
masse to advertisers. This rule will have modest effect on 
them, and if there is something that's disproportionate, then 
the FCC ought to accommodate that.
    Senator Markey. Yes. So this essentially says there's a 
bill of rights, that is, that each American knows what the 
rules are going in----
    Mr. Ohm. Yes.
    Senator Markey.--rather than hoping that the FCC brings a 
case later on saying, ``You know, that was really an unfair and 
deceptive practice.''
    Mr. Ohm. Well, and I'm sorry to disagree just a little bit. 
I wish it were more of a bill of rights. This is merely an 
opportunity for a contractual, meaningful contractual, 
conversation with your ISP, but you're not afforded any rights, 
right? They can say in some meaningful ways, ``The deal we're 
offering you is not a very good deal, but here's the deal we're 
offering.''
    Senator Markey. ``Here's the deal.''
    Mr. Ohm. Yes. But, again, I totally agree. It's a modest 
measured approach to privacy on this----
    Senator Markey. There's kind of an argument here, well, 
this is kind of like a radical departure from what's been going 
on for the last 20 years, and what you're saying is it's not at 
all.
    Mr. Ohm. Yes.
    Senator Markey. It's modest.
    Mr. Ohm. Absolutely.
    Senator Markey. It's reasonable. It gives the consumer some 
rights, some sense of expectations about what they can expect, 
but it's in their relationship with the ISP, with the telephone 
company and cable company, and then they can decide what they 
want to do.
    Mr. Ohm. And, quite importantly, they're having a public 
NPRM. Congress is watching them very closely. They have strong 
incentives, the agency does, not to do something that's 
terribly radical, hence the modest approach.
    Senator Markey. OK, great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Leibowitz, did you want in on that?
    Mr. Garfield?
    Mr. Garfield. It is far from modest, and that's--moreover, 
if you are, as Professor Ohm said, going to regulate 
prospectively, I think it's incumbent upon you to bring forward 
evidence to suggest that the alternative approach that you are 
going to move forward with is one that will actually benefit 
consumers.
    Mr. Leibowitz. Yes.
    Mr. Garfield. And in this NPRM, there is no zero data 
suggestive of that, and that's why we think it's critically 
important that there's a second NPRM that cabins--reacts to the 
responses that have been given thus far to date, and that gives 
consumers, as well as the public broadly, the opportunity to 
react to what's being proposed.
    Mr. Leibowitz. Yes, and I just want to say I do agree that 
they should put out a second draft of this proposal. But having 
said that, going back to your point about the 
constitutionality, Senator Markey, when we were dealing with 
phones, it was a closed universe of information, as you know. 
Now we're dealing with data, and when you're dealing with data 
and so little of it is collected by ISPs and so much of it is 
collected by others, you have a problem under the Central 
Hudson Test because you are treating different entities that do 
the same thing differently. So that's the constitutional 
infirmity.
    I won't dwell on it much longer, but it's something that 
I'm sure the FCC is thinking about, and the more that they make 
their rules technology-neutral, I think the higher the decibel 
level goes down, the more--and I think the less they have 
constitutional infirmities.
    Senator Markey. Well, again, I would leave it up to the 
same lawyers at the FCC that were just upheld at the Circuit 
Court to determine what is, in fact, constitutional or not, and 
so far their record has been very good in terms of drawing 
those lines right where they can be upheld.
    The Chairman. Thank you, Senator Markey.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Thank you, Mr. Chairman.
    Mr. Polka, I want to talk again about small business. In 
fact, I was reading the question as written in front of me, and 
it said we want to shield small business from the effects of 
harmful government regulations. The reality is, as I think 
about that statement, it's not the business we want to shield 
from harmful government regulation, it's the consequence that 
that harmful government regulation has to the consumer----
    Mr. Polka. Certainly.
    Senator Moran.--and that's particularly true for a state 
like Kansas. You visited with the Senator from Missouri, knew 
there are small companies. That is what dominates in our state. 
It is also a state in which we still struggle to have broadband 
services, a wide array, across our state, and some places have 
virtually none.
    So one of the things that we've thought about doing is to 
consider giving legislative clarification that the FCC has 
exemption and waiver authority to deal with those kinds of 
issues. And my question is, Do you believe that to be necessary 
and helpful? And if so, I assume you and others would work with 
us to try to get it right?
    Mr. Polka. Without question. Companies like Eagle 
Communications out of Hays, Kansas, that are phenomenal 
providers of broadband service, have worked because our 
regulatory scheme has encouraged smaller businesses working 
with their consumers to flourish to provide these services in 
their marketplace. But under today's circumstances, it's 
becoming increasingly more difficult to do the same things.
    We're here today talking about privacy where, with all due 
respect to my new friend, Professor Ohm, I wouldn't say it's an 
easy transition from one set of rules we're under to the 
proposed new rules, particularly for smaller providers. But 
that's one set of rules where we're talking about the need to 
shift resources from providing more services to meeting a 
regulatory compliance burden. But at the same time we're 
sitting here, there are at least three other major rulemakings 
that are moving forward at the FCC that have the same impact, 
implementation of the Title II Order, the FCC's rulemaking on 
set-top box reform, and also the FCC's rulemaking on broadband 
business data, otherwise known as special access. Each of these 
in their own could have the kind of negative effects that we 
fear that our members would have to suffer by shifting 
resources from deployment to compliance and regulation.
    Now, again, it's not a situation where our members are at 
all saying, ``We're not up to doing our duty,'' but there is a 
balance that you have to reach when you talk about providing 
the service from a commercial perspective as well as protecting 
the consumers, and we're here to hopefully be part of the 
answer to that. But certainly any greater understanding by the 
FCC or requirement for the FCC to even look at the impact on 
smaller businesses would be enormously helpful to achieving 
everything we want to achieve, which is more deployment in 
smaller markets.
    Senator Moran. Sir, you make a good point. It never seems 
to me that it's one regulation or one event that causes small 
business to struggle and/or fail, it's the series of things, 
it's death by 1,000 cuts----
    Mr. Polka. That's correct.
    Senator Moran.--one more additional burden, and at some 
point in time the proverbial straw broke the camel's back.
    Let me talk to Mr. Garfield about the cross-border data 
transfers, the EU Privacy Shield negotiations. I'm told it has 
just been announced that there is an agreement. This agreement 
is necessary, I suppose, because the EU and the U.S. have 
fundamental differences in the way we look at privacy, ours 
based upon our Constitution. It's my understanding that 
Americans officials advocated standards based upon the 
longstanding FTC guideline for privacy. What effect would occur 
in those negotiations, the resulting agreement, if we now have 
the FCC regulations, the new standard?
    Mr. Garfield. Let me begin by thanking Congress for their 
role in getting the Privacy Shield passed. The passage of the 
Judicial Redress Act was critically important in getting that 
done. To answer your question, I think it would add a layer of 
confusion that would be unhelpful, and so the Privacy Shield 
recognizes that there is some distinction between the privacy 
regime in the U.S. and the security regime in the U.S. and 
Europe, but that they're essentially equivalent, and that's a 
recognition that the FTC's framework and principles are well 
established. It would be highly ironic and certainly unhelpful 
if, because of another regulatory agency, that agreement that 
has just been put in place would be called in question because 
we're now questioning whether the privacy regime in the U.S. is 
one that's workable.
    Senator Moran. Mr. Leibowitz, anything you want to add to 
that?
    Mr. Leibowitz. No. I absolutely agree that the Commerce 
Department and others are relying on the FTC approach, and if 
it's being questioned it's not strong enough, I think that it 
does not potentially bode well as the Privacy Shield goes 
through the European Union vote.
    Mr. Garfield. If I may just add one other thing that makes 
it particularly relevant, is that though the Privacy Shield has 
been passed, our expectation is that it will continue to get 
challenged in Europe, including in the courts, and so the 
actions that are taken here will certainly have impact, not 
only in Europe, but in other markets around the world.
    Senator Moran. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Moran.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you. I've been going back and forth to a FOIA hearing in 
Judiciary in the same area of information and issues, so I want 
to thank you for this important hearing and all of you for 
coming today.
    I've been very involved in the broadband issue and, as has 
the Chairman especially in the rural areas, trying to get 
broadband out. We have many problems with a lot of our 
businesses, small businesses, farmers having to go to 
McDonald's parking lots to get any kind of access. So this 
privacy concern with broadband is incredibly important, but to 
some of them may be a luxury because they can't even get the 
access yet. But for most people who have access, this is an 
issue.
    Senator Hoeven and I actually have worked hard to include 
the Driver Privacy Act, it's part of the FAST Act that was 
passed, to put in some privacy protections for data collected 
in cars. I'm not going to focus on that as much today.
    I guess I would start with you, Mr. Leibowitz, about data 
breaches continuing to jeopardize the security of consumers' 
personal information. Data breaches can have, as we know, long-
term financial consequences for consumers. How should we 
determine, Mr. Leibowitz, what kind of threat should lead to a 
consumer being notified of a data breach? We certainly had this 
issue with Target, my hometown company, and others. How do we 
ensure that consumers receive data breach information that's 
useful to them?
    Mr. Leibowitz. Well, I think that you have to have a harm 
trigger because--and, of course, in the example of Target and 
many of the 50 data breach cases that the FTC has brought, it 
involved harm. But the FCC's approach for data breach doesn't 
have a harm trigger at all. So our concern is under the 
approach they have, there would be massive overnotification to 
consumers, and consumers would become--would see so many 
notifications, and this is a problem in other disciplines as 
well that the FTC has commented on, that they won't look at the 
real notification that they need to because they'll be swamped 
with other notifications that don't really have meaning.
    The other thing, less important because it's not consumer 
related, but important nevertheless, is that a sort of a no 
harm approach for the ISPs is in some contrast with the 
cybersecurity framework that NIST has prepared, which is really 
about protecting critical information.
    Senator Klobuchar. I see. I get it. And you also argue 
about the FCC proposal to prohibit Internet service providers 
from allowing companies to pay for extra privacy protections, 
and you state that many of us may decide that the price to pay 
to avoid personalized marketing is worthwhile. Of course, not 
all consumers have the financial means to make that decision. 
How would you answer the criticism that allowing consumers to 
pay for privacy will result in weaker privacy protections for 
low-income consumers?
    Mr. Leibowitz. Well, it's not certain. I mean, it's a 
reasonable question to be raised, but it's not certain what 
ISPs would do if this--and this is an actual prohibition, as 
Professor Ohm knows, if this--or this would be, if they were 
allowed discounts. It may just be collecting data and using it 
with your similarly branded affiliates.
    These are not--ISPs are not data brokers. No one, I think, 
would ever propose something like that. And so I think the 
approach should be give consumers real informed notice so they 
know what they're being offered, if they're being offered a 
discount, and let them make the decision. And if I'm a family 
of four making $35,000 a year and living in Minnesota, and I 
want, you know--I want home security service or I want music 
streaming or I want energy efficiency, I should have the right 
or the ability to make that determination. The FCC's approach 
in that area, at least, seems to me very top-down and command-
and-control.
    Senator Klobuchar. OK. Mr. Ohm, maybe you want to respond 
to that? And do you think FCC regulation of broadband privacy 
can complement the FTC's privacy work?
    Mr. Ohm. Yes, thank you for both those questions. Number 
one, when it comes to pay for privacy, as it's colloquially 
called, it does really give me a lot of pause, the idea that 
we've already talked a lot during this hearing about the 
paucity of choice that you have for a broadband provider, the 
idea that the only broadband service you could possibly have is 
one where you have to pay extra if you want the privacy version 
of it, is distressing to me and it's something that I hope the 
FCC will strongly consider dealing with.
    It speaks to, I think, a broader undercurrent in this 
debate. I don't have a lot of time, so let me say it briefly, 
which is, a lot of the arguments and criticism has come from 
the perspective of the well-paid D.C. lawyer. For example, a 
statistic that's used often is the average American has 6.1 
devices and three ISPs. Well, that may be true for the average 
American, but it's not true for a lot of Americans, and, in 
fact, a Pew study shows that a lot of Americans who have one 
device and one ISP are disproportionately younger, they're 
poorer, and they're also representative of racial and ethnic 
minority groups.
    So as we think about the policy questions, I want to make 
sure we're thinking about all Americans, not just the well-to-
do.
    Second, if you could repeat the same question, if I have 
time to answer this.
    Senator Klobuchar. Go ahead, yes. It looks like Mr. 
Leibowitz might want to respond.
    Mr. Leibowitz. That might be a point of privilege. But, 
look, I spent--as you know, I spent most of my career in public 
service, and, look, don't take my word for the concerns about 
the FCC's rule, just look at the FTC's unanimous comment where 
it says some of the choices made by the FCC are not optimal, 
and it cites 28 different instances where they're in 
disagreement, in polite, diplomatic language. Don't take my 
word for it, don't take an academic's word for it, we're all--I 
think we are all articulate witnesses, I may be the one 
exception, but, you know, look at what the FTC thinks they have 
done--thank you--they have done--the FTC has been the Nation's 
leading privacy agency for the last 30 years, they're informed, 
they know what they're talking about. I would listen to them as 
well and perhaps more than all of us together.
    Mr. Ohm. I think I'm out of time, but I invite the 
opportunity to talk about the FTC. I would love to do that.
    Senator Klobuchar. Well, I guess that's open for my 
colleagues to ask you, and maybe I'll follow up with some of 
this in writing, including with you, Mr. Garfield.
    Mr. Ohm. I appreciate it.
    Senator Klobuchar. So thank you very much.
    Mr. Ohm. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Mr. Polka, I appreciate you highlighting in your testimony 
the burden that these privacy rules will place on small 
businesses. In a state like Montana, population and geography 
pose tremendous challenges for small ISPs. I think about 
Blackfoot Communications. They're the sole provider for 
Elliston, Montana, population 225. Do small carriers even have 
the technical capability to engage in the conduct the FCC is 
trying to prevent? And if they do, do they have any incentive 
to do so?
    Mr. Polka. Not really, Senator. The situation you talked 
about is typical, the company you referred to is typical. I've 
been inside the network operation centers, if you want to call 
them that, a small room in a head-end for a smaller provider, 
and they may have a board and a diagram up there, and that 
diagram has either a red signal or a green signal. Green means 
the network is operating. Red means there's a problem they have 
to fix. That's about the level that our members are looking at 
to make sure that they're able to provide broadband service to 
their customers.
    The fact of the matter is, is that our members, the smaller 
providers, as I've said before, are in the business of trying 
to deliver that network service to their customer for the 
customer to then use as the customer sees fit. And typically 
our members have not been engaged, even under today's rules, in 
the kinds of information gathering that would require opt-in 
consent by a consumer.
    Senator Daines. Let me--I want to continue this discussion, 
and I think there has been talk about some of the inconsistency 
perhaps. I'm just--I'm concerned about as these regulatory 
bodies try to move at the speed of government when the world is 
moving the speed of business, how we're just always playing 
catch-up, and as Wayne Gretzky famously said, ``Skate to where 
the puck is headed, not where it's at.''
    When I send an e-mail, I add a Snapchat perhaps to a story, 
there are a number of entities collecting data. Snapchat is my 
browser, the ISP, they all have access.
    Mr. Leibowitz, the question is, Do you think consumers 
expect that all entities involved in sending an e-mail, 
snapping a photo, are held to the same privacy standards, and 
does it make sense to treat any one of these actors different 
than the other?
    Mr. Leibowitz. No. I think from the perspective of the 21st 
Century Privacy Coalition, and I think from the perspective of 
the consumers themselves, you want the same rules applying 
across the board.
    Senator Daines. So I was struck--I think, Mr. Leibowitz, 
you made a comment I think in the back-and-forth with regard to 
online ad marketing. Ten companies hold 70 percent of the 
market share, none of them are ISPs.
    Mr. Leibowitz. That's correct.
    Senator Daines. In looking at the cross-context chart in 
Professor Swire's report, it's astonishing how much consumer 
information in the ad space, the social network space, have 
compared to the ISPs. I mean, look at our phones. And, by the 
way, if you want to see the behaviors, watch members during a 
hearing, where are they at? They're camped out and probably 
oftentimes on apps even more so than surfing. And I think when 
you look at where young people are headed now, where, you know, 
there's now more daily Snapchat users than Twitter users here, 
it just crossed in the last 30 days. I mean, just profound 
quick shifts here, where they're not out there surfing, they're 
camped out on apps oftentimes. I realize the FCC does not have 
jurisdiction over the entire Internet ecosystem, but does it 
make any sense to have very prescriptive rigid rules for ISPs 
and more flexible rules for edge providers and apps when ISPs 
only see a fraction of what the edge providers see?
    Mr. Leibowitz. No, it doesn't, and I agree with you 
entirely. And it goes to another point as well, which is the 
constitutional question, because when you are treating the same 
information differently, you--it raises concerns under the 
seminal Central Hudson Test, which is a Supreme Court case from 
1980.
    Senator Daines. So, again, this is a concern where I think 
they're chasing the ISP issue right now, but look to where are 
consumers increasingly headed more so?
    Mr. Leibowitz. Yes, I agree with you, and the only other 
thing I would add is if you want to protect consumer privacy, 
which is critically important, and because the ISP--because the 
FCC invoked Title II, they took away jurisdiction from the FTC. 
The FTC has no jurisdiction over common carriers. ISPs are now 
designated common carriers and upheld under the D.C. Circuit 
decision, may be appealed. Because of that, they have to do a 
rule, but they should do an intelligent rule that is free from 
mistakes. We don't think their rule is balanced.
    Senator Daines. So let me get a point the FCC made, and 
this is my last question. In the FCC's Notice of Proposed 
Rulemaking, it offered a justification for its approach, and it 
stated, and I quote, ISPs are the most extensive conduits of 
consumer information and have access to very sensitive and very 
personal information, end quote.
    Professor Swire, does your research find this statement to 
be true?
    Mr. Swire. It depends on the word ``conduit.'' If they're 
the only conduits, then they'll be the most extensive conduit. 
So it might be a finely crafted sentence that you could 
technically say is true.
    Senator Daines. So are ISPs the most extensive conduits of 
consumer information with access to highly sensitive 
information?
    Mr. Swire. They have access to location data, which is 
considered sensitive information, but overall, the point of our 
research is that there is a lot of other folks who also see it, 
and so--look, ISPs do see a bunch of information, so do a lot 
of the other companies you were talking about, and this 
committee and everyone has to figure out overall how we're 
going to handle that.
    Senator Daines. OK. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. And thank you to 
the witnesses for being here today.
    Mr. Polka, why don't I start with you a little bit? This 
committee, if you look around at the composition of the 
Committee, it's a very rural committee, many members come from 
states that have the very, very sparse populated areas, at 
least in part, if not whole, of the state. I live in a little 
tiny town in the eastern plains, about 3,000 people. The 
nearest big city is a town that's 60 miles away, and it's 
10,000 people, and then you have to go another 60 miles after 
that to get to a town that may be 100,000 people. So these 
areas are very, very spread out, very rural. And, if Senator 
Klobuchar was here, I would say that having a McDonald's is a 
luxury.
    [Laughter.]
    Senator Gardner. That's something that many of our small 
towns, we don't have. But we talk about a lot of regulations 
here in Washington that have opt-outs and provisions, and then 
to say, you know what, we're going to pass this rule, but we 
understand there are small businesses that would be overly 
adversely impacted by this, and so we're going to give an opt-
out for this. Look at the CFPB, I know there are conversations 
about whether community banks and credit unions ought to be 
tailored, regulations tailored, under CFPB, the regulations 
under Dodd-Frank, to address smaller banks and financial 
services. Here we are talking about, well, a new rule that 
would opt out for smaller providers, but it just seems like 
that opt-out never happens, the regulations pile on, and then 
you end up with higher costs and less service in many areas. So 
how many of these companies you're talking about have full-time 
regulatory compliance officers?
    Mr. Polka. Very few. As I said in my statement, most of our 
member companies have about 10 employees. Maybe they have one 
or one and a half technical people that are out actually 
putting service into the home or maybe climbing a pole or doing 
a service call or maybe fine-tuning things in the head-end, so 
to speak, where all the signals come in. But it's very, very 
difficult. That being said, our members, over the last couple 
of decades, have worked to comply with Section 631, the Cable 
Privacy Rule, Section 222, for phone service of the CPNI rules, 
and they have worked to develop policies that have been open 
and that have been--provided disclosure to their customers. And 
they have worked to protect the sensitive data of their 
customers, whether, as Mr. Leibowitz was saying, whether it's 
banking information, school information, health care 
information, et cetera.
    But to do what the FCC is requiring, would require under 
this rule, would go to a level of complexity that when we talk 
about shifting resources would be enormous in terms of legal 
time to revise policies, to revise notices, to send out notices 
that consumers aren't expecting, to comply with higher 
standards of data security, which, as the FTC has said, is 
impossible to meet.
    Senator Gardner. So take away time from expansion, 
investment, upgrades----
    Mr. Polka. Without question, and without even an idea yet 
from the FCC how much time, man-hours, paperwork, or cost it 
would take. And, frankly, from a small business perspective, I 
would have hoped that the FCC might have done a little bit of 
homework in that area before implementing these rules or moving 
forward because, in our view, there is none, and it's not my 
word, it's the Small Business Administration's Office of 
Advocacy that said these would be overly burdensome for smaller 
ISPs. That's a fear and a threat that our members face.
    Senator Gardner. Thanks. Mr. Garfield, you spent a good 
deal of your testimony arguing about the FCC's approach to 
privacy being both inconsistent with consumer expectations and 
inconsistent with existing privacy regulations at the Federal 
Trade Commission, FTC. I've supported numerous pro-privacy 
initiatives during my time in Congress, and I want to ensure my 
constituents that--I want to ensure their private information 
is protected. But do you believe the inconsistencies you 
mentioned could actually undermine consumer privacy 
protections? And if so, how might negative consumer reaction to 
concerns with their personal privacy impact your member 
companies' businesses?
    Mr. Garfield. I made the point--thank you for the question, 
Senator Gardner--in my testimony that privacy and security are 
first principles for our companies, and so any rule or 
regulation that undermines our ability to advance both is 
highly problematic.
    Connecting your second to your first, I think this 
proceeding of the FCC is actually an opportunity, it's an 
opportunity to do something that is not a framework based on 
exemptions for small business or exemptions generally, but to 
build on things that have worked in protecting consumer privacy 
and to call on the well-established history that has been built 
by the FTC. And so it's incredibly important, and I want to 
ensure, and I think our companies in general want to ensure, 
that we don't miss the opportunity to protect consumer privacy 
in a way that's workable.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you.
    And I'm another rural advocate over here, so I'll probably 
go down the same line as the previous comments. But, frankly, 
anything that you really want to ask has probably been 
discussed here at one point or another. And I want to thank all 
of our witnesses for being here, for your comments, for your 
insight, because it has been very helpful.
    You know, we do have an answer to all this, and we actually 
saw this in this committee. We've already passed out the FCC 
Reform Act. The purpose of the FCC Reform Act was to make sure 
that the Commission, the FCC Commission, operates in a 
transparent and effective manner. And this FCC Act had two 
important principles, and one was that there would be a 
conducted cost-benefit analysis, and we've discussed that, and 
the Commission should demonstrate a market failure. And in 
neither of these cases can I tell by any discussion that we've 
had today that either of these have been the case.
    Even the Chairman, even the Chairman of the FCC, last year 
came in front of this committee and stated that consumers 
deserve a uniform expectation of privacy, in front of this 
committee he said that, and that the FCC will not be regulating 
the edge providers differently from Internet service providers. 
This is what the FCC Chairman said. So in March, there was a 
vote, a 3-to-2 vote, to switch that position. I'm wondering if 
there is anybody here on this committee, Mr. Leibowitz, perhaps 
yourself, that would tell me what has happened, what's the 
change of heart, for the FCC to say exactly the opposite of 
what they're doing today a year ago?
    Now, it doesn't surprise me that the FCC changes or, for 
that matter, Mr. Wheeler changes his mind because he changes 
his mind on everything. I mean, we have seen this consistently 
over and over and over again, that the Chairman of this 
particular Commission changes his mind. Can someone tell me, 
what has changed in the last year when this Chairman came, the 
FCC Chairman, Wheeler, came in front of this committee and said 
that the consumers deserve a uniform expectation of privacy? 
Why has all this changed?
    Mr. Leibowitz. Well, I mean, I can't tell you why. I'm a 
former FTC Chairman, I'm not an FCC Commissioner----
    Senator Heller. But he was agreeing with you. He was 
agreeing with you a year ago.
    Mr. Leibowitz. And in fairness to Chairman Wheeler, you 
know, they could modify their rule to make it look more like 
the FTC approach, that would be what the 21st Century Privacy 
Coalition would encourage them to do. But I do hear you.
    And I guess I would make one other point for those who have 
watched the FTC. At the FTC, we didn't always have unanimity, 
but we always strived to have it, and on important votes 
involving rulemakings, involving major cases, we would 
typically end up with unanimity or a supermajority, bipartisan 
supermajority, and I think that makes rules much more enduring.
    Senator Heller. I agree.
    Mr. Leibowitz. And you know this, when you have a 
bipartisan coalition, and all of you on this panel sitting here 
have put them together, it makes the rules more legitimate, it 
makes your bills more legitimate, your legislation, and it 
helps them last longer.
    Senator Heller. Well, I would just argue that transparency 
is the difference between the FTC and the FCC. That is the 
difference, is the transparency, and I think that's the reason, 
the most important reason, why we pushed this FCC Reform Act, 
Process Reform Act, is to make sure that we get this 
transparency into the FCC.
    I just want to touch on one other point before my time runs 
out, and that is the Small Business Administration, their 
advocacy office came out with concerns about this particular 
proposal, and, Mr. Polka, I would like you to respond, but they 
were knowing that the costs would include consulting fees, 
attorneys fees, hiring and training in-house privacy personnel, 
consumer notification costs, and probably opportunity costs, if 
you want to do the economics behind that also. These are the 
costs. So the question is, one, there hasn't been a cost-
benefits analysis because the FCC does not believe in a cost-
benefits analysis. But, two, do you believe that the FCC has 
considered the economic harm to small providers like those in 
my state of Nevada?
    Mr. Polka. And not to mention what you said, but also risk 
management assessments, which smaller providers don't do today, 
which would take significant legal and consultant times as well 
as other items.
    I do not believe that the specific concerns of smaller 
companies and the economic impact has been considered. And we 
were very pleased to see that the SBA noted that from the 
Office of Advocacy. Frankly, the rules relating to the FCC and 
implementation of a rulemaking does require it, to do at least 
some sort of analysis about the impact on smaller businesses. 
The FCC in its rulemaking has asked questions about the impact 
on smaller business, but to our knowledge, no type of cost-
benefit analysis, and as I said before, no estimation of man-
hours, paperwork hours, et cetera. And when we look at other 
opportunity costs that would be shifted, one of the things that 
the FCC would require us to a point would be a senior privacy 
officer, senior data security officer, someone who has that 
title within our company. As I said before, when you have 10 or 
fewer employees, I think we're going to be looking around the 
office to say, ``Do you want it?'' because it's going to be 
hard to fill.
    Mr. Swire. Can I just very briefly, as a point of 
information, under HIPAA, there's a whole part of the HIPAA 
rule called ``scalability,'' which is the Mayo Clinic has to be 
super strict and big, but two doctors in a little office have a 
different level of privacy and cybersecurity, and it may be, 
and I don't think this was fully fleshed out in the FCC's 
proposed rule, that there could be some learning done from 15 
years of experience there and how to handle small versus large 
organizations.
    Mr. Polka. And that's consistent with what the FTC has done 
over the years as well, to take size into account.
    Senator Heller. Thank you. I want to thank all of the 
witnesses.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Mr. Leibowitz, you mentioned in your testimony how ISPs 
want to enter the online advertising market, not really a new 
phenomenon. You and I probably both recall, although you may 
not because it may have been just a minor blip on your radar, 
but in 2008, Charter Communications announced plans to launch a 
pilot program in Newtown, Connecticut, that would target 
advertising to subscribers based on their Internet traffic 
through an invasive technique called deep-packet inspection.
    I was Attorney General at the time. I sent a letter to 
Charter with serious concerns about the legal and privacy 
implications, and fortunately in this case, Charter reversed 
course, abandoned the plan, and there was also, parenthetically 
I should mention, a public outcry from consumers, consumer 
advocates, and lawmakers, including none other than Congressman 
Edward Markey, of the great state of Massachusetts, although he 
may not remember it either because it was probably a minor blip 
on his radar of many accomplishments in the area of consumer 
protection.
    So what I guess I'm asking you and Mr. Ohm is, is what the 
ISPs are trying to do today different from what they were 
trying to do in 2008? In what ways has the technology for 
tracking a subscriber's browsing history and deep-packet 
inspection, DPI, grown more sophisticated and potentially more 
intrusive on consumer privacy since 2008 when Charter tried to 
do it in Connecticut?
    Mr. Ohm. So I welcome the question. It actually wasn't a 
blip on my radar. I wrote I think the only extended Law Review 
article analyzing the work of your office and others, in which 
I came down pretty hard on ISPs for the moves that they were 
making.
    The Swire report does establish that deep-packet inspection 
will not work to the same level of efficacy as it has in the 
past with encrypted communications, but it's again important to 
underscore that there are a lot of communications that remain 
unencrypted, and deep-packet inspection remains a problem that 
looms large on the horizon, and, in fact, today there is a rich 
ecosystem of vendors just chomping at the bit to sell deep-
packet inspection systems to ISPs.
    The second thing I would say is there was a time in the not 
so distant past, in fact, 2008, 2009, where because of the 
relative processing speeds of computers versus the speeds of 
these fiber optic cables, it was really hard to do surveillance 
on everybody all at once. That curve has completely flipped, 
and today a company that really does want to compile a dossier 
about every single one of their customers, even one with 
relatively constrained resources, like a small ISP, can 
absolutely off the shelf buy the technology to do something 
like that.
    Senator Blumenthal. Mr. Leibowitz, I would ask you the same 
question also about perhaps the ISPs you represent voluntarily 
committing to refrain from using deep-packet inspection.
    Mr. Leibowitz. So I think that's a great question, and we 
had discussions, and you were involved, and very successful, I 
think, enforcement advocacy and jawboning, and the DPI never 
got off the ground.
    We addressed this issue in our 2012 FTC Privacy Report 
because we thought that all large-platform providers, that is, 
companies that collect data, including ISPs, shouldn't collect 
sensitive information, so health information, financial 
information, kids' information, and we talked about deep-packet 
inspection. And, in fact, in 2012, ISPs--two ISPs committed, 
and I'll get you this, and it is in our Privacy Report, two 
ISPs committed to not using deep-packet inspection without 
advanced opt-in consent. So we thought that was really 
important to follow up on your work, and because we had 
concerns about it at the FTC, as a commission.
    So I think I would have to go back to our companies, but I 
think if what's on the table is a prohibition on deep-packet 
inspection, that would be great to know from the FCC, and a 
second iteration of their draft, if they went in that 
direction, I think would be tremendously meaningful.
    Senator Blumenthal. Thank you. Well, I would very much like 
to work with you on this issue, and as the FTC Chairman, you 
certainly helped to make the FTC the primary champion of 
privacy in the Federal Government, so I think your leadership 
then and now is profoundly important. Thank you.
    Mr. Garfield. If I may just add, your question speaks to 
the importance of having an approach and a paradigm that has 
some flexibility to it, which is part of the problem with the 
FCC's approach, is that it's very much based on rigid, 
mandatory, mechanical approach, unlike the approach the FTC has 
taken and that NIST is taking when it relates to privacy and 
cybersecurity.
    Mr. Swire. Very briefly on deep-packet inspection. So three 
points. This first is, as Professor Ohm said, there is some 
good news here, which is where there is encryption, DPI doesn't 
work. So some things have gotten better in life, even though we 
don't usually notice that.
    The second point is that deep-packet inspection has been 
used by ISPs for cybersecurity purposes to look for signatures 
in malware, and so whatever your views are on marketing, there 
are some cybersecurity things to take into consideration about 
that.
    And the third and related point is there's comments by a 
group of network researchers trying to improve overall network 
performance who have said that having a research exception so 
that it can really analyze the data has some public benefits. 
So an across-the-board ban might run into cybersecurity and 
research problems, so there should be some nuance as people 
consider that.
    Senator Blumenthal. Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Markey, do you have other questions?
    Senator Markey. May I, Mr. Chairman?
    The Chairman. Yes.
    Senator Markey. Thank you. Tell me, Professor Ohm, if you 
could, how you view this issue of what information can ISPs 
collect about consumers, and how can that information be used 
to paint a detailed picture of their lives?
    Mr. Ohm. I like when I talk to my students about this, I 
like to ask them to imagine, if they will, a stream of 
information just streaming behind you, always connected to you, 
that in a very detailed way really does kind of amount to the 
sum and substance of who you are. I think you actually said 
this earlier in the hearing, right? This is detailed, this is 
persistent, and it's very, very, very difficult to escape this, 
right?
    Senator Markey. So if a mother is searching for information 
about her 13-year-old daughter's anorexia----
    Mr. Ohm. Yes.
    Senator Markey.--the ISP has that information.
    Mr. Ohm. Absolutely, and----
    Senator Markey. And so does the website that she went to--
--
    Mr. Ohm. Of course.
    Senator Markey.--but the ISP has the information as well.
    Mr. Ohm. That's right, and it speaks to proposals that some 
have suggested that the FCC just make this about what is 
sensitive or not, right? But that is getting at this problem 
the wrong way. I mean, it's better to categorically say that 
this is intrinsically who you are, and, in fact, whether 
something is sensitive or not really might vary minute to 
minute, second to second.
    Senator Markey. So if the mother or the daughter, the 13-
year-old, went to a religious website, the ISP has that 
information.
    Mr. Ohm. Right.
    Senator Markey. Now, the daughter or the mother, they know 
that they went to the religious website, so they know what 
they're doing.
    Mr. Ohm. Right.
    Senator Markey. Now, the ISP has it as well.
    Mr. Ohm. That's right. That's right.
    Senator Markey. Is that sensitive?
    Mr. Ohm. Absolutely. Not just that they visited it once, 
but precisely to the second when they visited it, how much 
information they downloaded from it, perhaps if it's not 
encrypted, exactly what sub-page they were looking at, what 
specific affliction or what specific religious question they 
were interrogating the website about, and I think, as 
importantly, how many times they revisit it, when they revisit 
it, and the name of the game here in a big data world is to 
correlate that with everything else in your life.
    Senator Markey. So how about if I need a loan and I've gone 
to one of those websites?
    Mr. Ohm. Absolutely.
    Senator Markey. I know I'm going to that website, I need a 
loan, but the ISP knows it as well.
    Mr. Ohm. And contrast this with 1996, when we were focused 
a little bit more on telephone numbers, right? There was a tiny 
bit of comfort from a privacy point of view in not knowing 
exactly what you did when you called a particular number, and, 
in fact, examples have been made, people call weather lines and 
they call for the lottery numbers. On the Web, often the domain 
name will reveal exactly what you are doing. In fact, I've 
sometimes described it as a machine that preserves the very 
last thought that you had in your head. So that's what's being 
logged.
    Senator Markey. So how can ISPs use the information in a 
way that could harm the consumer?
    Mr. Ohm. Yes, I mean, you know, the FTC itself has 
documented in their Big Data report that they would like to 
sell this information to data brokers, and just to be clear, 
that's not what the FTC said about ISPs, but I'm talking about 
the advertising ecosystem more generally, and they would like 
to categorize you, and, you know, it might just be for 
marketing purposes. It might be that you're the kind of person 
who is more likely to be interested in this product because of 
the things that you've been reading lately.
    Senator Markey. And so how would the FCC's rules protect 
that personal information that I just outlined amongst 
thousands of other potential examples?
    Mr. Ohm. Yes. In my mind, the most important, I would say, 
feature of the rule is the fact that in an opt-in world, you 
have the comfort of not having to think about this, that if 
you're someone who is worried about this in any way, your 
choice by default is not to be tracked or for the information 
not to be used in this way. On the other hand, if you're 
someone looking for a deal with your ISP, your ISP has ample 
opportunity to sell that service to you, and you can opt in to 
the tracking----
    Senator Markey. In other words, the ISP says, ``Please give 
us the right to sell all of your private information.''
    Mr. Ohm. Yes.
    Senator Markey. You have the right to give them the 
permission.
    Mr. Ohm. Absolutely. Like I said, there's no ban here. And, 
in fact, I think ISPs are probably going to be successful 
convincing some consumers to undergo programs like this, but 
for the rest of the people, again, it's the comfort of the 
bright line, it's the ability to live under the default rule, 
which protects the expectation that a lot of consumers have and 
to address the fears that a lot of----
    Senator Markey. And I find that in general as kind of a 
rule, there are some people, they have some disease, you know, 
they're telling everyone about it.
    Mr. Ohm. Right.
    Senator Markey. OK?
    Mr. Ohm. Yes.
    Senator Markey. And there's an equal number of people 
going, ''I'm not telling anybody about this. If you tell anyone 
I have this disease, I'm going to kill you.`` Right?
    Mr. Ohm. Right.
    Senator Markey. So you should have that right, you know, 
just to say, you know, if you want to brag about it, you know, 
then you go and do it, but if you want to keep it a complete 
secret, you should be able to do so as well, and this is the 
option that the FCC is giving to people.
    Mr. Ohm. I think it's not inaccurate at the end of the day 
to boil down this rulemaking as, how can we best give the 
opportunity for consumer choice, respect that consumer choice, 
and at the same time allow ISPs to engage in innovative and 
competitive economics?
    Mr. Garfield. Professor Ohm, what you've eloquently argued 
for in your writing and today is a reworking of the privacy 
framework in the United States, and what I would humbly suggest 
is that the appropriate place for that discussion to occur is 
in Congress and not in an agency.
    Mr. Ohm. And I would just submit that I think that debate 
was had at least in part in 1996, when this Section 222 was 
enacted, and, frankly, I think it's continuing to happen. The 
House had a hearing on this last month. The Senate has a 
hearing today. There is ample opportunity to amend the statute 
if that's the will of this body, but the law on the books is 
clear and unambiguous.
    Senator Markey. I guess the way I would view it is you put 
HIPAA on the books, you put FERPA on the books----
    Mr. Ohm. So there, well, the law is there for the FCC to 
act under.
    Senator Markey. They're there as a section of the law, and 
they're acting under that section of law, so it's not a 
rewriting of the laws, it's an interpretation of the law 
reflecting the change in technology, but not a change in the 
authority under which they are operating.
    Mr. Ohm. And Mr. Garfield is right, it's a distinctly 
American phenomenon that we do not have a lot of privacy laws. 
This body has been very deliberate about identifying those 
opportunities, those moments, those industries, those contexts 
where specific law is needed, and it did so when it comes to 
telecommunications providers.
    Senator Markey. And common carriers have always been.
    Mr. Ohm. Absolutely.
    Senator Markey. Since 1934 in this special category.
    Mr. Ohm. That's right.
    Mr. Garfield. It is true that the U.S. approach is 
distinct, but the U.S. approach is not deficient, and so we 
shouldn't confuse those two things. Even in Europe, which is 
viewed as heightened privacy protection, is based on the same 
FIPs framework that the United States is, and the Privacy 
Shield that was just advanced is a reflection of the rough 
equivalence of the approaches that are taken here in the United 
States and Europe. So to suggest that just because the U.S. is 
different in fact means it's distinct is counterfactual.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Leibowitz, do you have anything to add on that?
    Mr. Leibowitz. No. I mean, I think yours is a principal 
position, Senator Markey, as it always is, but, you know, the 
vast majority of data collection online is by non-ISPs, and we 
had a term for them at the FTC, for all collectors of data, we 
called them ``cyberazzi.'' And the better approach to take, 
from my perspective, and again we can disagree, and from the 
21st Century Privacy Coalition's perspective, is try to keep 
your approach technology-neutral, and when you can't, try as 
much as possible to adopt the FTC approach, which you've been 
supportive of and which has been tested for many years and 
deemed reasonably successful.
    Senator Markey. And again, I think that, while I agree with 
you on all these social media sites in terms of the protections 
which should be there, the ISP has a special relationship, it's 
the only way you can get online. You don't have a choice. You 
know? If you want to reach 1 million websites, you've got to go 
through one company, and so that's a special relationship. 
They're gathering everything. And so that's separate from an 
individual decision which a consumer is making to go to that 
social website or that one or that one. And so I just think 
there is a distinction that exists because they control the 
conduit. The content-conduit divide is quite profound, and 
that's why this industry, this conduit industry, which is the 
ISPs, but it was the telephone company as we were growing up, 
was always under this special regime because everyone had to go 
through the same company.
    The Chairman. So, Mr. Leibowitz, is there any reason to 
think that consumers under the FCC proposal, having been given 
some greater control about how broadband providers use their 
information, may feel a false sense of security that other 
online entities are also going to be respecting those ISP-
related control decisions?
    Mr. Leibowitz. Well, I mean, they may feel a false sense of 
security, there may be consumer confusion. They may not 
understand why they can't get discounted products from their 
ISPs online without either an opt-in, or if it's for the 
broadband itself, why they can't get it at all while they can 
get it from everyone else in the Internet ecosystem. So, yes, I 
think that's a possibility.
    The Chairman. All right. Senator Blumenthal, do you have 
any more questions?
    Senator Blumenthal. I have just a couple of quick 
questions, Mr. Chairman.
    To ask a somewhat mundane question, I'm impressed--maybe I 
should direct this to both you, Mr. Leibowitz, and any other 
members of the panel who want to respond--that there is often 
overlapping and disparate responsibility for enforcement of 
privacy protections. The example that comes to mind is HIPAA. 
The Department of Health and Human Services enforces the Health 
Insurance Portability and Accountability Act, I'm saying it 
just so I can remember what it stands for, HIPAA----
    [Laughter.]
    Senator Blumenthal.--the privacy rules that operate under 
that statute and regulate the use and disclosure of protected 
health information. The FTC exercises a complementary 
jurisdiction over all the entities or individuals with access 
to the personal medical information not covered by HIPAA, and 
for many people, their introduction to HIPAA and to privacy 
concerns is when they want information about a loved one and 
find obstacles to obtaining it.
    So my question is whether this system can be rationalized. 
I know it sounds like mundane and somewhat nuts and bolts. 
Would you say that the broadband privacy rule is analogous to 
this issue?
    Mr. Leibowitz. Well, yes, Senator, I do think it is, or at 
least it was. So in the first Obama term, they came up with a 
Consumer Privacy Bill of Rights, and they wanted the FTC to be 
responsible for all privacy enforcement across the board, and 
they wanted it to focus on sensitive information. It's now--the 
answer is, yes, of course, it could be, but now with the FTC 
having invoked Title II, it has created, it has designated ISPs 
as common carriers, and so as common carriers, it can't 
forebear back to the FTC in this area.
    What it can do--and as you know, we need a cop on the beat 
because when the FTC's jurisdiction was taken away, there was 
no one left but the FCC. But what they can do, and it goes to 
your point about DPI and sensitive information, is they can 
make their rule sort of more rational and more reflective of 
the FTC's approach. And, by the way, they have authority over 
practices that are unjust and unreasonable, and that's not too 
far from the unfair and deceptive statute that you worked with 
when you were the Connecticut AG and that the FTC works with 
all the time.
    Mr. Ohm. So if I may, Chairman Leibowitz receives a lot of 
well-deserved praise for the work that the agency did in 
privacy. He made one horrible misstep while he was there, he 
hired me----
    Mr. Leibowitz. Not at all.
    Mr. Ohm.--to be a Senior Policy Advisor for privacy issues. 
I witnessed an agency that is operating at the top of its game, 
and it's developed a well-earned reputation for being one of 
the savviest privacy enforcers probably globally. At the same 
time, there is nothing that the FCC is trying to do here which 
is inconsistent with the FTC rules. There is no company that is 
going to be told X by the FCC and Y by the FTC. In fact, some 
companies will actually have engagement with both of the 
agencies in a way that's complementary, not contradictory. 
There's an MOU that the staff of the two agencies entered into 
that kind of reflects this.
    I think people have read far too much into this staff 
comment, which 99 percent of it was supportive and offered 
little tweaks, and there was one sentence in there which I 
totally concede was mildly critical of the FCC.
    And then the last thing I'll say, because I'm so glad you 
brought us back to the HIPAA analogy, one way to I think, I 
think, fairly characterize the way this debate has unfolded is 
to say we have this law, it protects health information, it 
obligates doctors and hospitals to respect it because we think 
they ought to respect it, but in today's online ecosystem, it 
turns out Fitbit knows a lot of health information about you. 
Is the argument, is the result, really that we should now say, 
you know what, there is no use regulating privacy of hospitals 
and doctors any longer, that we ought to lower the standard of 
privacy just because there are online actors who now have 
comparable sets of information? I don't think so. I think that 
would be an odd argument to try and make in the health context, 
and I think it's equally odd in the online context.
    Mr. Garfield. And the argument is not to lower, the 
argument is to respect and recognize the work that's been done 
from the agency that's well versed in this area.
    Mr. Leibowitz. Yes, and I would just add one thing. You 
have both probably read the FTC comment. You cited it, Chairman 
Thune, at the beginning of the hearing. All I would say is go 
back and read the FTC comment to the FCC. It uses the phrase, 
and it's diplomatic, as it should be, but it uses the phrase 
``not optimal,'' and I counted 28 separated instances where 
they're in disagreement or where they question a potential 
policy of the FCC. Don't take my word for it, don't take 
Professor Ohm's word for it, don't take the very smart--don't--
--
    [Laughter.]
    Mr. Leibowitz.--I mean, listen to us because I think 
collectively we have something to say, but go back and just 
listen to the FTC.
    The Chairman. I think it would be incredibly complicated to 
have to answer to multiple agencies on this issue, but you 
pointed out, Mr. Leibowitz, that the law clearly prohibits the 
FTC from regulating communications common carriers. Is there 
any clear limitation in law that prevents the FCC from 
regulating the privacy practices of so-called edge providers?
    Mr. Leibowitz. You would have to have a very expansive view 
of Section 706 to try to do that and----
    Mr. Garfield. You may get some arguments from us.
    [Laughter.]
    Mr. Leibowitz.--we would get some arguments from Mr. 
Garfield about that.
    Mr. Swire. Yes, I was going to say it may be challenged.
    Mr. Leibowitz. I don't want to say they couldn't do it, and 
I don't want to say this FCC couldn't do it. I think it would 
be a bad policy, and I don't--you know, and I think it would be 
just an extension of what we believe now is a flawed policy at 
the FCC, and you would extend it from a small group of 
collectors of information on the Internet to the vast and 
overwhelming majority. So I think we have agreement on that.
    Mr. Garfield. Yes, we do.
    The Chairman. All right. Well, with that, we'll wrap up. We 
thank you all very much for your insights and your input. And 
we'll keep the hearing record open for 2 weeks during which 
time Members are encouraged to ask or submit questions for the 
record, and upon receipt, we're asking witnesses if they would 
submit their answers to the Committee as soon as possible.
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 12:09 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Deb Fischer to 
                                Paul Ohm
    Question. Professor Ohm, you have said that it is important to keep 
privacy protections in mind for rural Americans, because they may have 
access to only one broadband provider. Living on a ranch in Cherry 
County, Nebraska, I certainly understand the challenges facing rural 
America when it comes to broadband availability. That said, I am not 
clear how the number of broadband providers in a given area is related 
to the level of privacy protection that is needed. Are you suggesting 
that the providers that offer service to rural America should be 
subject to more stringent privacy protections than other providers? It 
seems like that would only hurt broadband deployment where we need it 
most.
    Answer. I did not mean to suggest that the privacy protections for 
providers should vary based on the amount of choice consumers have in a 
given region. I am sorry if I was not clearer about this. I think the 
limited choice that most American consumers have for broadband service 
strongly supports the need for special privacy rules for broadband 
providers, such as those proposed by the FCC. A consumer who is unhappy 
with the privacy practices of his or her broadband provider can often 
not switch to a more privacy-respecting competitor, because there often 
is no viable alternative on the market. This is especially a problem 
for the millions of Americans with only one choice for broadband, a 
population that includes many rural Americans and Americans living on 
tribal lands.
    The lack of choice in broadband service is only one justification 
for the FCC's privacy rules. My testimony supplies at least three 
others (history, visibility, and sensitivity). These reasons justify a 
privacy rule for all providers, large and small, urban and rural, and 
irrespective of whether consumers in a covered region have one 
provider, two providers, or more. I once again applaud the FCC for 
proposing a strong privacy rule, one that implements Congress's intent 
in Section 222 of the Communications Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                            Dean C. Garfield
    Question 1. Mr. Garfield, as you know, the number of mobile devices 
in this country is growing at an exponential rate. The Internet of 
Things has the potential to grow our economy and make our workforce 
more productive. As we talk about the Internet of Things, concerns are 
inevitably raised about how we can protect the privacy of the data that 
is sent from device to device. While these are important concerns, I 
also worry that overly restrictive privacy regulations will stifle 
development of the Internet of Things. Do you believe that is the case 
for the FCC's proposed regulations?
    Answer. I would like to begin by thanking you for your leadership 
on the Internet of Things and the DIGIT Act. That legislation 
recognizes the important and transformational impact the IoT will have 
in our communities, our economy, and society at large when we consider 
safety, health, and other applications we cannot yet fathom. We would 
agree that overly restrictive privacy regulations could, and likely 
will, prevent investment, innovation, and experimentation in the IoT.
    As you know given your significant work on IoT, in applications 
where data that identifies individuals is collected, the collection, 
use, sharing, and protection of such data are already subject to 
existing laws. For instance, IoT manufacturers fall within the 
jurisdiction of the Federal Trade Commission (FTC) and are thus subject 
to its unfair or deceptive acts or practices authority under Section 5 
of the Federal Trade Commission Act. Grounded in Fair Information 
Practices Principles (FIPPs), the FTC's approach to privacy helped 
enable the Internet to thrive and, as a consequence, ITI companies have 
been able to offer an expanding range of services and applications 
(including IoT applications), often times free or at a nominal expense 
to consumers. Depending on the data collected and the actors involved, 
other statutory authorities may also be applicable to IoT products or 
services. There are certain protections for health information under 
the Health Insurance Portability and Accountability (HIPAA) Act and the 
Health Information Technology for Economic and Clinical Health (HITECH) 
Act, while the Graham-Leach-Bliley (GLB) Act and the FTC's Safeguards 
Rule govern the protection of information held by financial 
institutions.
    In addition to being overly prescriptive and not grounded in the 
FIPPS, which guides privacy frameworks around the globe, the FCC's 
proposed rule also subjects the same data to different requirements 
based on which sector collects the data. We believe this is a bad 
precedent and will limit not just IoT development but innovation by 
companies that may operate in multiple spaces such as broadband 
Internet access service providers who may also offer IoT products or 
applications, or online content or services.

    Question 2. Mr. Garfield, in your testimony you describe how the 
FTC and state attorneys general work together to create a meaningful 
system of enforcement and consumer protection. For example, state 
attorneys general typically enforce laws addressing ``unfair or 
deceptive acts or practices'' at the state level, while the FTC will do 
the same on the Federal level. Under the new privacy regime proposed by 
the FCC, what will be the role of state attorneys general? Will their 
authority be changed in any way?
    Answer. The NPRM specifically proposes to ``preempt state laws only 
to the extent they are inconsistent with any rules adopted by the 
Commission.'' \1\ If a state regulation or law conflicts with the 
Commission's final rule, the role of that state's Attorney General 
would be significantly diminished in that he or she would no longer be 
able to bring an enforcement action against broadband providers for 
violations of such existing state regulation or law until the state 
regulator or legislature acts to bring the rule or law into alignment 
with the FCC's rule. Further, states may continue to enforce or adopt 
new regulations or laws that are more restrictive than the FCC's rule 
so long as compliance with both the state regulation or law and the 
Federal regulation is feasible.
---------------------------------------------------------------------------
    \1\ Protecting the Privacy of Customers of Broadband and Other 
Telecommunications Services, WC Docket No. 16-106, Notice of Proposed 
Rulemaking, FCC 16-39,  276-77 (Apr. 1, 2016).
---------------------------------------------------------------------------
                                 ______
                                 
         Response to Written Question from Hon. Deb Fischer to 
                            Matthew M. Polka
    Question. Mr. Polka, in his written testimony, Professor Ohm said 
that it is important to keep privacy protections in mind for rural 
Americans, because they may have access to only one broadband provider. 
Living on a ranch in Cherry County, Nebraska, I certainly understand 
the challenges facing rural America when it comes to broadband 
availability. That said, I am not clear how the number of broadband 
providers in a given area is related to the level of privacy protection 
that is needed. It seems like putting more stringent requirements on 
rural providers would only hurt broadband deployment where we need it 
most. Do you have thoughts on this point?
    Answer. As a threshold matter, Professor Ohm is incorrect that 
rural consumers may have access to only one broadband provider. In 
virtually every community and in all but the most remote areas, 
consumers can access at least two wireline broadband providers, four 
wireless broadband providers, and two satellite broadband providers. In 
addition, as I discussed at the hearing, the question is not whether or 
not consumers get privacy protections. Of course, they do. The question 
is how to develop and implement robust privacy protections for customer 
proprietary network information consistent with other public interest 
objectives, including, as you state, enhancing broadband deployment. 
Broadband Internet access providers have been subject to the Federal 
Trade Commission's privacy regime for many years, and it has 
successfully protected consumers and proven workable for providers. 
Rather than create extensive new requirements from whole-cloth, the 
Federal Communications Commission should use this model as the basis 
for its rules.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
